<html>
<title> - NOMINATIONS OF MARY KATHERINE WAKEFIELD, TO BE DEPUTY SECRETARY, DEPARTMENT OF HEALTH AND HUMAN SERVICES; ANDREW LAMONT EANES, TO BE DEPUTY COMMISSIONER, SOCIAL SECURITY ADMINISTRATION; ELIZABETH ANN COPELAND, TO BE A JUDGE OF THE UNITED STATES TAX COURT; AND VIK EDWIN STOLL, TO BE A JUDGE OF THE UNITED STATES TAX COURT</title>
<body><pre>[Senate Hearing 114-415]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 114-415

                NOMINATIONS OF MARY KATHERINE WAKEFIELD,
                   ANDREW LAMONT EANES, ELIZABETH ANN
                     COPELAND, AND VIK EDWIN STOLL

=======================================================================

                                 HEARING

                               BEFORE THE

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                 ON THE

                             NOMINATIONS OF

MARY KATHERINE WAKEFIELD, TO BE DEPUTY SECRETARY, DEPARTMENT OF HEALTH 
  AND HUMAN SERVICES; ANDREW LAMONT EANES, TO BE DEPUTY COMMISSIONER, 
 SOCIAL SECURITY ADMINISTRATION; ELIZABETH ANN COPELAND, TO BE A JUDGE 
 OF THE UNITED STATES TAX COURT; AND VIK EDWIN STOLL, TO BE A JUDGE OF 
                      THE UNITED STATES TAX COURT

                               __________

                            FEBRUARY 4, 2016

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     
                                     

            Printed for the use of the Committee on Finance

                                __________
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE
22-427-PDF                    WASHINGTON : 2016                      
                         
________________________________________________________________________________________                         
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80e7f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>  
                       
                         
                        
                         
                         
                         COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    CHARLES E. SCHUMER, New York
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   BILL NELSON, Florida
JOHN THUNE, South Dakota             ROBERT MENENDEZ, New Jersey
RICHARD BURR, North Carolina         THOMAS R. CARPER, Delaware
JOHNNY ISAKSON, Georgia              BENJAMIN L. CARDIN, Maryland
ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      MICHAEL F. BENNET, Colorado
DANIEL COATS, Indiana                ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)
                                  
                                  
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3

                        CONGRESSIONAL WITNESSES

Hoeven, Hon. John, a U.S. Senator from North Dakota..............     6
Heitkamp, Hon. Heidi, a U.S. Senator from North Dakota...........     7
Conrad, Hon. Kent, former U.S. Senator from North Dakota.........     8

                        ADMINISTRATION NOMINEES

Wakefield, Mary Katherine, Ph.D., nominated to be Deputy 
  Secretary, Department of Health and Human Services, Washington, 
  DC.............................................................     8
Eanes, Andrew LaMont, nominated to be Deputy Commissioner, Social 
  Security Administration, Baltimore, MD.........................    12
Copeland, Elizabeth Ann, nominated to be a judge of the United 
  States Tax Court, Washington, DC...............................    15
Stoll, Vik Edwin, nominated to be a judge of the United States 
  Tax Court, Washington, DC......................................    17

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Conrad, Hon. Kent:
    Testimony....................................................     8
Copeland, Elizabeth Ann:
    Testimony....................................................    15
    Prepared statement...........................................    25
    Biographical information.....................................    26
    Responses to questions from committee members................    35
Eanes, Andrew LaMont:
    Testimony....................................................    12
    Prepared statement...........................................    37
    Biographical information.....................................    38
    Responses to questions from committee members................    43
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    50
Heitkamp, Hon. Heidi:
    Testimony....................................................     7
Hoeven, Hon. John:
    Testimony....................................................     6
Stoll, Vik Edwin:
    Testimony....................................................    17
    Prepared statement...........................................    51
    Biographical information.....................................    52
    Responses to questions from committee members................    57
Wakefield, Mary Katherine, Ph.D.:
    Testimony....................................................     8
    Prepared statement...........................................    59
    Biographical information.....................................    61
    Responses to questions from committee members................    84
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................   103

                             Communication

American Association of Colleges of Nursing......................   105

 
                     NOMINATIONS OF MARY KATHERINE WAKEFIELD, 
                     TO BE DEPUTY SECRETARY, DEPARTMENT OF HEALTH AND HUMAN
                  SERVICES; ANDREW LAMONT EANES, TO BE DEPUTY COMMISSIONER, 
                  SOCIAL SECURITY ADMINISTRATION; ELIZABETH ANN COPELAND, 
                  TO BE A JUDGE OF THE UNITED STATES TAX COURT; AND VIK EDWIN
                  STOLL, TO BE A JUDGE OF THE UNITED STATES TAX COURT

                              ----------                              


                       THURSDAY, FEBRUARY 4, 2016

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:10 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Roberts, Cornyn, Thune, Isakson, Scott, 
Wyden, Menendez, Cardin, Brown, Bennet, and Casey.
    Also present: Republican Staff: Chris Campbell, Staff 
Director; Kimberly Brandt, Chief Healthcare Investigative 
Counsel; Jeff Wrase, Chief Economist; and Nicholas Wyatt, Tax 
and Nominations Professional Staff Member. Democratic Staff: 
Joshua Sheinkman, Staff Director; Ann Dwyer, Healthcare 
Counsel; Michael Evans, General Counsel; Anderson Heiman, 
International Competitiveness and Innovation Advisor; Elizabeth 
Jurinka, Chief Health Advisor; Tom Klouda, Senior Domestic 
Policy Advisor; and Tiffany Smith, Senior Tax Counsel.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order. Today, we 
are going to consider the nominations of four individuals 
selected by the President for positions throughout the 
government.
    While many people are already transfixed by election-year 
politics, it is important that we remain focused on being 
productive in this committee and, hopefully, throughout our 
whole Congress.
    This committee has a long history of being able to set 
aside politics and achieve results that promote effective 
government no matter what party happens to be in power. While 
executive branch nominations are often the subject of political 
wrangling, my position has always been that the President is 
entitled to appoint the people he wants to work with him in his 
administration, barring serious ethical lapses or extraordinary 
circumstances.
    With that in mind, I do acknowledge the trust the President 
has placed in each of the nominees before us today, and I 
respect their recent opinions on the issues, even if I do not 
always share the same perspectives. I would like to take a few 
moments to speak briefly about each of the nominees who is here 
with us today.
    First, we have Dr. Mary Wakefield, who has been nominated 
to serve as the Deputy Secretary of the Department of Health 
and Human Services. Dr. Wakefield has an impressive background, 
including several years of service as a staffer here in the 
Senate. We are proud of her. We hope no one holds that against 
her, however. [Laughter.] Her legislative background and 
training as a nurse have, in my opinion, prepared her for 
dealing with the crises that she will almost certainly have to 
deal with as HHS Deputy Secretary.
    Dr. Wakefield has a reputation for being a problem-solver, 
and, given the breadths and depths of issues she will be 
dealing with in this position, I suspect her biggest challenge 
will be determining which problems need to be solved first. I 
look forward to hearing more about Dr. Wakefield and why Dr. 
Wakefield wants to take on this very demanding job and what 
qualities she hopes to bring to it.
    Today, we will also consider the nomination of Andrew 
LaMont Eanes to be Deputy Commissioner of the Social Security 
Administration. Currently, Mr. Eanes serves as Senior Advisor 
in the office of the Acting Commissioner and has a vast 
background in management technology and a demonstrated history 
of simply getting things done. We can always use more of that 
in our government. In fact, we could use more of that in the 
United States Senate.
    Social Security is currently the largest single item in the 
Federal Government's budget. Roughly 60 million people--or 
around one-fifth of our total population of the United States--
currently receive Social Security benefits. In fiscal year 
2015, spending for Social Security benefits totaled $877 
billion--that is with a ``b.'' That is $1 out of every $4 spent 
by the Federal Government. And, despite the success we had last 
year in averting benefit cuts in the Social Security Disability 
Program, Social Security overall remains on an unsustainable 
fiscal path, with the combined trust funds projected to be 
exhausted in just 13 years.
    Even with these fiscal challenges, operationally speaking, 
the Social Security Administration, or SSA, has fared better 
than most agencies in terms of budget allocations. Of course, 
we generally do not hear that from them. Instead, we tend to 
hear persistent claims from many SSA officials that any and all 
problems at the agency are caused by Congress's supposed 
refusal to provide adequate funding. Fortunately, however, 
there are also those at SSA who work hard day in and day out to 
ensure that taxpayers' funds are used as efficiently as 
possible for the sake of beneficiaries.
    Everything that I have seen thus far indicates that Mr. 
Eanes is one of these diligent officials working to protect the 
taxpayer resources and to make sure that the benefit programs 
can be run as efficiently and as effectively as possible. That 
is precisely what hardworking taxpayers and beneficiaries of 
these important programs deserve.
    Last but not least, we will also hear from two nominees to 
the U.S. Tax Court: Elizabeth Ann Copeland and Vik Edwin Stoll.
    As we all know, the Tax Court plays an important role in 
our tax system, as it is the only venue for taxpayers to 
challenge an assessed tax liability before being forced to 
remit payment. Judges on the Tax Court are some of the very few 
government officials who deal face-to-face with individual 
taxpayers on issues relating to their taxes. Therefore, it is 
important that we keep the Court staffed with qualified judges 
to ensure greater accountability to taxpayers and to ensure 
timely access.
    And, as with our other nominees, everything we have seen 
thus far indicates that both Ms. Copeland and Mr. Stoll are 
highly qualified, with reputations for fairness and integrity.
    In short, it appears that we have a strong slate of 
nominees before us today, and I look forward to more discussion 
about their qualifications during today's hearing. I want to 
thank all of the nominees for being here today and for their 
willingness to serve.
    I will turn to our ranking member at this time, Senator 
Wyden, for his opening remarks.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. Mr. 
Chairman, thank you for scheduling this hearing.
    The Finance Committee meets today to consider four 
nominations for key posts in the Obama administration: Dr. Mary 
Wakefield, to be Deputy Secretary of the Department of Health 
and Human Services; Ms. Elizabeth Ann Copeland and Mr. Vik 
Edwin Stoll, to be judges on the U.S. Tax Court; and Mr. LaMont 
Eanes, to be Deputy Commissioner of the Social Security 
Administration.
    First is Dr. Wakefield, who is serving as the Acting Deputy 
Secretary and has been since March of last year. When you ask 
Dr. Wakefield to describe her role, she will tell you it is 
much like being the chief operating officer. That is a 
demanding role at an agency that has 11 operating divisions, 
including the Center for Medicare and Medicaid Services, the 
Administration for Children and Families, the Food and Drug 
Administration, and the National Institutes of Health.
    Before becoming Acting Deputy Secretary, Dr. Wakefield 
served for 6 years as Administrator of the Health Resources and 
Services Administration. She is an acknowledged expert in rural 
health care, and she is an educator and a nurse. And on top of 
that, Dr. Wakefield is also a former Capitol Hill staffer, 
which means she understands how to work through the nooks and 
crannies of the Congress, and we appreciate that background as 
well. She is an extraordinarily well-qualified nominee.
    Next are Elizabeth Ann Copeland and Vik Edwin Stoll, both 
nominated to be judges on the Tax Court. These two nominees 
each have decades of valuable experience in tax law, Ms. 
Copeland in Texas, Mr. Stoll in Missouri.
    For nearly a century, the Tax Court has guaranteed an 
important level of transparency and due process, and that is 
important so as to protect every American taxpayer. It ensures 
that all Americans can get a fair and timely hearing on tax 
disputes before they have to fork over a single dollar. Without 
this system, taxpayers would be forced to pay up front and make 
their case in slower-
moving Federal courts.
    The 19 judges who make up the Court have a challenging 
mission that requires them to travel throughout the country 
and, in effect, visit dozens of cities. These judges, in my 
view, do indispensible work to ensure that taxpayers' voices 
are heard and the Nation's tax laws are enforced in a fair and 
effective manner.
    Next is Mr. LaMont Eanes, nominated to be Deputy 
Commissioner of Social Security. This program, of course, is a 
lifeline for millions of seniors, serving more than 60 million 
Americans and keeping many of them from falling into poverty. 
SSA is a very large agency, with 1,280 field offices nationwide 
to meet people's needs. It requires strong, confirmed 
leadership.
    Some have raised questions about this nomination, because 
Mr. Eanes's background is not social insurance or public 
management. My own view is that often a fresh perspective can 
be especially valuable in helping to tackle challenges in 
Federal agencies.
    Mr. Eanes brings significant management and technology 
expertise from his time in the private sector, which could be 
especially beneficial to Social Security right now so as to be 
able to deliver the best customer service, and this has been a 
special area of interest of mine going back to my days when I 
was director of the Oregon Gray Panthers and Senator Heitkamp 
was in Oregon.
    Finally, I want to remind the committee that Social 
Security has not had a confirmed Commissioner in place since 
February of 2013. This committee should consider whether or not 
it is wise to confirm a deputy before a Commissioner is 
confirmed.
    Social Security runs best when its uppermost leadership 
positions are filled by strong leaders who have been approved 
by the Senate, but legitimate questions have been raised about 
the best way to proceed. I look forward to discussing that with 
Chairman Hatch and with our colleagues on both sides of the 
aisle, and it is my hope that the administration puts forward a 
nominee to be Commissioner for the committee to process as soon 
as possible.
    One last comment, Mr. Chairman, about some of our guests. 
Normally, a State has two Senators, but apparently North Dakota 
has three, and I do not think that is all so bad. [Laughter.]
    Because the North Dakota Senators consistently work in a 
bipartisan and thoughtful way, they have always approached 
policy issues in exactly the kind of fashion that is the most 
likely to produce results and, of course, as Chairman Hatch and 
I have discussed, is really key in the Finance Committee.
    Chairman Conrad is with us today, and for those who are not 
aware and some of our newer members, I think you cannot even 
put an estimate on the number of hours in this room that 
Chairman Conrad did thoughtful, bipartisan work.
    I just would refer to an article this morning in The 
Washington Post that described Newt Gingrich and Tom Daschle, 
talking about the need for bipartisanship. And Senator Conrad 
helped all of us to ensure that, in the Affordable Care Act, 
there was a bigger role for the States in making health policy, 
something that was very attractive to Senators on both sides of 
the aisle. So I am very glad that Chairman Conrad is with us.
    I have asked the staff to ensure that there is a stand, an 
easel available in case Chairman Conrad needs to bring in some 
of his legendary charts.
    But, Kent, it is wonderful to have you here. Dr. Wakefield 
is so lucky to have all three of you in her corner, and it is 
especially good to see my former seatmate. And by the way, just 
so it is clear, Chairman Conrad would have been a wonderful 
chairman of the Senate Finance Committee.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. Thank you, and I agree with that, by the way.
    We have four nominees before us today. First, Dr. Mary 
Katherine Wakefield is nominated to be Deputy Secretary of 
Health and Human Services. As I mentioned in my opening 
statement, you have a very distinguished background, which is 
apparent from the fact that there are three of our colleagues 
here today to speak for you.
    I want to thank Senators Hoeven and Heitkamp for being here 
today. But I also want to thank our former Finance Committee 
colleague, Senator Conrad. He was one of the most enjoyable 
persons to work with in my whole time in the U.S. Senate, and 
we are grateful to have you here. We just really wish we had 
you on the committee here now, but you have gone on for filthy 
lucre and--that is supposed to be funny. I think it is really 
funny. [Laughter.] It is a biblical quote, you know. It is not 
so bad. It is not so bad. I notice your suits are much better 
than they used to be here. [Laughter.]
    I have to say we miss you. You were always a very 
thoughtful person, and with your background in finance and 
everything in your State, you were a great asset to all of us, 
and we all really appreciate you.
    We appreciate these other two colleagues too. They are 
doing a great job for their State. It is very impressive that 
you have three great people here today to speak for you. I 
think it is a great thing.
    So we will go ahead with the nominee. If you will introduce 
your family first, then we will have the testimony of these 
three.
    Dr. Wakefield. Thank you, Senator Hatch and Senator Wyden 
and committee members. I think I have a nephew here. I am not 
sure. I have not seen him.
    Are you here? Lucas, just stand up. This is one of my 
nephews, the son of one of my favorite brothers, who 
regrettably was killed in a car accident about 9 years ago. My 
nephew was injured in that accident, but he is beloved by his 
entire family, including his old Aunt Mary.
    So, Lucas, I am so glad you are here.
    The Chairman. Good to have you with us.
    Then why don't we go ahead and start with you, Senator 
Hoeven? Then we will go to Senator Heitkamp, and then we will 
finish up with our Senator Conrad.

                STATEMENT OF HON. JOHN HOEVEN, 
                A U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman. I thought your 
remarks were very pithy, witty, and very funny. [Laughter.] I 
enjoyed them all.
    The Chairman. I am not known for that.
    Senator Hoeven. I am trying to get on Finance. [Laughter.]
    The Chairman. That was a good start.
    Senator Hoeven. I am pleased to be here, both with Senator 
Heitkamp and Senator Conrad. It is certainly good to see you 
again, Senator Conrad.
    Thank you, Chairman Hatch and Ranking Member Wyden. It is a 
pleasure to introduce Dr. Mary Wakefield and encourage your 
support for her confirmation as Deputy Secretary at the U.S. 
Department of Health and Human Services.
    I have had the pleasure of working with Dr. Wakefield 
during my time as Governor of North Dakota and more recently as 
a member of the U.S. Senate, and she is a dedicated public 
servant and a hardworking health-care advocate.
    Dr. Wakefield is a native of my home State of North Dakota, 
where she began her distinguished career in health care and 
public service. She has the clinical and academic and policy 
expertise to qualify her for this position. Coming from North 
Dakota, she also has the work ethic necessary to help her 
succeed.
    Early on in her career, Dr. Wakefield gained vital 
experience working as a nurse, while also teaching nursing at 
the University of North Dakota. From there, Dr. Wakefield went 
on to work for North Dakota Senator Quenton Burdick and our 
colleague who is here today, Senator Kent Conrad, specializing 
in health policy and rising to serve as his Chief of Staff.
    Following her service on Capitol Hill, she returned to 
academia, first at George Mason University, then back to her 
roots at the University of North Dakota. As Governor of North 
Dakota, I saw firsthand Dr. Wakefield's dedication and 
commitment as associate dean and the director of the UND Center 
for Rural Health. Like Dr. Wakefield, I believe that regardless 
of zip code, people should have access to high-quality, 
affordable, and accessible health care.
    Dr. Wakefield understands firsthand the challenges 
associated with providing quality, affordable, and accessible 
health-care services, particularly in rural and tribal 
communities. This knowledge will be a valuable asset to her as 
she helps to lead HHS. Dr. Wakefield has devoted her career to 
improving health care and serving the public, and I encourage 
this committee to support her nomination and send her to the 
full Senate for confirmation.
    Again, Mr. Chairman, and to the ranking member and all the 
members of the committee, thank you for allowing me to be here 
on Dr. Wakefield's behalf and for your consideration of her 
nomination.
    The Chairman. Thank you, Senator Hoeven.
    Let us turn to Senator Heitkamp now.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                A U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you, 
Mr. Ranking Member, for the kind introduction, especially to my 
colleague and great friend to the left of me. He does not like 
it when I say he is to the left of me. [Laughter.]
    What you do not know about Senator Conrad is that he has 
traded in this suit for a basketball jersey, because, in spite 
of being age- and height-deficient, he still thinks he has an 
opportunity for a contract in the NBA. So if any of you can 
help him with that, that would be remarkable.
    The Chairman. I will be happy to represent him. [Laughter.]
    Senator Heitkamp. Please; the Jazz might need someone of 
his tenacity.
    The Chairman. What do you mean they might need someone? 
[Laughter.] Actually, they are doing pretty good right now.
    Senator Heitkamp. I wanted an opportunity to maybe tell you 
things that are not on the resume. Number one, I have been on 
the other side of these kinds of committee hearings, and I 
always wonder, will they return my phone call? Will they tell 
me the truth?
    Will they work harder than anyone will ever work? Will they 
work, with common sense and with a sense of dignity and 
purpose? Will they work collaboratively? Will they hold people 
accountable in agencies where sometimes we are enormously 
frustrated that they are not held accountable?
    And I am proud to sit here and endorse and recommend Dr. 
Mary Wakefield to all of you, because she will return your 
phone calls. She will give you a straight answer in terms of 
what those challenges are. She will hold people accountable.
    The Chairman. I am going to remember this, Doctor.
    Senator Heitkamp. She will hold people accountable who are 
not doing their job. She will make this agency work better.
    The one thing that she also will do that might irritate 
you, Mr. Chairman, is she talks very fast, and occasionally you 
need to slow her down, because she thinks as fast as she talks.
    So she is a great friend. But the last great recommendation 
is that no one cares more about people, especially people who 
are disadvantaged, people who need health care in this country, 
people who suffer and die way too early because they do not get 
quality health care.
    She is a member of the most trusted occupation in America, 
and that is not politician and it is not lawyer. It is American 
nurses. And it is time that we take that expertise and that 
leadership that nurses show every day, put it in among the 
highest ranks, and bring that compassion, along with the 
efficiency that nurses are taught and believe in.
    So I recommend her. I could not recommend Mary any higher 
to you as a potential candidate for this job.
    Thank you, Mary, for letting me introduce you.
    The Chairman. Thank you so much.
    Senator Conrad, we are looking forward to hearing from you.

                STATEMENT OF HON. KENT CONRAD, 
             FORMER U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman.
    Chairman Hatch, first of all, thank you for holding this 
hearing. We appreciate it very much.
    Ranking Member Wyden, thank you very much for your kind 
remarks. We did spend a lot of time together here and in the 
Budget Committee, and it is so good to be back and see you.
    Senator Roberts, wonderful to see you. We spent a lot of 
hours together working on agriculture.
    Senator Thune, Senator Burr, Senator Scott, I did not have 
a chance to serve with you.
    Senator Cardin, you are a dear friend.
    I am here--I am going to speak very briefly. Mary Wakefield 
was my Chief of Staff, and she was simply outstanding. We have 
heard a lot of talk in the presidential campaign about somebody 
maybe being low-energy. Mary Wakefield is high-energy. She is 
super high-energy.
    I remember I used to go in Mondays, we would have a staff 
meeting, and I would give her a long list of things to do for 
the week. Then I would come back Monday afternoon and it was 
all done, and she got two more pages of things checked off.
    That is Mary Wakefield. She gets things done. That is 
exactly what is needed at this department.
    She is also somebody of high character. She referenced the 
terrible accident that occurred in her family, and I remember 
watching her response. When her brother was killed, Mary waded 
right in, and she was the rock for that family. She was the 
chief caregiver, she was the one who provided the emotional 
support, the financial support. She was all in for her family. 
And that is the way Mary Wakefield is.
    She is simply exceptional. She is whip-smart, she is 
hardworking, she is honest, she is exactly what you would hope 
to attract in these positions of high responsibility. And she 
is also fair-minded.
    Let me just conclude on something Senator Heitkamp 
mentioned. She will return your calls. I remember being so 
frustrated when people whom we had confirmed would not call you 
back.
    I will tell you, not only will she call you back, she will 
give you a straight and honest answer. And, you know, I do not 
think there is any higher commendation that I can give than 
that.
    So it is good to be back. I am so delighted you are holding 
this hearing, and I ask you to move this nomination as 
expeditiously as possible. Dr. Mary Wakefield will make you 
proud.
    Thank you.
    The Chairman. Thank you, Senator.
    Doctor, these are very wonderful statements on your behalf. 
We will now take your statement.

 STATEMENT OF MARY KATHERINE WAKEFIELD, Ph.D., NOMINATED TO BE 
  DEPUTY SECRETARY, DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                         WASHINGTON, DC

    Dr. Wakefield. Chairman Hatch, Senator Wyden, and members 
of the committee, thank you for inviting me here today to 
discuss my nomination to serve as Deputy Secretary of the 
Department of Health and Human Services.
    I want to especially thank my North Dakota Senators Hoeven 
and Heitkamp for being here and for their terrific work on 
behalf of all North Dakotans. And a very, very special thank 
you to Senator Conrad, who served on this committee. As his 
Chief of Staff, I learned something valuable from him every 
single day that I worked for him. Perhaps most importantly, I 
learned that serving the American people is a high privilege, 
and I also learned that how we spend every taxpayer dollar 
matters.
    Each and every day, HHS is working on behalf of the 
American people. It conducts cutting-edge research through the 
National Institutes of Health. It protects our food and 
medicine through the Food and Drug Administration. It fights 
outbreaks of disease at home and abroad through the Centers for 
Disease Control and Prevention. It supports the health of our 
Nation's children and those in need through human service 
programs like Head Start.
    Internationally, we have worked closely with global leaders 
to create the systems that will help us prevent and respond 
quickly to global threats, like Ebola. At home, we have 
convened leaders from every State, including your home States, 
to respond to the rise in opioid addiction and overdoses.
    I am honored that President Obama has nominated me to serve 
as the Deputy Secretary, and I am deeply appreciative of this 
committee's consideration of my nomination. I believe that my 
commitment to the people that our departments serve, as well as 
my background and expertise, have prepared me for this 
position.
    The steps on my path toward being seated here today began 
when I was working in a small rural hospital in North Dakota in 
the early 1970s, when I was balancing nurse aide jobs, working 
the night shift in a newborn nursery and an evening shift in a 
local nursing home. In those settings, I had the opportunity to 
see nurses and others helping to improve and to save people's 
lives. I found hometown heroes in those buildings, and I was 
particularly drawn to the impact that nurses had.
    While I have worked in urban health care settings, I have 
always been especially drawn to the strengths and challenges 
facing rural health care. I have seen headwaters of innovation 
in health care dotting our country's rural landscape, from 
innovative applications of tele-health technology to 
coordinated team-based care. And across over 8 years of working 
as staff to two U.S. Senators, and particularly when working on 
rural health issues, I learned that some of our best partners 
sat on both sides of the aisle. And for 6 years, I brought that 
orientation to the job of Administrator of the Health Resources 
and Services Administration.
    If confirmed as Deputy Secretary, these experiences will 
inform how I approach my work, as well as my focus on 
performance improvement across our wide breadth of programs. I 
will work as hard as I possibly can, because I know that people 
depend on what we do, and they depend on how well we do it, and 
also because I work for a Secretary who is fully dedicated to 
doing everything that she can through the end of this 
administration to deliver impact for the American people.
    At HHS, the primary focus of the Deputy Secretary's role is 
to help manage the Department's operations, from organizational 
structure to infrastructure to personnel, and to do it with 
priority focus on efficiency and effectiveness.
    If confirmed, I will work with senior leaders and frontline 
staff to prioritize data security. I will work to build our 
strategies and to ensure our next generation of senior leaders 
that they have the skills and knowledge that they need to 
execute the Department's mission. And I will work to make sure 
that we continue to drive organizational process improvements 
forward and keep people accountable for measurable performance. 
And I will work to strengthen HHS's culture as a learning 
organization that focuses on adopting good ideas, no matter 
where they come from.
    The approach that I bring to this role recognizes the value 
of finding common ground. Those of you who have worked closely 
with Secretary Burwell know that that is her orientation, and 
it is mine as well. And frankly, it really is in a nurse's DNA 
to work collaboratively and to address problems fully and 
quickly. If confirmed, that is the same approach that I will 
bring to my work and to working with you and your colleagues on 
behalf of the health of the American public.
    Chairman Hatch and Senator Wyden, thank you again for the 
opportunity to testify, and I look forward to answering your 
questions.
    [The prepared statement of Dr. Wakefield appears in the 
appendix.]
    The Chairman. Thank you so much. As you can see, I have a 
lot of things going on up here. But we are grateful for your 
testimony.
    Next, we have Andrew LaMont Eanes, nominated to be Deputy 
Commissioner of Social Security. Now, Mr. Eanes comes from a 
management background, which I think is something that could 
really be helpful to the Social Security Administration. I 
think it is a very important thing. I think it is great you are 
willing to come from the private sector and share your 
experience there through government service.
    I understand that Senator Roberts would like to introduce 
you--you and your family here today. So we will turn to Senator 
Roberts.
    Senator Roberts. Thank you, Mr. Chairman, for that 
privilege. I am going to be making some comments on behalf of 
LaMont Eanes, who is the nominee for Deputy Commissioner of the 
Social Security Administration. But I think we all can still 
recognize the sartorial splendor and countenance that the 
former member of this Senate has, which has already been 
discussed at length by other members, Senator Kent Conrad. 
Kent, Seth Curry you are not. I just wanted to toss that out. 
[Laughter.]
    It has been pointed out how many hours that you worked on 
this committee and how many hours we worked together on behalf 
of agriculture. All that is true, but I also spent countless 
hours acting as the acting presiding officer of the U.S. 
Senate, listening hour after hour after hour to the sage advice 
of the distinguished Senator.
    He was known as the chart master of the Senate. I think we 
even designated by resolution that you were the chart master, 
and I can only ask, is it possible that you could have brought 
to the committee the historic chart, the $12-billion picture of 
Bossy, the poor bovine frozen in place?
    Do you have that? You indicated to me that that chart was 
worth $12 billion in agriculture payments to your constituents.
    Senator Conrad. Six billion.
    Senator Roberts. Six billion. It is good to see you back, 
Kent.
    Now, it is my privilege to introduce LaMont Eanes, the 
nominee for Deputy Commissioner of the Social Security 
Administration. Mr. Chairman, my colleagues, I know LaMont 
Eanes as an impressive businessman, innovative thinker, and a 
very proud Kansan from Johnson County, KS.
    As we all know, Social Security is an important component 
of American workers' retirement planning. It also serves as a 
vital safety net for individuals with disabilities and those 
surviving family members of workers who have passed away. 
Unfortunately, the way things are, fraud, exhausting benefits, 
increases in beneficiaries, and questionable guidance have 
plagued this very vital program.
    LaMont's nomination comes at a time of needed leadership 
and experienced management skills at the agency. While 
assisting the Acting Commissioner, LaMont has already brought a 
wealth of experience to critical activities within the agency.
    He quickly committed to developing and implementing online 
services to improve beneficiary interactions. Additionally, he 
has worked with the improper payments and oversight team to 
ensure improvements are created and correctly implemented to 
maintain the integrity of this program.
    He has also established the Information Technology 
Investment Process Team. This team was formed to streamline the 
process for technological investments to support the overall 
mission of the Social Security Administration. Furthermore, his 
dedication to efficiency drove him to develop an office that 
will provide an analysis of project performances across all 
programs in the agency.
    So, given his record as a leader in private, public, and 
government sectors, I know he will bring a balanced perspective 
to the agency, and I look forward to additional meaningful 
changes that will increase efficiency, decrease fraud, and 
improve beneficiary experience.
    As he and I discussed in my office, I know myself and many 
of my colleagues are concerned with the fraud, inefficiency, 
and lack of guidance that lies within the system, and I look 
forward to hearing reasonable solutions that can serve as a 
guide for tomorrow from Mr. Eanes.
    LaMont, welcome to the committee. It has been my privilege 
to introduce you.
    The Chairman. Mr. Eanes, that is high praise. We will turn 
to you for any statement you care to make at this time.
    Now, we are probably going to have a vote about 11:30. 
Hopefully, we can conclude this before we have the vote.
    But go ahead, Mr. Eanes. We are happy to have you here.

   STATEMENT OF ANDREW LAMONT EANES, NOMINATED TO BE DEPUTY 
  COMMISSIONER, SOCIAL SECURITY ADMINISTRATION, BALTIMORE, MD

    Mr. Eanes. Thank you, Mr. Chairman. And thank you for that 
kind introduction, Senator Roberts.
    Mr. Chairman, Ranking Member Wyden, members of the 
committee, thank you very much for scheduling this hearing.
    As I start, I would like to also acknowledge my thanks for 
my family being here: my wife Linda; my son Austin, from Denver 
now; and my son Drew, from Johnson County, KS, as well as his 
wife Hannah.
    The Chairman. We are happy to have all of you here. It is a 
privilege to have you in this hearing.
    Mr. Eanes. It is an honor to be here today as President 
Obama's nominee for Deputy Commissioner of Social Security.
    I grew up in the Midwest, in Ohio. I received my 
undergraduate degree in political science from Ohio Northern 
University and MBA from Baldwin Wallace College. I also 
completed marketing and management programs at Duke University, 
the University of Kansas, and Columbia University.
    I have spent the past 25 years of my career in the private 
sector and have performed nearly every function in an 
enterprise. My career path has led me to experiences in places 
beyond Ohio's borders, including Kansas, Missouri, Florida, 
Massachusetts, Maryland--even to Europe, Asia, and Australia.
    Prior to joining SSA, I served in progressively more 
responsible roles and co-founded two small businesses. I have 
demonstrated managerial expertise in finance and operational 
roles, focusing on improving workforce efficiency and 
productivity through strategic planning and technology 
adoption. I am now at a point where I believe that my 
experience, dedication, and ingenuity can be an asset in the 
public sector as well.
    For the past 15 months, I have served as Senior Advisor to 
the Acting Commissioner of Social Security, Carolyn Colvin. 
Acting Commissioner Colvin has asked me to lead efforts in 
succession planning, online 1099 replacement, better 
prioritization of information technology projects, addressing 
improper payments, and improving telecommunications services. I 
have worked side-by-side with dedicated employees at SSA. Every 
day, I have been impressed by their tireless efforts and 
determination to serve the American public with care and 
compassion.
    The amount of change and progress the world has witnessed 
in technology the last few decades, even the last 10 years, is 
staggering. If Social Security is to meet service expectations 
for generations to come, the agency will have to be inventive, 
bold, and thoughtful in new ways. I believe I can contribute to 
SSA by building upon its successes of the past with innovative 
strategies for the future.
    This is the lesson I took from my private-sector experience 
and what will guide my work at SSA: no matter how good we are 
today, we can be better tomorrow.
    This opportunity with SSA would be a great professional 
honor, as the agency's mission is closely aligned with my own 
personal goals. I hope to pair my career experience with my 
passion for serving the underprivileged and vulnerable children 
and families in our communities.
    I have previously served on community and civic 
organizations, including the United Way, the Parent-Child Home 
program for early literacy and school readiness, the Ozanam 
Home for at-risk youth, the Love Fund for Children, and Life 
Concepts, Incorporated, helping people with disabilities 
achieve their goals. These experiences have only enhanced my 
awareness that service to our fellow citizens, especially those 
most in need, is perhaps the greatest good we can accomplish.
    SSA provides an amazing opportunity to make a difference. 
The programs the agency administers provide benefits to about 
one-fifth of the American population, providing financial 
protection in retirement and in the event of serious 
disability.
    I have observed that the agency is rethinking the way it 
conducts business. It is developing innovative ways to meet 
increasing workload demands and provide customer-driven options 
for service delivery by providing more choice. These upgrades 
are important and necessary. At the same time, SSA must prepare 
for the anticipated employee retirement wave and addressing its 
aging IT infrastructure. These are opportunities that could 
benefit from a private-
sector perspective.
    I believe my philosophy of continuous improvement will pair 
well with the agency's can-do spirit. If confirmed, I will work 
to leverage my private-sector experience. I will strive to help 
the agency, in its work, adopt new technology, but not just for 
technology's sake, mind you, but in ways that have real and 
measurable effect on the agency's operation and for the 
American taxpayers. I will do my part to help the agency face 
its challenges and support open government principles of 
transparency, participation, and collaboration.
    As the President recently said, Social Security is now more 
important than ever. If confirmed, I will bring the full 
measure of my business experience toward the continued success 
of this enduring promise. I want the American people to be 
confident that the Social Security system is administered 
effectively and efficiently.
    Finally, I want Americans to be confident that Social 
Security will be there for all of us today, tomorrow, and well 
into the future.
    Thank you, and I am happy to answer any questions you might 
have.
    [The prepared statement of Mr. Eanes appears in the 
appendix.]
    The Chairman. Thank you so much.
    Next, we will hear from Elizabeth Ann Copeland, nominated 
to the U.S. Tax Court.
    I mentioned the importance of the Tax Court in my opening 
statement. And we are also honored to be joined at this hearing 
by several of your prospective colleagues, if you are 
confirmed, and I believe you will be. I want to recognize Chief 
Judge Thornton, Judge Cohen, Judge Colvin, Judge Paris, Judge 
Pugh, Judge Nega, and Chief Special Trial Judge Panuthos.
    That is pretty impressive. So we are happy to welcome all 
of you judges here as well. We know you do a terrific job for 
our country, and we are proud of the Tax Court.
    So, Ms. Copeland, please introduce your family. Also, I 
understand Senator Cornyn will make an introductory statement.
    Senator Cornyn. Mr. Chairman, I can jump in here, if you do 
not mind. Is that all right?
    The Chairman. That would be fine.
    Senator Cornyn. And my apologies, Ms. Copeland. The 
committee, we are all multi-tasking a little more than usual 
this morning with the National Prayer Breakfast, nurturing our 
souls, and then trying to take care of the people's business.
    But, Ms. Copeland, welcome to you and your family. Were you 
able to bring family members with you?
    Ms. Copeland. I was, Senator Cornyn.
    Senator Cornyn. Please introduce them.
    Ms. Copeland. I would like to really quickly introduce my 
very supportive husband, Brad Wilder; my awesome mother, 
Josephine Copeland; my dad, William Copeland; my step-mom, 
Barbara Copeland; my son, Davis Wilder; and my best friend, 
Ruth Geisler. Most from Texas, a couple from Ohio.
    Senator Cornyn. A couple of them got away, I guess, it 
sounds like.
    Ms. Copeland. Yes, a couple got away.
    Senator Cornyn. Mr. Chairman, Ranking Member Wyden, and 
members of the committee, it is my honor to introduce a fellow 
Texan who has been nominated to serve on the United States Tax 
Court.
    Ms. Copeland is a graduate of the University of Texas 
School of Law and is a certified public accountant, and she 
practices law with some of the most outstanding lawyers in San 
Antonio, TX, at Strasburger and Price, and with the Oppenheimer 
firm, I know, before that.
    Her experience involves dealing with complex tax issues, 
including the handling of employment tax disputes, innocent 
spouse representations, IRS appeals, and Tax Court litigation. 
She is a former attorney advisor to the Tax Court and has 
served as chair of the State Bar of Texas Tax Section.
    She is responsible for establishing the United States Tax 
Court pro bono program, the first statewide program of its kind 
in the Nation, which is now used as a model for other State 
bars to provide pro bono assistance to low-income taxpayers.
    Finally, Tax Analyst named her the 2012 Tax Person of the 
Year in its national edition of ``Tax Notes,'' a publication 
that many tax experts consider to be the leading publisher of 
tax information.
    Ms. Copeland is highly regarded by her peers in the legal 
community, and I think she will be a valuable addition to the 
Tax Court.
    Ms. Copeland, I will add, when the Chairman of the Finance 
Committee expresses confidence that you will actually be 
confirmed, you will be confirmed. So I look forward to hearing 
your testimony and thank you for your willingness to take on 
this big responsibility.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. I am very impressed with 
your statement.
    I think you will be confirmed, so do not worry. Senator 
Cornyn here, he has been known to kill. [Laughter.] You are 
very well represented by him. We are happy to take your 
statement.

STATEMENT OF ELIZABETH ANN COPELAND, NOMINATED TO BE A JUDGE OF 
          THE UNITED STATES TAX COURT, WASHINGTON, DC

    Ms. Copeland. Thank you for those kind words, Senator 
Cornyn. I really appreciate it.
    Chairman Hatch, Ranking Member Wyden, and distinguished 
members of the committee, I would like to thank you for the 
privilege of appearing before you today as the President's 
nominee to serve as a judge of the United States Tax Court. I 
am grateful to the President for his confidence in me. And I 
wish to thank the staff here who have been very generous with 
their time getting me to this point and working with me on my 
nomination.
    As you may know, I would not be here without the support of 
many throughout my life. I already introduced my family. I am 
so happy you are here with me today sharing this moment.
    Early in my career, I had the opportunity to work as an 
attorney advisor for Judge Mary Ann Cohen. I learned so much 
under her direction. Upon leaving the employ of the Tax Court, 
I returned to my hometown of San Antonio, TX, which is also 
Senator Cornyn's hometown, to pursue a career in tax law. I 
spent over 2 decades specializing in tax controversy work and 
litigation, originally with the law firm of Oppenheimer, Blend, 
Harrison, and Tate, which later merged with Strasburger and 
Price.
    While practicing in Texas, I received my board 
certification in tax law from the Texas Board of Legal 
Specialization. I was very active with the ABA's Section of 
Taxation. I should mention that a lot of my friends from the 
ABA are in the audience as well, and I appreciate their 
support.
    I also served as chair of the State Bar of Texas, Tax 
Section, 2013 through 2014. As a member of the Texas State Bar, 
I realized there was a need for unrepresented taxpayers to have 
assistance in Tax Court, most of whom could not afford legal 
counsel.
    So, with the help of Chief Special Trial Judge Panuthos, 
who is here today, and representatives from IRS area counsel, 
we established an all-volunteer pro bono program to assist in 
all five cities where the Tax Court sits in Texas. It was one 
of my most treasured accomplishments, and that program is still 
thriving today.
    Working with the program and also in my own practice, I 
have seen the key role that the Tax Court plays in shaping tax 
law. It is imperative for taxpayers to have their cases heard 
before an impartial party and for both the taxpayer and the IRS 
representatives to be treated with respect.
    I believe my strong background in tax controversy work will 
provide me a foundation to fairly and impartially administer 
the tax laws with congressional intent. If confirmed, I would 
hope to maintain and enhance the public's confidence in the Tax 
Court as a neutral prepayment forum for resolution of tax 
disputes, as you stated, Chairman Hatch.
    Thank you so much, Chairman Hatch and Ranking Member Wyden, 
for having me here today, and thank you to the other members of 
the committee for your consideration.
    I will be happy to answer any questions.
    [The prepared statement of Ms. Copeland appears in the 
appendix.]
    The Chairman. Thank you so much. We are really happy to 
have all your family members and friends here today for these 
various nominees. We are grateful that you would take time out 
of your busy schedules to do this.
    At this point, let me just turn to our last witness, and 
that is Vik Edwin Stoll, who is also nominated to the U.S. Tax 
Court.
    Mr. Stoll has a long history working as a tax professional, 
with many years spent in private practice before serving 
Jackson County, MO as Director of Collections, I believe, and 
Deputy Chief Administrative Officer.
    Your nomination to the Tax Court is the culmination of a 
very distinguished career. I noticed that the first job listed 
in your Finance Committee questionnaire is a sod worker in 
Kansas City. Since then, you have represented, I am sure, a 
large number of taxpayers and, uniquely, also been on the 
government side of tax as Director of Collections of Jackson 
County. You stand to bring a perspective not shared by many 
people to the Tax Court.
    Would you explain to us what a sod worker is?
    Mr. Stoll. Sod worker?
    The Chairman. Yes.
    Mr. Stoll. Just throwing down sod on the golf course and 
making sure that it grows. That was it. [Laughter.]
    The Chairman. That sounds good enough to me. I myself 
learned a trade, a skilled trade, as a young man. I worked 10 
years in the building construction trade unions, and I am happy 
I did. I think you will understand a lot of people and their 
problems, and that is just great.
    Both of you are just excellent nominees, as far as I am 
concerned.
    Now, I understand no one was able to travel to be here 
today, though I want to give you the opportunity to recognize 
anyone you care to.
    Mr. Stoll. Thank you, Mr. Chairman. Yes. No one from my 
family was able to attend, but I know that they are supporting 
me 100 percent.
    The Chairman. That is great. If I hear from any of them who 
do not support you, I will be---- [Laughter.]
    Mr. Stoll. Please let me know.
    The Chairman. I want to thank you nominees and, of course, 
all those who have taken time out to come and speak for you.
    You have not given your testimony yet. Go ahead, Mr. Stoll. 
I have so many things on my mind, I seem scatterbrained today. 
This is a really tough day.
    But go ahead; please give your statement.

 STATEMENT OF VIK EDWIN STOLL, NOMINATED TO BE A JUDGE OF THE 
            UNITED STATES TAX COURT, WASHINGTON, DC

    Mr. Stoll. Mr. Chairman, Ranking Member Wyden, and 
distinguished members of the committee, thank you for allowing 
me the opportunity to be here today. I am greatly honored to 
have been nominated to be a judge on the United States Tax 
Court, and I wish to sincerely thank President Obama for that 
nomination and the confidence that he has shown in me.
    It is an honor for me to be here today, and I am grateful 
for your consideration of my nomination and appreciative of the 
committee staff for their hard work in expeditiously completing 
the processing for that consideration.
    I also would like to thank my wife of 33 years, Jan, and 
our three children for the support, encouragement, and 
inspiration that they have always given me. And I will always 
be most grateful to my parents, career government employees, 
for providing me with a deep appreciation for the importance 
and privilege of public service.
    Ever since I first appeared before a Tax Court Judge, 
representing a client as a young law firm associate more than 
33 years ago, I have had a strong desire to be a judge on the 
United States Tax Court.
    I practiced law for nearly 30 years in the private sector, 
with Federal tax planning and controversy, including Tax Court 
practice, as large parts of that law practice. In that 
practice, I enjoyed an excellent working relationship with IRS 
personnel, revenue agents, revenue officers, special agents, 
appellate conferees, and district counsel.
    During that time, I also had the privilege of serving the 
public in many different roles, including serving nearly 4 
years as a member of the Missouri Housing Development 
Commission, more than 4 years as a member of the Missouri 
Development Finance Board, approximately 3 years as a member of 
the Desegregation Monitoring Committee of the U.S. District 
Court for the Western District of Missouri, 3 years as a member 
of a local school board, and 1 year as a member of my city's 
Charter Review Commission.
    For the past 6\1/2\ years, I have served in a managerial 
and administrative capacity in the government of Jackson 
County, MO, including the management and oversight of the 
county's collection department that collects more than $850 
million annually in tax revenues from more than 60 taxing 
jurisdictions.
    My private-practice experience, representing clients and 
working closely with IRS personnel, my service on the Missouri 
Housing Development Commission, the Missouri Development 
Finance Board, and more than 6 years of experience setting 
policy and managing and overseeing the Collections Department 
of Jackson County, MO and evaluating the merits of property tax 
disputes, all have given me a good perspective of private-
sector and public-sector work, a good understanding and 
appreciation of the needs and expectations of parties to tax 
controversy, and the practical aspects of preparing for, 
litigating, and, when possible and appropriate, settling 
Federal tax controversies.
    That experience also has reinforced and confirmed my firm 
belief that, for the success of our tax system, it must be fair 
and it must be perceived by taxpayers as being fair. The Tax 
Court plays a crucial role in assuring that fairness and that 
perception. If confirmed, I will always strive to continue in 
the tradition of the Tax Court to fulfill that crucial role.
    I love public service and have had the very good fortune 
and privilege of being able to serve my community, my city, my 
county, and my State. I have a very strong desire to now use my 
skills and experience to serve my country as a United States 
Tax Court judge.
    Thank you, again, for this opportunity to be here today. I 
am happy to answer any questions that you may have.
    [The prepared statement of Mr. Stoll appears in the 
appendix.]
    The Chairman. Thank you, Mr. Stoll.
    Thanks to each of you. We are grateful to have all of you 
here today.
    Now, I have to ask some obligatory questions. So we will 
just go across the board each time. They do not need a lot of 
comment.
    First--and this applies to each one of you--is there 
anything that you are aware of in your background that might 
present a conflict of interest with the duties of the office to 
which you have been nominated?
    Dr. Wakefield. There is not.
    Mr. Eanes. No, Mr. Chairman.
    Ms. Copeland. No.
    Mr. Stoll. No, Mr. Chairman.
    The Chairman. Fine. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Dr. Wakefield. I do not.
    Mr. Eanes. No, Mr. Chairman.
    Ms. Copeland. No, Mr. Chairman.
    Mr. Stoll. No, Mr. Chairman.
    The Chairman. Do you agree, without reservation, to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of the Congress, if you are confirmed?
    Dr. Wakefield. Yes, I do.
    Mr. Eanes. I will, Mr. Chairman.
    Ms. Copeland. Yes, Mr. Chairman.
    Mr. Stoll. Yes, Mr. Chairman.
    The Chairman. Thank you. Finally, do you commit to provide 
a prompt response in writing to any questions addressed to you 
by any Senator of this committee?
    Dr. Wakefield. Yes, sir.
    Mr. Eanes. I will, Mr. Chairman.
    Ms. Copeland. Yes, Mr. Chairman.
    Mr. Stoll. Yes, Mr. Chairman.
    The Chairman. Well, thank you. I will tell you what, let me 
just turn to Senator Wyden, if he has any questions.
    Senator Wyden. Thank you, Mr. Chairman. I just have two.
    You all are, I think, very, very qualified people. One 
question for you, Dr. Wakefield. One of the things that is most 
exciting about the work ahead in this committee is the chance 
to, in health care, make some extraordinarily important 
advances, advances that we can deal with in a bipartisan way, 
advances where I think, frankly, health care has not kept up 
with the times.
    In particular, I want to ask you one question about how we 
tackle chronic disease. Of course, Medicare in 2016 is hugely 
different from Medicare when it began in 1965. It is not 
primarily about long hospital stays and if somebody hurts their 
ankle. It is about cancer, diabetes, heart disease, strokes.
    That is the future of Medicare and American health care, 
and this committee has been working, under Chairman Hatch's 
leadership, in a bipartisan way. We have a bipartisan task 
force--in particular, Senator Isakson and Senator Warner 
heading it up--working to put together some very thoughtful 
recommendations: more in-home care, for example the 
Independence at Home program that you know so much about. When 
it comes to Medicare, what is exciting about this is, we have 
an opportunity to protect the Medicare guarantee, the sacred 
Medicare guarantee, and modernize the program and improve the 
delivery system.
    There is one area that you have particular expertise in, 
and that is rural health. I have communities like Fossil and La 
Grande that really are interested in the kind of response you 
will give here.
    I see tele-medicine playing a hugely important role in 
improving chronic care for older people in rural areas. This is 
a chance to connect patients and providers and, I think, make a 
huge difference in basically improving care and also doing it 
in a cost-effective way.
    What role would you see tele-medicine playing in chronic 
care in rural areas?
    Dr. Wakefield. Thank you for the question, Senator Wyden. I 
am actually extremely enthusiastic about the application of 
tele-medicine for both rural and urban areas. But with regard 
to rural areas and in the area with the focus that you just 
mentioned, it is particularly important.
    We have a higher disease burden of many chronic illnesses 
in rural versus urban areas. So that focus is critically 
important. The ability to reach out and connect individuals 
with chronic illness who reside in rural areas is important, 
both in terms of using technology and also in the deployment of 
primary care providers.
    So it takes both, I think, from my vantage point. It is 
important that we ensure that there is access to primary care 
providers. We have key programs that allow us to help deploy 
primary care physicians, nurse practitioners, and so on. It is 
also important to connect them through tele-medicine 
technology.
    Chronic disease management through a technology application 
is one of the areas that your Federal Office of Rural Health 
Policy at HHS is focusing on right now. We are actually doing 
demonstrations in this very area. So it knits together the 
application of that technology with that incredibly important 
focus on chronic disease management. We will see what the 
evaluations of that application show, but that is underway 
right now.
    As I mentioned, it is so important because of the disease 
burden that is disproportionate in rural areas. We have about 
29 services that are reimbursed through Medicare now for tele-
health applications, tele-medicine applications, and we have 
the preponderance of States, through Medicaid and other 
programs, reimbursing for tele-medicine.
    So it is a strategy that extends the reach of health care 
services, particularly into underserved areas. It is an area 
that the Secretary, in fact, has asked me to focus some of my 
attention on.
    I would be happy to work with you, your staff, and other 
members of this committee.
    Senator Wyden. Very good. It is clear you want to play 
offense on tele-medicine, and I think that can be a key 
component of the bipartisan strategy we envision with respect 
to chronic care legislation.
    One quick question for you, Mr. Eanes. As I mentioned in my 
opening remarks, we admire greatly your significant experience 
in the private sector, performing virtually every function in 
these 
private-sector enterprises.
    As you know, there has been a question raised--and 
certainly, you have to say that it is reasonable to ask the 
question--about experience in public policy generally and 
Social Security in particular. I happen to think that it is 
hugely beneficial to have an outsider's perspective, somebody 
who can bring a fresh look at these issues, and you mentioned 
that, appropriately, in your opening statement.
    Amplify a little bit for the committee how you feel your 
limited experience with Social Security could add significant 
value to the management of the program.
    Mr. Eanes. Thank you very much for that question, Senator 
Wyden.
    As you have noted and I noted in my opening comments, I 
have worked in just about every function in an enterprise, 
whether it be strategy development, visioning, managing 
technology, developing technology, human capital, customer 
service, budget and finance, materials logistics, the policies 
of private enterprises, the policymaking function in dealing, 
for instance, with government interaction as well.
    Policy may differ; the specific motive, certainly, in the 
private sector, was profit, but what I have found is that all 
these things I have mentioned--the strategy, technology, human 
capital, budgets, finance, logistics--all of those things are 
common to the challenges that exist in government as well.
    Over my career, I have kind of boiled it down to basically 
three principal areas that you have to focus on: people, 
process, and systems. All things boil down to those 
irrespective of whether we are managing these things that I 
have mentioned in the private sector or in the public sector; 
all those things have to be managed.
    I have spent 15 months now at the Social Security 
Administration, and I have found, remarkably, these challenges 
are the same as they are in the private sector. Again, the 
policy varies. I have enjoyed extraordinarily delving into and 
participating in, and even at times influencing, some of the 
policy discussions that go on at the agency.
    But I think those experiences that I have had in the 
private sector in all of these areas will influence and help me 
to help guide this agency.
    Senator Wyden. Mr. Chairman, my time is up. I would just 
urge colleagues to support all four of our excellent nominees 
here today.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Casey, we will turn to you next, I believe.
    We will go to Senator Thune then. In fact, we had better go 
to Senator Thune first.
    Senator Thune. Sorry, Bob.
    The Chairman. We will just go back and forth.
    Senator Thune. Thank you, Mr. Chairman. And thank you to 
all of you for your willingness to serve.
    I wanted, Dr. Wakefield, to thank you. It is good to see 
you again. Thank you for the focus that you are putting on some 
of the IHS issues we had an opportunity to cover yesterday.
    I have a question related to that, and it has to do with a 
response I received in October 2015 from Mr. McSwain at IHS 
regarding Medicare-like rate payments in the Purchased and 
Referred Care program.
    Current law only requires hospitals participating in 
Medicare to accept these rates for services contracted by the 
Indian Health Service. In December of 2014, the administration 
released a rulemaking to expand Medicare-like rates to all 
health care services contracted under the Purchased and 
Referred Care program.
    In October, I was informed that a final rule will be 
forthcoming. I am wondering if you have any sense of when that 
final rule might be released.
    Dr. Wakefield. Thank you for the question, Senator Thune. I 
will have to get back to you on that, because I do not know, 
but I will be delighted to get information back to your staff.
    Senator Thune. Thank you. And if you could too, in doing 
that, share with me some of the feedback that IHS and HHS have 
received in response to that rule.
    Dr. Wakefield. I certainly will.
    Senator Thune. That is an issue that we think could make a 
difference in Indian country and with a lot of the IHS issues 
which we covered at great length yesterday.
    The second question has to do with the amount of money that 
Congress appropriates to IHS that is spent on administrative 
overhead. One of the things that you perhaps have heard, as my 
staff and I have, is concerns the tribes have raised about the 
amount of money that goes into overhead, administrative costs, 
as opposed to what is actually reaching the ground and 
impacting health care.
    So I am wondering if you have any idea about what that 
amount is percentage-wise.
    Dr. Wakefield. I am sorry that I do not have that 
information with me. I will be more than happy to get that for 
you.
    We are going to be looking very closely, as we discussed 
yesterday, at the allocation of resources across IHS in 
response to some of the concerns that we heard. So, in fact, we 
will be working on that.
    I will be happy to get the specific data to you, but that 
is an area that we are focused on.
    Senator Thune. I am interested, because the administration, 
in dealing with private insurance companies, has medical loss 
ratio requirements where you are not supposed to spend more 
than 15 percent to 20 percent on overhead, and 80 percent to 85 
percent of the dollars are supposed to reach beneficiaries in 
the form of medical benefits.
    So I think it would be worthwhile taking a look at it, 
because, again, it is something that we hear quite often from 
the tribes: how much of this money actually reaches the areas 
out there that it is supposed to be serving.
    So if you could enlighten us a little bit on that subject, 
it would certainly be most appreciated.
    Dr. Wakefield. I will be happy to do that. I am very 
focused on efficiency from local to national levels within the 
IHS, and the Secretary has asked me to devote some specific 
amount of my time to addressing some of the issues that we 
discussed yesterday.
    So the efficient application of resources will be a primary 
focus for me, and I will be delighted to get information back 
to your staff.
    Thank you for the question.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Casey?
    Senator Casey. Thank you, Mr. Chairman.
    I want to thank the panel for your public service and for 
being here today. I just have one, maybe two questions under 
one subject area for Deputy Secretary Wakefield. This is 
involving the recent legislation we passed at the end of the 
year involving complex rehab accessories. I just want to make 
sure I have this right in terms of my understanding.
    First, despite the delay that was voted on--it was 
bipartisan--despite that delay to the cuts to complex rehab 
accessories for this year, 2016, CMS had already, I guess, 
reprogrammed the payment rates in the computer to reflect the 
cuts and that these reduced rates would be used to pay 
providers until at least July 1, 2016, almost as if the law had 
not passed. CMS could then reprogram the computer systems on 
July 1st.
    Is that accurate, what I have said so far?
    Dr. Wakefield. I have talked with the staff about this 
particular issue, because I have been in touch with your staff 
about it as well.
    The law passed December 28th, and the staff have informed 
me that they have some particular challenges in making those 
changes before July 1st, to your point. I do not have with me 
the set of challenges that they have that they are attempting 
to overcome in order to move that as quickly as possible, but 
the start time that you identify, July 1st, is what they are 
planning on right now based on the particular challenges that 
they have.
    They did identify, very quickly, that there are some 
strategies that they may be able to use that will be more 
accommodating. This is a very important program, and we 
certainly appreciate your interest in it.
    So we can certainly circle back and get to you those 
potential opportunities to make accommodations. The bottom line 
is, the full-on implementation is slated for July 1st.
    Senator Casey. I am hoping that that can be moved to April 
1st pursuant to the law.
    I think this is true in other circumstances. When Congress 
has done this in the past, CMS has been able to prioritize the 
revised updates and guarantee that providers are paid 
appropriately.
    So I am asking for your commitment to work with CMS to 
ensure the change included in the April 1st update.
    Dr. Wakefield. I will certainly go back and have that 
conversation with them, express your concerns, and push in 
exactly that direction, and we will be delighted to come up and 
have our staff meet with your staff, if you wish, to have that 
happen as well, so that we can push that agenda forward 
together.
    Senator Casey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. With that, we are so grateful to 
have all four of you willing to serve in the Federal Government 
and in these very, very important positions.
    We will see what we can do to move these nominations along. 
But as far as I am concerned, you are all very well-qualified 
for these positions, and I intend to work for you and with you. 
So we hope we can get that done as soon as possible.
    With that, we will recess until further notice.
    [Whereupon, at 11:20 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


    Prepared Statement of Elizabeth Ann Copeland, Nominated to be a 
                  Judge of the United States Tax Court
    Chairman Hatch, Ranking Member Wyden, and distinguished Members of 
the Committee, thank you for the privilege of appearing before you 
today as the President's nominee to serve as a Judge on the United 
States Tax Court. I am grateful to the President for his confidence in 
me and wish to thank the staff of this Committee, who have been 
generous with their time while working with me on my nomination.

    I would not be here without the support of many throughout my life 
and my career. I would like to introduce my supportive husband, Brad 
Wilder, and son, Davis, who are here today. My two other children, 
Lexie and Preston, are in school in San Antonio but watching by 
livestream video. Also, here are my amazing mother, Josephine Copeland; 
my father, William Copeland; my stepmother, Barbara Copeland; and my 
best friend, Ruth Geisler. I also am honored to have in attendance a 
number of Judges from the United States Tax Court, who have been both 
friends and mentors throughout the years.

    Early in my legal career, I had the opportunity to work as an 
Attorney Advisor at the United States Tax Court for the Honorable Mary 
Ann Cohen. I learned much under her direction. Upon leaving the employ 
of the Tax Court, I returned to my hometown of San Antonio, Texas to 
pursue a career in Tax law. I spent over two decades specializing in 
the area of tax controversy and litigation with the law firm 
Oppenheimer, Blend, Harrison and Tate, Inc., which later became 
Strasburger and Price, L.L.P. While practicing in Texas, I received a 
Board Certification in Tax Law by the Texas Board of Legal 
Specialization. I also was very active with the Section of Taxation of 
the American Bar Association and with the State Bar of Texas Tax 
Section, for which I served as Chair in 2013-2014.

    As a member of the Texas State Bar, I recognized a need to assist 
unrepresented taxpayers--most of whom could not afford legal counsel--
with the presentation of their cases in Tax Court. Working with the 
help of Chief Special Trial Judge, Peter Panuthos, and representatives 
from IRS Area Counsel, we established an all-
volunteer pro bono assistance program to service all five cities in 
Texas in which the Tax Court holds calendars. It was one of my most 
treasured accomplishments, and the program is still thriving today. 
Working with that program and in my own practice, I have seen the key 
role that the Tax Court plays in shaping tax law. It is imperative for 
taxpayers to have their cases heard before an impartial party and for 
both taxpayers and government attorneys to be treated with respect. I 
believe my strong background in tax controversy work will provide me 
with the foundation to fairly and impartially resolve tax cases in 
accordance with Congressional intent. If confirmed, I would hope to 
maintain and enhance the public's confidence in the Tax Court as a 
neutral pre-payment forum for the resolution of tax disputes.

    Thank you again, Chairman Hatch, Ranking Member Wyden, and other 
Members of this Committee, for your consideration. I would be happy to 
answer any questions you might have.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

1.  Name (include any former names used): Elizabeth Ann Copeland, 
formerly: Elizabeth Ann Dawson; nicknames: Liz Copeland, Lizzy Copeland 
and, formerly, Liz Dawson

2.  Position to which nominated: United States Tax Court

3.  Date of nomination: May 4, 2015

4.  Address (list current residence, office, and mailing addresses):

5.  Date and place of birth: June 1, 1964, Colorado Springs, Colorado

6.  Marital status (include maiden name of wife or husband's name):

7.  Names and ages of children:

8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

     a.  Lemont High School, September 1978-June 1979 (passed 9th 
grade, then moved from Illinois to Texas).

     b.  Alamo Heights High School, August 1979-May 1980 (passed 10th 
grade, then moved school districts).

     c.  Churchill High School, August 1980-May 1982, High School 
Diploma with Honors.

     d.  University of Texas at Austin, August 1982-May 1986, BBA 
Accounting with Honors.

     e.  University of Texas at Austin School of Law, August 1989-May 
1992, JD.

     f.  Queen Mary and Westfield College (now Queen Mary University of 
London), Semester in London Program through the University of Texas at 
Austin School of Law, September 1991-December 1991.

9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     a.  Ernst and Whinney (now Ernst and Young), Senior Accountant, 
San Antonio, Texas/worked as a CPA performing audits, June 1986-
September 1987.

     b.  Ernst and Whinney (now Ernst and Young), Senior Accountant, 
Dallas, Texas I worked as a CPA performing audits, September 1987-July 
1989.

     c.  Vernor, Liipfert, Bernhard, McPherson and Hand, Chartered (now 
DLA Piper US, LLC), Summer Associate, Washington, DC/researched legal 
issues and wrote memoranda, June-July 1990.

     d.  Law, Snakard and Gambil, P.C., Summer Associate, Fort Worth, 
Texas/
researched legal issues and wrote memoranda, July-August 1990.

     e.  Groce, Locke and Hebdon, Summer Associate, San Antonio, Texas/
researched legal issues and wrote memoranda, June-July 1991.

     f.  Oppenheimer, Rosenberg, Kelleher and Wheatley, Inc., Summer 
Associate, San Antonio, Texas/researched tax, bankruptcy and other 
legal issues, wrote memoranda and developed a case law chart to help 
with another attorney's bankruptcy presentation, July-August 1991.

     g.  United States Tax Court, Attorney Advisor to Judge Mary Ann 
Cohen, Washington, DC/researched tax law for pending cases and assisted 
Judge Cohen in drafting opinions, August 1992-September 1993.

     h.  Oppenheimer, Blend, Harrison and Tate, Inc., Shareholder, San 
Antonio, Texas/researched tax law, tried tax cases, assisted taxpayers 
with various matters before the Internal Revenue Service, assisted with 
foreign account disclosures, November 1993-April 2012.

     i.  Our Lady of the Lake University, Adjunct Professor, San 
Antonio, Texas/taught undergraduate Business Law course, August 1996-
May 1998.

     j.  Strasburger and Price, LLP, Partner, San Antonio, Texas/
researched tax law, filed petitions in the United States Tax Court and 
settled tax cases, assisted taxpayers with various matters before the 
Internal Revenue Service, assisted with foreign account disclosures, 
April 2012-Present.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

      a.  South Texas Internal Revenue Service Practitioners Council, 
San Antonio, Texas, September 2002-August 2005.

      b.  Texas State Board of Legal Specialization Tax Law Advisory 
Commission and Tax Law Exam Commission, Austin, Texas/evaluated 
questions for the Tax Law Board Certification Exam and graded papers 
for that exam. June 2010-June 2012.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

      a.  Oppenheimer, Blend, Harrison and Tate, Inc., Shareholder, San 
Antonio, Texas, January 2001-July 2014.

      b.  Strasburger and Price, LLP, Partner, San Antonio, Texas, 
April 2012-Present.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

      a.  State Bar of Texas Tax Section, positions held:

         i.  Chair, June 2013-June 2014

         ii.  Chair-Elect, June 2012-June 2013

         iii.  Secretary, June 2011-June 2012

         iv.  Treasurer, June 2010-June 2011

         v.  Council Member, June 2004-June 2012

         vi.  Pro Bono Committee Chair, June 2007-June 2010

         vii.  Tax Controversy Committee:

             1.  Chair, June 2002-June 2004

             2.  Vice-Chair, June 2001-June 2002.

      b.  American Bar Association Section of Taxation, past positions 
held:

         i.  Member: June 1992-Present

         ii.  Appointments to the Tax Court Committee:

             1.  Chair, May 2007-May, 2010

             2.  Vice-Chair, July 2007-June 2009

             3.  Member, July 2002-June 2013

         iii.  Pro Bono Committee, Vice Chair, July 2009-June 2011

         iv.  Pro Bono Award Committee, July 2014-Present

      c.  Bexar County Women's Bar Association and Foundation, past 
positions held: Vice-President, Treasurer, Board Member, June 1994-
Present.

      d.  San Antonio Bar Association: Member, June 2004-Present.

      e.  San Antonio Bar Foundation: Member, June, 2015-Present.

      f.  American College of Tax Counsel: Member, July 2014-Present.

      g.  Texas Society of Certified Public Accountants: Member, June 
1986-June 1987; June 1995-June 2013.

      h.  San Antonio Chapter of the Texas Society of Certified Public 
Accountants: Member, June 1986-June 1987; June 1995-June 2013.

      i.  Phi Chi Theta, University of Texas at Austin, President, 
August 1985-May 1986.

      j.  Girl Scouts of America, past positions held:

         i.  Troop Leader, August 2006-May 2013

         ii.  Administrative Assistant, August 2011-May 2014

         iii.  Assistant Troop Leader, Approx. 1988-1989

      k.  Travis Park United Methodist Church: Member, April 1996-
Present. Past positions held:

         i.  Scholarship Committee Chair, January 2004-December 2005.

         ii.  Member of Finance Committee, January 2006-December 2006.

         iii.  Foundation Board Member, January 200-December 2005.

         iv.  Member of Staff-Parish Relations Committee, January 2007-
December 2007.

      l.  American Society of Women Accountants: Member, June 2007-June 
2011.

13.  Political affiliations and activities:

      a.  List all public offices for which you have been a candidate.

         NONE.

      b.  List all memberships and offices held in and services 
rendered to all political parties or election committees during the 
last 10 years.

         Phone Bank for the 2008 Election Campaign of Barak Obama.

      c.  Itemize all political contributions to any individual, 
campaign organization, political party, political action committee, or 
similar entity of $50 or more for the past 10 years.


               Elizabeth Copeland PPolitical Contributions
------------------------------------------------------------------------
                   Recipient                        Date        Amount
------------------------------------------------------------------------
2008
Hillary Clinton for President                     5/23/2008       $50.00
DNC                                               8/13/2008       $25.00
DNC                                               10/6/2008      $100.00
Obama for America                                10/13/2008      $100.00
 
2009
Hillary Clinton                                   1/24/2009       $50.00
DNC                                                4/9/2009       $50.00
Campaign to Elect Renee McElhaney                 6/24/2009      $100.00
DNC (Reforming Health Care)                       10/1/2009      $100.00
Polly Jackson Spencer Campaign                    10/1/2009      $100.00
Texans for Kay Bailey Hutchison                   11/2/2009      $200.00
Peter Sakai                                      11/11/2009       $25.00
 
2010
Campaign to Elect Renee McElhaney                 2/28/2010       $50.00
Cathy Stryker                                      5/2/2010      $100.00
DNC (Barack Obama B-Day)                          7/19/2010      $100.00
Marialyn Barnard                                  8/16/2010       $25.00
DNC (November Elections)                          8/24/2010       $50.00
 
2012
Obama for America                                 1/22/2012       $50.00
DNC                                                4/6/2012       $50.00
Texas Democratic Party                             4/6/2012       $50.00
Obama for America                                  4/6/2012       $50.00
Obama Victory Fund                               10/16/2012      $147.00
Obama Victory Fund 2012                          10/30/2012      $112.00
 
2013
DNC                                               2/15/2013      $100.00
Major Julian Castro Campaign                      2/21/2013      $100.00
DNC                                               4/15/2013       $50.00
DNC                                                6/5/2013      $100.00
State Party Victory Fund                          5/20/2013       $50.00
Texas Democratic Party                            5/20/2013       $50.00
DNC Onlinedemocrats.org                          10/16/2013       $10.00
DNC Onlinedemocrats.org                          11/11/2013       $35.00
Democratic Party (online)                        11/26/2013       $10.00
 
2014
Patricia Rouse Vargas                              2/6/2014      $100.00
DNC                                               2/17/2014       $25.00
DNC                                                3/9/2014       $10.00
DNC                                               3/31/2014       $15.00
DNC                                                4/9/2014       $10.00
DNC                                                5/4/2014       $55.00
Renee McElhaney for Judge                         6/19/2014      $100.00
DSCC (Act Blue)                                   6/30/2014       $17.00
Act Blue DSCC                                     7/30/2014       $25.00
DNC                                               9/30/2014       $50.00
DNC                                               10/8/2014       $50.00
Democratic Senatorial Campaign Committee          9/30/2014       $25.00
Pete Gallego                                     10/10/2014       $35.00
 
2015
DNC Membership                                     4/7/2015       $75.00
------------------------------------------------------------------------


14.  Honors and Awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

      a.  Recognized by taxanalysts<SUP>'</SUP> Tax Notes, January 
2013, as one of the 2012 Tax Persons of the Year (top 10);

      b.  Belva Lockwood Outstanding Lawyer, Bexar County Women's Bar 
Association, 2010;

      c.  Janet Spragens Pro Bono Award, American Bar Association, 
Section of Taxation, 2009;

      d.  Balance Award, American Society of Women Accountants, 2007;

      e.  Belva Lockwood Outstanding Young Lawyer, Bexar County Women's 
Bar Association, 1998;

      f.  Fulbright and Jaworski Outstanding Second Year Law Student, 
1991;

      g.  University of Texas at Austin Mccombs School of Business, 
Outstanding Student, 1986;

      h.  Recognized as the Best Tax Lawyer in San Antonio, 2011 
Awarded by Best Tax Lawyers in America; listed in Best Lawyers 2006-
present;

      i.  Recognized as a San Antonio Super Lawyer by Thompson Reuters 
2003-present;

      j.  Recognized as one of San Antonio's Best Tax Law Attorneys by 
S.A. Scene Magazine 2004-present.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

      a.  An Update on Innocent Spouse Claims, Texas Tax Lawyer, Spring 
2013.

16.  Speeches (list all formal speeches you have delivered during the 
past five years which are on topics relevant to the position for which 
you have been nominated; provide the Committee with two copies of each 
formal speech):


               Elizabeth Copeland  Five Year Speech Chart
------------------------------------------------------------------------
                                                                    Tab
------------------------------------------------------------------------
2009 Speeches
------------------------------------------------------------------------
August 27, 2009      Bankruptcy v.            SBOT Section of         1
                      Installment Agreements   Taxation,
                      v. Offers in             Advanced Tax Law
                      Compromise               Course
------------------------------------------------------------------------
September 26, 2009   Representing Pro Se      ABA Section of          2
                      Taxpayers at Tax Court   Taxation
                      Calendar Call
------------------------------------------------------------------------
November 6, 2009     Life after UBS:          Federal Bar             3
                      Defending against the    Association
                      Internal Revenue
                      Service's Efforts to
                      Find and Prosecute
                      those with Undisclosed
                      Foreign Bank and
                      Financial Accounts
------------------------------------------------------------------------
2010 Speeches
------------------------------------------------------------------------
January 23, 2010     Update on Pro Bono Tax   ABA Section of          4
                      Court Programs           Taxation
------------------------------------------------------------------------
February 11, 2010    What Happens in Vegas    San Antonio             5
                      Doesn't Necessarily      Chapter of TSCPA
                      Stay in Vegas: Real-
                      World Tax Strategies
                      for ``Sin City''
                      Situations
------------------------------------------------------------------------
May 8, 2010          Offshore Voluntary       ABA Section of          6
                      Compliance Update--      Taxation May
                      Criminal to Civil and    Meeting
                      Done!
------------------------------------------------------------------------
August 27, 2010      FBAR Voluntary           SBOT Section of         7
                      Disclosure Initiative--  Taxation,
                      The Morning After,       Advanced Tax Law
                      What's Next              Course
------------------------------------------------------------------------
October 26, 2010     Honey! You Shrunk our    Rio Grande Chapter      8
                      Assets! A Discussion     TSCPA
                      of Tax Issues in
                      Divorce
------------------------------------------------------------------------
November 15, 2010    Honey! You Shrunk our    TSCPA (Richardson,      8
                      Assets! A Discussion     TX)
                      of Tax Issues in
                      Divorce
------------------------------------------------------------------------
November 16, 2010    Honey! You Shrunk our    TSCPA (San              8
                      Assets! A Discussion     Antonio, TX)
                      of Tax Issues in
                      Divorce
------------------------------------------------------------------------
2011 Speeches
------------------------------------------------------------------------
May 24, 2011         Federal Tax Legislative  San Antonio             9
                      Update                   Chapter of TSCPA
------------------------------------------------------------------------
June 14, 2011        Uncle Sam Wants You! .   San Antonio            10
                      . . or Your Foreign      Chapter of TSCPA
                      Account
------------------------------------------------------------------------
June 16, 2011        Innocent Spouse Update   Tax Alliance            8
                                               Conference
------------------------------------------------------------------------
June 24, 2011        Offshore Financial       SBOT Section of        11
                      Account Reporting:       Taxation, Annual
                      Risks and Penalties      Meeting
                      for Non-Compliance and
                      Other International
                      Enforcement
                      Initiatives
------------------------------------------------------------------------
August 17, 2011      An Update on Innocent    SBOT Tax Law 101       12
                      Spouse Claim             Conference
------------------------------------------------------------------------
August 18, 2011      Criminal Tax: What's     SBOT Section of        13
                      Next on the FBAR         Taxation,
                      Front?                   Advanced Tax Law
                                               Course
------------------------------------------------------------------------
October 28, 2011     Honey! You Shrunk Our    RGV Society of         14
                      Assets! A Discussion     CPAs, Expo in
                      of Tax Issues in         South Padre
                      Divorce                  Island
------------------------------------------------------------------------
December 16, 2011    Innocent Spouse Update   Texas Society of       12
                                               Enrolled Agents
------------------------------------------------------------------------
2012 Speeches
------------------------------------------------------------------------
June 12, 2012        Preparing Form 8857,     Tax Alliance           15
                      Preparing a Protest,     Conference Boot
                      Defending an Innocent    Camp
                      Spouse at the IRS
                      Office of Appeals,
                      then Mock Trial--
                      Innocent Spouse Case
------------------------------------------------------------------------
August 7, 2012       FATCA: The U.S. Attempt  San Antonio CPA        16
                      to Take on the World:    Chapter--Speaker
                      Understanding Form       Series
                      8938, FATCA and Other
                      Foreign Account
                      Disclosure Issues
------------------------------------------------------------------------
August 23, 2012      FATCA: The U.S. Attempt  Rio Grande Valley      16
                      to Take on the World:    Chapter of CPAs
                      Understanding Form
                      8938, FATCA and Other
                      Foreign Account
                      Disclosure Issues
------------------------------------------------------------------------
September 17, 2012   How to Handle the Most   Strasburger and        17
                      Common IRS Disputes      Price, LLP 2012
                      (Independent             Tax Symposium
                      Contractor vs.           (Dallas)
                      Employee, Trust Fund
                      Recovery Penalty,
                      Innocent Spouse,
                      Substantiation and
                      Reporting Foreign
                      Assets)
------------------------------------------------------------------------
September 19, 2012   How to Handle the Most   Strasburger and        17
                      Common IRS Disputes      Price, LLP 2012
                      (Independent             Tax Symposium
                      Contractor vs.           (San Antonio)
                      Employee, Trust Fund
                      Recovery Penalty,
                      Innocent Spouse,
                      Substantiation and
                      Reporting Foreign
                      Assets)
------------------------------------------------------------------------
November 9, 2012     Tax Issues in Divorce    Austin Chapter of      18
                                               the Texas Society
                                               of Certified
                                               Public
                                               Accountants
------------------------------------------------------------------------
2013 Speeches
------------------------------------------------------------------------
May 30, 2013         How to Handle the Most   San Antonio            17
                      Common IRS Disputes      Chapter of the
                      (Independent             TSCPA
                      Contractor vs.
                      Employee, Trust Fund
                      Recovery Penalty,
                      Innocent Spouse,
                      Substantiation and
                      Reporting Foreign
                      Assets)
------------------------------------------------------------------------
June 13, 2013        Community Property Laws  Tax Alliance           19
                      and Tax Issues           Conference
------------------------------------------------------------------------
August 1, 2013       PLANNING FOR THE MODERN  San Antonio            20
                      FAMILY: How to Advise    Chapter of the
                      Clients Now That the     TSCPA
                      U.S. Supreme Court has
                      Struck Down DOMA
------------------------------------------------------------------------
August 6, 2013       PLANNING FOR THE MODERN  BCWB Luncheon (San     21
                      FAMILY: How to Advise    Antonio)
                      Clients Now That the
                      U.S. Supreme Court has
                      Struck Down DOMA
------------------------------------------------------------------------
August 13, 2013      Honey! You Shrunk Our    Amarillo Chapter       18
                      Assets! A Discussion     of TSCPA
                      of Tax Issues in
                      Divorce
------------------------------------------------------------------------
August 14, 2013      Community Property and   Tax Law 101 Texas      22
                      Tax Issues               Bar CLE (Houston)
------------------------------------------------------------------------
August 16, 2013      Hot Issues Under         Advanced Tax Law       23
                      Circular 230: A          Course (Houston)
                      Dialogue with the
                      Director
------------------------------------------------------------------------
August 26-27, 2013   Handling IRS Appeals     Strasburger and        24
                      and Other Tax            Price 2013 Annual
                      Controversies            Tax Symposium
------------------------------------------------------------------------
September 27, 2013   A War of the Roses--A    San Antonio            25
                      Discussion of Tax        Chapter of the
                      Issues in Divorce        TSCPA
------------------------------------------------------------------------
October 17, 2013     Administrative           ALI/CLE Handling a     26
                      Collection Procedures:   Tax Controversy:
                      Collection Due           Audits, Appeals,
                      Process, Offers in       Litigation and
                      Compromise and           Collections
                      Installment Agreements
                      and Section 6672
                      Penalty Matters
------------------------------------------------------------------------
November 18, 2013    It's a Small World       2013 Austin CPA        27
                      After All--              Chapter Annual
                      Understanding FATCA      Tax Conference
                      and the IRS's Offshore
                      Voluntary Disclosure
                      Program
------------------------------------------------------------------------
2014 Speeches
------------------------------------------------------------------------
January 25, 2014     Opting Out of the IRS    ABA Section of         28
                      Voluntary Disclosure     Taxation, Midyear
                      Program and Other        Meeting, Phoenix,
                      Important Developments   AZ
------------------------------------------------------------------------
February 21, 2014    Current Issues in        Docket Call in         29
                      Estate Planning:         Probate Court
                      Portability and DOMA     Seminar Sponsored
                                               by the San
                                               Antonio Estate
                                               Planners Council
------------------------------------------------------------------------
March 5, 2014        Interest Charge          Strasburger and        30
                      Domestic International   Price, LLP Tax
                      Sales Corporations (IC-  Section
                      DISC)
------------------------------------------------------------------------
May 13, 2014         Attention U.S.           San Antonio            31
                      Manufacturers and        Chapter of the
                      Exporters--You are       TSCPA
                      Paying Too Much U.S.
                      Tax
------------------------------------------------------------------------
June 11, 2014        Planning for the Modem   Tax Alliance           32
                      Family--Advising         Conference, Plano
                      Clients after the        Texas
                      Repeal of DOMA
------------------------------------------------------------------------
July 22, 2014        Don't get an ``F'':      ADKF, San Antonio,     33
                      Learn the Latest on      Texas
                      FATCA and FBAR
                      Compliance
------------------------------------------------------------------------
August 15, 2014      Don't get an ``F'':      SACPA Continuing       33
                      Learn the Latest on      Education
                      FATCA and FBAR           Foundation, Inc.
                      Compliance
------------------------------------------------------------------------
August 25, 2014      Current Developments in  2014 Strasburger       34
                      Civil and Criminal       and Price
                      Controversies            Symposium/Dallas
------------------------------------------------------------------------


17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

      a.  I have been practicing tax law in the tax controversy area 
for over 20 years. I have tried many cases in the United States Tax 
Court and settled many more over the years. I regularly speak to CPA 
and attorney groups on tax law topics. Most importantly, I was 
instrumental in developing the Tax Court Pro Bono Program for the State 
Bar of Texas Tax Section that assists low income taxpayers throughout 
the State of Texas with their cases in front of the United States Tax 
Court. Because an extremely large percentage of cases that come before 
the United States Tax Court involve pro se litigants, my work and 
experience with that program will be a valuable resource for 
understanding how to deal with such persons in the courtroom.

B. FUTURE EMPLOYMENT RELATIONSHIPS

1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     Yes.

2.  Do you have any plans, commitments, or agreements to pursue outside 
employment, with or without compensation, during your service with the 
government? If so, provide details.

     No.

3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

4.  If you are confirmed by the Senate, do you expect to serve out your 
full term or until the next Presidential election, whichever is 
applicable? If not, explain.

     Yes.

C. POTENTIAL CONFLICTS OF INTEREST

1.   Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    In connection with the nomination process, I have consulted with 
        the Administrative Office of the U.S. Courts (AOUSC) to prepare 
        and file a financial disclosure report in compliance with the 
        Ethics in Government Act of 1978. The AOUSC Committee on 
        Financial Disclosure has confirmed that my report, which has 
        been provided to the Committee, is in compliance with 
        applicable laws and regulations.

    I am not aware of any potential conflicts of interest. Should any 
        matter arise that involved an actual or potential conflict of 
        interest. I would handle it by careful and diligent application 
        of the Code of Conduct for United States Judges as well as 
        other relevant canons and statutory provisions; and I would 
        consult with the appropriate ethics officials in the AOUSC, as 
        applicable.

2.   Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

      a.  Please note that the Tax Court hears cases all over the 
country. I would unlikely be assigned to administer the Tax Court 
calendar for my home city of San Antonio, which would eliminate almost 
all appearances of conflict of interest.

      b.  As a partner in Strasburger and Price, LLP, I could perceive 
a potential conflict if one of the attorneys from that firm were to 
appear in my courtroom. I would offer to recuse myself from that 
litigation, should that occur.

      c.  If Valero Energy Corporation (``Valero'') were a litigant in 
my courtroom, I would also likely need to recuse myself, because they 
were a large client in the past; however, I am not aware of any Tax 
Court case pending for Valero.

      d.  I am listed as one of the attorneys for the following Tax 
Court cases that would require me to withdraw as counsel and 
subsequently recuse myself from the litigation or any Tax Court 
deliberations: Patricia Frazier, Charlene Tatum Danielson, Malcolm 
Chesnutt, Belinda Padilla, and Carlos de la Garza and Janice de la 
Garza.

3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

      a.  As Chair of the State Bar of Texas Tax Section, I submitted 
the following comment projects on behalf of the Tax Section (copies 
attached):

         i.  Comments on the Material Advisor Penalty Regulations (9/
19/13);

         ii.  Comments on the Innocent Spouse Relief Regulations (1/7/
14);

         iii.  Comments on Proposed Section 1411 Department of Treasury 
Regulations (2/20/14);

         iv.  Comments on the Proposed Treasury Regulations regarding 
``Excepted Benefits'' for Purposes of the Affordable Care Act (2/24/
14);

         v.  Comments on the Proposed Regulations covering Section 706 
QDOT Elections (3/19/14);

         vi.  Comments on Proposed New Texas Comptroller of Public 
Accounts Rule 3.11 regarding Settlements on Redetermination (4/4/14);

         vii.  Comments on Proposed Treasury Regulations covering 
Section 1.704-3 (5/5/14);

         viii.  Comments on Proposed Regulations Regarding Disguised 
Sales and the Allocation of Liabilities (6/20/14);

         ix.  Comments on Internal Revenue Notice 2014-5, 
Discrimination Testing Standards Applicable to Softly Frozen Defined 
Benefit Pension Plans 
(6/25/14);

         x.  Comments on Circular 230's Prohibition against Contingent 
Legal Fees (6/26/14);

         xi.  Comments Regarding Proposed Amendments to the Rules of 
the United States Tax Court (2/27/12);

         xii.  Comments Regarding Privacy Protection for Filings Made 
with the Court (2/2/06); and

         xiii.  Comments Concerning the Proposed Amendments to Rules 1, 
182(e), 183, 200, and 202 of the United States Tax Court Rules of 
Practice and Procedure (9/6/05).

4.   Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

    If confirmed, I will carefully review any potential conflicts by 
        reference to 28 U.S.C. Sec. 455, Canon 3 of the Code of Conduct 
        for United States Judges, and any and all other laws, rules and 
        practices governing such circumstances. I will also consult, as 
        applicable, with the appropriate ethics officials in the AOUSC.

5.   Copies of Opinions--Two copies of written opinions should be 
provided directly to the Committee by the designated agency ethics 
officer of the agency to which you have been nominated and by the 
Office of Government Ethics concerning potential conflicts of interest 
or any legal impediments to your serving in this position.

6.   The following information is to be provided only by nominees to 
the positions of United States Trade Representative and Deputy United 
States Trade Representative:

     Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

    Not applicable.

D. LEGAL AND OTHER MATTERS

1.   Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? lf so, provide details.

      No.

2.   Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide detail.

      No.

3.   Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

      No.

4.   Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

      No.

5.   Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

E. TESTIFYING BEFORE CONGRESS

1.   If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

      Yes.

2.   If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

      Yes.

                                 ______
                                 
      Questions Submitted for the Record to Elizabeth Ann Copeland
               Question Submitted by Hon. Orrin G. Hatch
    Question. If confirmed, as a Tax Court judge you will preside over 
many cases that involve unsophisticated taxpayers with few resources to 
deploy while making their cases.

    What lessons do you take from your prior professional experiences 
to ensure that you treat these taxpayers with respect and understanding 
while stopping short of awarding them an advantage?

    Answer. Over the years in my practice as a tax controversy 
specialist, I encountered clients who took positions on their tax 
returns not supported by the Internal Revenue Code. Always treating 
them with respect, I explained the law, counseled them to concede such 
issues, and assisted them with alternative resolutions to their tax 
problems, such as payment plans. As a Tax Court judge, I would apply 
the same approach, listening to the taxpayers' views and explanations 
for their tax return positions, but, ultimately, I would apply the law 
as written to their set of facts.

                                 ______
                                 
                Questions Submitted by Hon. Dean Heller
    Question. I believe the Tax Court is the backbone of enforcing the 
federal tax code.

    In order to advocate for the nation's tax cases, what 
qualifications best serve you for this position?

    Answer. I have spent the last twenty-three years practicing tax law 
as a tax controversy specialist. I received my Board Certification in 
Tax Law by the Texas Board of Legal Specialization in 2002. I am a 
Certified Public Accountant (CPA). I have litigated cases in the United 
States Tax Court and have made sure that unrepresented taxpayers in the 
State of Texas has access to free legal representation through the 
State Bar of Texas Tax Section's Tax Court Pro Bono Program, a program 
I was instrumental in establishing. I also served as Chair of the State 
Bar of Texas Tax Section. I have been active with the American Bar 
Association's Section of Taxation, including serving in leadership 
roles for that organization.

    I have been recognized as a tax specialist by Best Lawyers in 
America, Super Lawyers, and SA Scene Magazine's San Antonio Best 
Attorneys publication. In January of 2013, Tax Notes<SUP>'</SUP> named 
me as one of the ``Top 10 Tax Attorneys of the Year.'' Over the years, 
I have helped hundreds of taxpayers to understand their federal tax 
issues, in the context of the Internal Revenue Code, and resolve 
disputes with the IRS. If confirmed, I have the acumen and demeanor to 
make an outstanding judge.

    Question. Like many Nevadans, I am a strong supporter of providing 
fairness and simplicity to taxpayers and businesses. As you may know, 
this committee is dedicated to overhauling the tax code. Under the 
leadership and dedication of Chairman Hatch, the committee has held 
many tax reform hearings, including one last year on simplification, 
and many lawmakers' proposals have discussed the importance of a 
simpler tax code. I understand that many small businesses and 
individuals are burdened by the confusing tax code. A 2001 GAO study 
showed that approximately 510,000 individual taxpayers chose not to 
itemize, even though they could. When taxpayers are faced with complex 
and lengthy calculations, individual taxpayers may choose to skip the 
calculation and forgo tax benefits intended for them, but 510,000 
taxpayers is a disgrace.

    What advice would you give tax writers to reduce the type of 
controversies that come before the Tax Court?

    Answer. I commend the Senate Finance Committee for its work on the 
critical goal of tax simplification. I share the Committee's concern 
that taxpayers are faced with a complex and confusing tax code, which 
leads to an increased work load in the United States Tax Court. In my 
practice, I have often found that certain provisions of the Code have 
important goals with unintended consequences. A prime example is the 
multiple penalties that can impact a small business taxpayer who gets 
behind on taxes during an economic downturn. I suggest that the 
Committee consider focusing on the cascading and duplicative penalties 
faced by small business owners. While penalties serve an important goal 
of deterring tax non-compliance, multiple penalties can have the 
unintended consequence of putting a small taxpayer out of business.

    Question. As you know, many of us are proud of the PATH Act, which 
passed at the end of last year, and provided certainty to millions of 
small businesses and individual taxpayers. Many Nevadans are now on a 
level playing with other states because of the permanent state and 
local sales tax deduction. As you are likely aware, a number of 
provisions were included which directly impacted the Tax Court.

    Specifically, what are your perspectives on the changes implemented 
for interest abatement cases if the IRS has failed to issue a final 
determination?

    Follow-up: What are your views on the expansion of the number of 
small tax cases the Tax Court could consider?

    Answer. I commend the Congress on its work on the PATH Act, as many 
of its provisions bring increased certainty and stability to the Tax 
Code. I think the expansion of the Tax Court's jurisdiction over 
interest abatement cases will serve taxpayers well. The PATH Act will 
likely lead to an increase in cases in the Tax Court on that particular 
issue, but I think such cases easily could be tried and resolved by the 
Tax Court.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. Confirmed Judges to the United States Tax Court are 
responsible for resolving many complex and difficult tax controversies 
brought before them. I am sure any business owner would agree that 
while they would prefer to stay out of tax court all together, if they 
do end up in a dispute, receiving a timely resolution to their case is 
essential to the planning and certainty required to run a business.

    Unfortunately, I am aware of at least one Washington state business 
that has seen its case drag on over nine years since their trial in the 
tax court. This is an unprecedented and unacceptable delay, and this 
business needs a resolution to this matter, or at the very least, any 
update on its status.

    As Judge for the U.S. Tax Court, how can one ensure that cases are 
being adjudicated in both a fair and timely manner? Do you see 
obstacles standing in the way of your ability to render decisions in a 
timely manner for taxpayers?

    Answer. In private practice, I balance many cases and professional 
commitments and make it a priority to meet deadlines. I will carry my 
strong work ethic with me to the Tax Court. While I do not know the 
details of your constituent's case, nine years is an exceedingly long 
time for resolution. I will strive to have opinions written shortly 
after hearing the evidence presented during trials and receiving the 
parties' briefs and reply briefs. I do not see any obstacles standing 
in the way of my ability to render fair and timely opinions.

    Question. On December 18, 2015, President Obama signed into law the 
Protecting Americans from Tax Hikes Act, also referred to as the PATH 
Act. In addition to its many tax extension provisions, it also makes a 
couple changes within the United States Tax Court Administration. 
Section 431, Judicial conduct and disability procedures, authorizes the 
Tax Court to establish procedures for the filing of complaints with 
respect to the conduct of any judge or special trial judge of the Tax 
Court and for investigation and resolution of such complaints.

    Do you see the establishing of a judicial council to review 
complaints of conduct by judges as a welcome addition to the U.S. Tax 
Court Administration?

    Answer. Yes. The public must have confidence that the judges of the 
United States Tax Court treat taxpayers, and IRS counsel, fairly and 
with respect. The public should have a mechanism to lodge a complaint 
if a judge is not conducting himself or herself in accordance with the 
Code for United States Judges or the Ethics in Government Act of 1978.

                                 ______
                                 
                 Question Submitted by Hon. Bill Nelson
    Question. Please explain your general philosophy about the role of 
the tax system in society and how you think you could make the system 
work better as a judge in Tax Court?

    Answer. I believe the role of the tax system is to provide funds 
for our government to operate, and for those funds to be collected from 
the populace in a fair and impartial manner. As a judge in Tax Court, I 
would strive to fairly interpret and apply the Internal Revenue Code to 
the facts as presented by the parties before the Court. I would make 
the system work better by timely issuing opinions to the parties who 
appear before me. In a very large percentage of cases heard before the 
United States Tax Court, the parties are unrepresented. In private 
practice, I have helped such taxpayers in Texas get free representation 
through a program I was instrumental in creating, the State Bar of 
Texas Tax Section's Tax Court Pro Bono Program. Working with that 
program, I have come to understand the level of patience and respect 
that must be shown by the Tax Court to all parties appearing before the 
Court, represented or not. I feel I have the foundation and demeanor to 
fairly and impartially resolve tax cases in accordance with 
Congressional intent.

                                 ______
                                 
      Prepared Statement of Andrew LaMont Eanes, Nominated to be 
          Deputy Commissioner, Social Security Administration
    Mr. Chairman, Ranking Member Wyden, and Members of the Committee, 
thank you for scheduling this hearing. It is an honor to be here today 
as President Obama's nominee for Deputy Commissioner of the Social 
Security Administration.

    I grew up in the Midwest--in Ohio. I received my undergraduate 
degree in political science from Ohio Northern University and an M.B.A. 
from Baldwin Wallace College. I also completed marketing and management 
programs at Duke University, the University of Kansas, and Columbia 
University. I have spent the past 25 years of my career in the private 
sector and have performed nearly every function in an enterprise. My 
career path has led me to experiences and places beyond Ohio's borders, 
including Kansas, Missouri, Florida, Massachusetts, Maryland--even to 
Europe, Asia, and Australia.

    Prior to joining the Social Security Administration, I served in 
progressively responsible roles, including Vice President Consumer and 
Business Markets (1995-1999), Vice President Human Resources (1999-
2000), General Manager (2000-2003), Executive Vice President 
Technology/Service Operations (2004-2006), and Chief Operating Officer 
(2006-2012). I also co-founded two small businesses. I have 
demonstrated managerial expertise in finance and operational roles, 
focusing on improving workforce efficiency and productivity through 
strategic planning and technology adoption.

    I am now at a point where I believe that my experience, dedication 
and ingenuity can be an asset to the public sector.

    For the past 14 months, I have served as a Senior Advisor to the 
Acting Commissioner of Social Security, Carolyn Colvin. Acting 
Commissioner Colvin asked me to lead efforts in succession planning, 
online 1099 replacement, standing up a program management office, 
better prioritizing information technology projects, addressing 
improper payments and improving telecommunications. I have worked side 
by side with the dedicated employees of SSA. Every day, I am impressed 
by their tireless efforts and determination to serve the American 
public with care and compassion.

    The amount of change and progress the world has witnessed in 
technology in the last few decades--even in the last 10 years--is 
staggering. If Social Security is to meet service expectations for 
generations to come, the Agency will have to be inventive, bold, and 
thoughtful in new ways. I truly hope to be able to contribute to SSA--
by building upon its successes of the past with innovative strategies 
of the future. This is the lesson I took from my private sector 
experience, and what will guide my work at SSA: no matter how good we 
are today, we can be better tomorrow.

    I have applied this simple philosophy to every job I have held in 
finance and budgeting, service delivery, strategy development, human 
resources, and other areas. No matter the job, I believe that we can 
always work to do it more efficiently and effectively.

    This opportunity with the Social Security Administration would be a 
great professional honor, as SSA's mission is indeed closely aligned 
with my personal goals. I hope to pair my career experience with my 
passion for serving the underprivileged and vulnerable children in our 
communities. I have previously served on community and civic 
organizations, including the United Way; the Parent-Child Home program 
for early literacy and school readiness; the Ozanam Home for at-risk 
youth; The Love Fund for Children; and, Life Concepts Inc. helping 
people with disabilities achieve their goals. My efforts in these areas 
have only enhanced my awareness that service to our fellow citizens--
especially those in need--is perhaps the greatest good we can 
accomplish.

    The Social Security Administration provides an amazing opportunity 
to make a difference. The programs the Agency administers provide 
benefits to about one-fifth of the American population providing 
financial protection in retirement or in the event of a serious 
disability for those who have paid into the program and earned their 
benefits.

    The Agency is rethinking the way it conducts its business. It is 
developing innovative ways to meet the increasing workload demands and 
provide customer-driven options for service delivery by providing more 
choice. These upgrades are important and necessary. At the same time, 
SSA must prepare for the anticipated wave of retirement at all levels 
within the Agency, while addressing its aging IT infrastructure. These 
are opportunities that could benefit from an outsider's perspective.

    I believe my philosophy of continuous improvement would pair well 
with the Agency's ``can-do'' spirit. If confirmed, I will work to 
leverage my private sector experience. I will strive to help the Agency 
in its work to adopt new technology, not just for technology's sake, 
but in ways that will have real and measurable effects on the agency's 
operations and for the American taxpayer.

    I will do my part to help the Agency face its challenges and 
support the open government principles of transparency, participation, 
and collaboration.

    As the President recently said, Social Security is now more 
important than ever. If confirmed, I will bring the full measure of my 
business experience toward the continued success of this enduring 
promise. I want the American people to be confident that those 
receiving benefits have earned them by paying into the system and that 
their Social Security system is administered effectively and 
efficiently. Finally, I would like Americans to be confident that 
Social Security will be there for all of us, today, tomorrow and into 
the future.

    Thank you. I am happy to answer any questions you may have.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

1. Name (include any former names used): Andrew LaMont Eanes.

2.  Position to which nominated: Deputy Commissioner Social Security 
Administration.

3. Date of nomination: February 26, 2015.

4. Address (list current residence, office, and mailing addresses):

5. Date and place of birth: Cleveland, Ohio on February 25, 1957.

6. Marital status (include maiden name of wife or husband's name):

7. Names and ages of children:

8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

    I attended Shaw High School in East Cleveland, Ohio from 1972 
through 1975 when I received my high school diploma.

    I attended Ohio Northern University in Ada, Ohio from 1975 through 
1979 when I received my Bachelor of Political Science degree.

    I attended Baldwin Wallace College in Berea, Ohio, between 1983 and 
June 1985. I graduated in 1992 with a Master of Business Administration 
degree.

    I attended Rockhurst College in Kansas City, Missouri between 1990 
and 1992, after which I transferred back to Baldwin Wallace College.

9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

  a.  Senior Advisor to Commissioner Social Security, Woodlawn, 
Maryland 21235, 
October 27, 2014-present,

  b.  President, Agile Solutions Inc., Overland Park, Kansas 66210, 
November 2011-October 27, 2014.

  c.  Vice President, Agile Government Services Inc., Overland Park, 
Kansas 66210, 
August 2012-October 27, 2014.

  d.  Chief Operating Officer, Dynis LLC, Columbia, Maryland, January 
2011-July 2012.

  e.  Chief Operations Officer, BT Conferencing, Braintree, 
Massachusetts 02184, 2006-2010.

  f.  Executive Vice President Service Operations, Premiere 
Conferencing Lenexa, Kansas, 2004-2006.

  g.  President and CEO, ADE Management LLC, Overland Park, Kansas, 
2003.

  h.  Vice President/General Manager Network Services, Sprint PCS, 
Overland Park, Kansas, 2000-2003.

  i.  Vice President Human Resources, Sprint PCS, Overland Park, 
Kansas, 1999-2000.

  j.  Vice President Business Markets, Local Telephone Division, Sprint 
PCS, 
Overland Park, Kansas, 1998-1999.

  k.  Vice President Consumer Markets, Sprint National Integrated 
Services, Overland Park, Kansas 1997-1998.

  l.  Vice President Consumer Markets, Local Telecom Division (LTD), 
Westwood, Kansas, 1995-1997.

  m.  Vice President and General Manager, Sprint North Supply, Gardner, 
Kansas 1994-1995.

  n.  Vice President and General Manager, Sprint/United Telephone, 
Altamonte Springs, Florida, 1992-1994.

  o.  Director Network Facilities Operations, Sprint United Management 
Co., Westwood, Kansas, 1989-1992.

  p.  Staff Director, United Telephone Company Missouri/Arkansas 
Division, Jefferson City, Missouri, 1988-1989.

  q.  Network Construction Budget Manager, United Telephone System, 
Overland Park, Kansas, 1986-1988.

  r.  Midwest Group Information Systems Manager, United Telephone 
System, Overland Park, Kansas, 1985-1986.

  s.  Service Manager, AT&T Information Systems, Cleveland, Ohio, 1983-
1985.

  t.  Assistant Manager, Ohio Bell Telephone Company, Cleveland, Ohio, 
1982.

  u.  Assistant Manager, Budgets and Results, Ohio Bell Telephone 
Company, Cleveland, Ohio, 1980-1981.
  v.  Legislative Assistant, Ohio Senate, Columbus, Ohio (1979).

  w.  Mayoral Campaign Coordinator, Cleveland, Ohio, 1978-1979.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

    None.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

    Current Memberships:

      a. Vice President, Agile Government Services, Inc., Overland 
Park, KS.

      b. President, Agile Solutions, Inc., Overland Park, KS.

    Past Memberships:

      a. Member, Board of Directors, American Skyline Insurance, 
Baltimore, MD.

      b. Member, National Board of Directors, Parent Child Home 
Program.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

    Current Memberships:

      a.  Ozanam Home member, Board of Directors, Kansas City, KS.

    Former Board Memberships:

      a.  Ozanam Boys Home, past Chairman of Board of Directors, Kansas 
City, KS.

      b. Life Concepts, Inc., past member, Board of Directors.

      c. United Way of Lake County, past member, Board of Directors.

      d. Orlando Area Sport Commission, past member, Orlando, FL.

      e. Orange County Education Foundation, past member.

      f. WDAF Love Fund for Children, past member, Board of Directors.

      g. Rotary International, Cleveland, OH.

      h. Parent Child Home Program, member, National Board of 
Directors.

13. Political affiliations and activities:

   a. List all public offices for which you have been a candidate.

      East Cleveland Board of Education, 1983.

   b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

      None.

   c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

       I have contributed to various campaigns and PACs. All these were 
via credit card in response to telemarketing campaigns or internet 
campaigns. Below is a list of the contributions for which I was able to 
obtain records.


------------------------------------------------------------------------
         Organization            Amount                 Date
------------------------------------------------------------------------
a. Obama for America              $50.00                August 21, 2012
b. Democratic Congressional       $50.00               November 6, 2012
 Campaign
c. Democratic National            $56.00                January 7, 2013
 Committee
d. Democratic Senatorial          $52.13              February 19, 2013
 Campaign
e. Democratic National            $56.00              February 20, 2013
 Committee
f. Democratic National            $56.00              February 20, 2013
 Committee
g. Democratic National            $56.00                 April 20, 2013
 Committee
h. Democratic National            $56.00                   May 20, 2013
 Committee
i. Democratic National            $56.00                  June 20, 2013
 Committee
j. Democratic National            $56.00                  July 20, 2013
 Committee
k. Democratic National            $56.00                August 20, 2013
 Committee
l. Democratic National            $56.00             September 20, 2013
 Committee
m. Democratic National            $56.00               October 20, 2013
 Committee
n. Democratic National            $56.00              November 20, 2013
 Committee
o. Democratic National            $56.00               December 2, 2013
 Committee
p. Democratic National            $56.00                January 2, 2014
 Committee
q. Democratic National            $56.00              February 20, 2014
 Committee
r. Democratic National            $56.00                 March 20, 2014
 Committee
s. Democratic National            $56.00                 April 20, 2013
 Committee
t. Democratic National            $56.00                   May 20, 2014
 Committee
u. Al Franken for Senate          $50.00                   June 2, 2014
v. Democratic National            $56.00                  June 20, 2014
 Committee
w. Clinton Global Initiative     $500.00               January 19, 2010
x. Obama for America              $50.00                 March 16, 2012
y. Dem. Sen. Campaign            $100.00             September 20, 2012
z. Obama for America             $100.00               0ctober 13, 2012
aa. Obama for America             $56.00               November 1, 2012
------------------------------------------------------------------------


14.  Honors and Awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

    a. Rotary International, two month Fellowship in Republic of Korea, 
1984.

    b. Career FOCUS Eagle Award, National Eagle Leadership Institute, 
2002.

    c.  Marketing Management for Telecommunications, Duke University 
Executive Program, May 1988.

    d. Management in Telecommunications, University of Kansas, June 
1987.

    e. Marketing Management, Columbia University, April 1994.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

    None.

16.  Speeches (list all formal speeches you have delivered during the 
past five years which are on topics relevant to the position for which 
you have been nominated; provide the Committee with two copies of each 
formal speech):

    None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     Foremost, I have a desire to serve my country. I have for more 
than 33 years successfully managed people, systems and customer 
relationships within corporations. During my career, I have managed 
several large organizations with budgets (capital expenditure or 
expense budgets) ranging from 700 million to 2 billion dollars. In my 
career, I have benefited from managing and observing the migration and 
adoption of technologies that enable greater productivity and accuracy 
in organizations. I have contributed to the career development of many 
individuals through mentoring and providing career guidance. I have 
experience in dealing with and managing crises. I understand the 
importance of demonstrated leadership in bringing large numbers of 
people, and constituencies together and moving toward a common goal.

B. FUTURE EMPLOYMENT RELATIONSHIPS

1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

    No; however, I have consulted with representatives from the U.S. 
Office of Government Ethics and the Designated Agency Ethics Official 
for the Social Security Administration regarding potential conflicts of 
interest regarding my business ownership, with my wife, of two small 
businesses. I have signed an ethics agreement that details the actions 
I will take to avoid any potential conflicts of interest. I have 
provided a copy of the agreement with this questionnaire.

2.  Do you have any plans, commitments, or agreements to pursue outside 
employment, with or without compensation, during your service with the 
government? If so, provide details.

   No.

3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

   No.

4.  If you are confirmed by the Senate, do you expect to serve out your 
full term or until the next Presidential election, whichever is 
applicable? lf not, explain.

   Yes.

C. POTENTIAL CONFLICTS OF INTEREST

1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    I have consulted with representatives from the U.S. Office of 
Government Ethics and the Designated Agency Ethics Official for the 
Social Security Administration regarding potential conflicts of 
interest regarding my business ownerships, investments, obligation, 
liabilities or other relationships and the position to which I have 
been nominated. I have signed an ethics agreement that details the 
actions I will take to avoid any potential conflicts of interest. I 
have provided a copy of the agreement with this questionnaire. I am not 
aware of any other potential conflicts of interest.

2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

    I have consulted with representatives from the U.S. Office of 
Government Ethics and the Designated Agency Ethics Official for the 
Social Security Administration regarding potential conflicts of 
interest regarding my investments, obligation, liabilities or other 
relationships and the position to which I have been nominated. I have 
signed an ethics agreement that details the actions I will take to 
avoid any potential conflicts of interest. I have provided a copy of 
the agreement with this questionnaire. I am not aware of any other 
potential conflicts of interest.

3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

   None.

4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

    In connection with the nomination process, I have consulted with 
representatives from the U.S. Office of Government Ethics and the 
Designated Agency Ethics Official for the Social Security 
Administration regarding potential conflicts of interest regarding my 
investments, obligation, liabilities or other relationships and the 
position to which I have been nominated. I have signed an ethics 
agreement that details the actions I will take to avoid any potential 
conflicts of interest. I have provided a copy of the agreement with 
this questionnaire.

5.  Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

6.  The following information is to be provided only by nominees to the 
positions of United States Trade Representative and Deputy United 
States Trade Representative:

    Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the timeframe of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

   Not applicable.

D. LEGAL AND OTHER MATTERS

1.  Have you ever been the subject of a complaint or been investigated, 
disciplined, or otherwise cited for a breach of ethics for 
unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

   No.

2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

   No.

3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

  No.

4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

   No.

5.  Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

   None.

E. TESTIFYING BEFORE CONGRESS

1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

   Yes.

2.  If you are confirmed by the Senate, are you willing to provide such 
information as is requested by such committees?

   Yes.

                                 ______
                                 
       Questions Submitted for the Record to Andrew LaMont Eanes
               Questions Submitted by Hon. Orrin G. Hatch
    Question. Mr. Eanes, one of my points of focus in Social Security's 
disability insurance program is to continue to explore ways to make it 
easier for beneficiaries to return to work when they have the capacity 
and desire to do so. The return-to-work rules remain complicated. And 
there are still far too many cases where beneficiaries are trying to 
return to work, are reporting earnings dutifully, and basically trying 
to do all the right things, yet something gets messed up. In these 
cases, after weeks or months or maybe longer of trying to do the right 
thing, a beneficiary gets a letter from Social Security saying that 
they have been overpaid and owe significant amounts of money back to 
Social Security. And knowledge that these repayment shocks exist, as I 
understand it, serve as disincentives for some to even want to test the 
waters in terms of their return-to-work efforts.

    Mr. Eanes, will you work with this committee to find ways to solve 
this repayment shock problem?

    Answer. I appreciate the Chairman's and the Committee's leadership 
on this important issue. Congress, in the Bipartisan Budget Act of 2015 
(BBA), section 821, provided reauthorization of demonstration projects 
that will inform SSA and policymakers on the effectiveness of various 
incentives to return to work from disability. I expect this authority, 
along with the other important reforms in the BBA, will greatly enhance 
SSA's ability to help DI beneficiaries, who have some residual ability 
to do so, attempt a return to work. We must remember, however, that the 
9 million American workers receiving disability benefits today are 
individuals who meet a strict definition of disability, supported by 
medical evidence. In summary, the new tools that Congress has provided 
will substantially assist SSA's efforts to return beneficiaries to 
work, but we also must acknowledge that many will be unable to work 
even with additional supports.

    As Senior Advisor to Acting Commissioner Colvin, I have been 
assigned a lead role in addressing improper payments in the Social 
Security and Supplemental Security Income programs. In this capacity, I 
have focused on better ensuring that SSA's improper payments strategies 
are aligned with the root causes of error. I am familiar with the 
``overpayment shock'' that beneficiaries get when first presented with 
an overpayment. I am fully committed to working with the Senate Finance 
Committee to reduce improper payments and the resulting financial 
impact on beneficiaries.

    In looking at the factors leading to overpayments, I have observed 
that the lag in time between disability payments and receipt of the 
correct beneficiary wage data represents a substantial reason for 
overpayments. We are encouraged that the provisions of the BBA, which 
provide SSA with access to private sector payroll information, may 
reduce the time gap between disability payments and receipt of 
validated wage information for individual beneficiaries. The Agency 
also appreciates section 826 of the BBA that will facilitate capability 
of DI beneficiaries to use mobile wage reporting beginning in 2017. 
While full implementation may take some time, this application also has 
the potential to reduce the time gap between disability payments and 
receipt of accurate wage information.

    Question. Mr. Eanes, I understand that you are a believer in the 
notion that if we don't measure something, it is unlikely to be 
recognized and, if it is a problem, fixed. We have had several 
instances of coordinated fraud in the disability insurance program in 
New York City, West Virginia, and Puerto Rico. Fraud takes resources 
away from the truly deserving, and may even erode support for programs. 
Unfortunately, I don't believe that we have up-to-date and tight data 
on fraud in SSA's programs, and many of the statistics I have quoted 
are based on dated numbers or questionable measurement. The Chairman of 
the House Social Security Subcommittee of the Ways and Means Committee, 
Sam Johnson, has written letters to the Acting Commissioner and 
Inspector General asking for cooperation on a study of fraud in the 
disability program and on measurement. Without accurate measurement, 
and measurement over time, it is impossible to know what progress we 
are making.

    Mr. Eanes, will you work with this committee, as well as our 
counterparts in the House, to work on data collection, analysis, and 
measurement in this area?

    Answer. I appreciate this question, as this is a matter of great 
concern to me. As I testified, I have a strong commitment to the 
philosophy of continuous improvement. If confirmed as Deputy 
Commissioner, I will apply this philosophy in helping to lead SSA in 
adopting new technology and business practices that can have real and 
measurable effects on the agency's operations, including fraud 
prevention. Fraud, at any level, within the programs of Social Security 
is something that SSA must continue to address in order to retain the 
good faith and confidence this Committee and the American public have 
in Social Security. SSA's Office of the Inspector General must have a 
lead role in any analysis of fraud issues. However, if confirmed, I 
will work to improve and increase SSA's data collection efforts, 
analysis, and measurements in all areas--including program integrity. I 
will also work with this Committee to examine the data and develop 
solutions to address the issues identified by the data.

    I have reviewed the IG reports suggesting that known fraud in SSA 
disability programs is 1% or less of annual program outlays, but I am 
uncomfortable with, and find unacceptable, any level of fraud in the 
Social Security programs.

    I believe vigilance, through resources, is required to pursue fraud 
wherever it exists. The provisions in the BBA that expand the use of 
CDI units will go a long way toward identifying and rooting out the 
type of conspiratorial fraud cited in your question. These CDI units 
are made up of Social Security, Inspectors General, plus state and 
local law enforcement officers. The CDIs are highly successful at 
detecting fraud before SSA makes a disability decision.

    I also believe the Agency has a role to play and an opportunity to 
lean in a bit in deterring the commission of fraud in its programs 
through communication and messaging to the public. If confirmed as 
Deputy Commissioner, I look forward to working with all relevant 
parties, including the Acting Commissioner, Congress, and the Office of 
the Inspector General, in improving the effectiveness of the agency's 
programs or operations.

                                 ______
                                 
                 Questions Submitted by Hon. Mike Crapo
    Question. In 2013, the President issued a memorandum requiring the 
Social Security Administration to identify and submit information to 
the National Instant Criminal Background Check System (NICS). The 
President subsequently followed up on this memorandum with a series of 
Executive Actions issued last month. According to the SSA Acting 
Commissioner Colvin, the SSA is exploring options for submitting the 
names of certain Social Security beneficiaries to NICS. Last August, I 
sent a letter to Commissioner Colvin seeking information about SSA's 
implementation of this policy. The response I received from the SSA was 
far from sufficient and did not contain any answers to my specific 
questions.

    A particularly troubling aspect of Acting Commissioner Colvin's 
response was the lack of due process offered to Social Security 
recipients if this regulation is implemented. For instance, what 
statutory authority would SSA use?

    Answer. As Senior Advisor to Acting Commissioner Colvin, I have not 
been involved in SSA's implementation of the NICS law. However, in an 
effort to provide you with relevant information, I can relay the 
following information in response to your questions.

    It is my understanding that federal agencies are required under the 
NICS Improvement Amendments Act of 2007 (Public Law 110-180; 121 Stat. 
2559) (NIAA) to make available to the National Instant Criminal 
Background Check System records relating to certain individuals who, as 
defined in regulations (27 CFR 478.11), due to a mental illness or 
limitations are ``(1) A danger to himself or to others or; (2) Lacks 
the mental capacity to contract or manage his own affairs.''

    Question. Who, exactly, will make the determination regarding 
whether a beneficiary is mentally competent or not? What standard would 
be used to determine that this person is mentally incapable?

    Answer. While I have not been involved in implementation of this 
policy, I know that SSA is in the process of developing a notice of 
proposed rulemaking (NPRM) to comply with its obligations under the 
NIAA. Because SSA is still in the process of developing the NPRM, no 
final conclusions have been reached regarding the procedures it may use 
to meet its legal obligations. It is my understanding that SSA's 
proposed rule, once published, will address your questions. When the 
rule is published there will be a lengthy comment period and SSA 
welcomes the public's feedback on its proposed approach.

    Question. In her response, Acting Commissioner Colvin indicated the 
SSA would not provide the names of beneficiaries to NICS solely based 
on the assignment of representative payees. If that is the case, what 
other factors are you considering?

    Answer. I have not been involved in implementation of this policy, 
but it is my understanding that SSA's proposed rule, once published, 
will address your questions. When the rule is published there will be a 
lengthy comment period and SSA welcomes public feedback on its proposed 
approach.

    Question. Will you commit that you will not impose gun bans on 
seniors, simply because they are incapable of balancing their 
checkbooks?

    Answer. It is my understanding that SSA is not considering sending 
names based on beneficiaries solely having representative payees.

    Question. Will you commit that you will not impose gun bans on 
seniors, simply because fiduciaries manage their financial affairs?

    Answer. To my knowledge, SSA is not considering sending names based 
on beneficiaries solely having representative payees.

    Question. The January 4, 2016 fact sheet on the President's 
executive actions estimates that SSA will be required to submit the 
records of approximately 75,000 seniors receiving Social Security 
benefits every year. If the SSA is still unclear on what factors will 
be used to consider who will be reported to NICS, where did the 75,000 
number come from?

    Answer. It is my understanding that this figure is a rough estimate 
of the number of individuals whom SSA may be required to report to the 
NICS database, based on guidance from DOJ. Because SSA is still in the 
process of developing its NPRM, it has not reached any final 
conclusions regarding the beneficiaries whom SSA is required to report 
to NICS. Once published, SSA's proposed rule will address the manner in 
which SSA proposes to identify individuals for inclusion in the NICS.

    Question. Will you provide the committee with a written response on 
where that number came from?

    Answer. It is my understanding that this figure is a rough 
approximation of the number of individuals whom SSA may be required to 
report to the NICS database, based on guidance from DOJ. However, it is 
important to note that SSA is still in the process of developing a 
notice of proposed rulemaking (NPRM). Because SSA is still in the 
process of developing its NPRM, SSA has not reached any final 
conclusions regarding the beneficiaries whom SSA is required to report 
to NICS. Once published, SSA's proposed rule will address the manner in 
which SSA proposes to identify individuals for inclusion in the NICS.

    Question. The fact sheet also indicates that any rulemaking will 
provide a mechanism for people to ``seek relief from the prohibition of 
possessing a firearm.'' Would such a mechanism exist before a 
beneficiary's name is reported to NICS or after?

    Answer. It is my understanding that SSA is in the process of 
developing a notice of proposed rulemaking (NPRM) to comply with its 
obligations under the NIAA. Because SSA is still in the process of 
developing the NPRM, no final conclusions have been reached regarding 
the procedures it may use to meet its legal obligations. It is my 
understanding that SSA's proposed rule, once published, will address 
your questions. When the rule is published, there will be a lengthy 
comment period and SSA welcomes the public's feedback on its proposed 
approach.

                                 ______
                                 
                  Question Submitted by Hon. Tim Scott
    Question. Mr. Eanes, Social Security overpayments seem to be a 
constant issue within the agency, and a source of taxpayer waste. 
According to an audit by the Office of Inspector General last year, 
over a ten year period, SSA assessed approximately $16.8 billion in 
overpayments between 2003 and 2014. Now, SSA was able to recover about 
half of that amount, and although I understand that much of the 
overpayments are based on beneficiaries failures to report data to SSA, 
if confirmed, how do you plan on addressing overpayments and recovery 
of those payments?

    Answer. In my current role as Senior Advisor, Acting Commissioner 
Colvin has assigned me a lead role in addressing improper payments in 
the Social Security and Supplemental Security Income programs. While 
recovery of taxpayer funded payments made in error are essential, those 
efforts do not address the root cause. I am a firm believer in root 
cause analysis. I have focused on better ensuring our improper payments 
strategies are aligned with the root causes of error. I have also 
worked closely with the team to refine our baseline metrics to ensure 
that SSA's solutions are addressing the root causes of improper 
payments. The Agency should continue and, where possible, accelerate 
its efforts to reduce improper payments.

    A primary reason for overpayments in both the Disability and SSI 
programs relate to the Agency not having accurate and timely 
information on a beneficiary's wages or financial assets, at the time 
of payments. This boils down to a gap in time between benefit payments 
and obtaining the correct information.

    The recently enacted Bipartisan Budget Act of 2015 (BBA) required 
SSA to provide, by September 30, 2017, Social Security disability 
insurance (DI) beneficiaries with the ability to report earnings 
through the Internet or telephone (section 826). In addition, section 
824 of the BBA will help reduce the reporting burdens of Social 
Security DI and Supplemental Security Income (SSI) beneficiaries who 
have earnings by authorizing SSA to obtain such information on a timely 
basis from payroll providers, and section 825 will help simplify how 
earnings are counted. These important reforms will enhance SSA's 
ability to avoid improper payments.

    A leading cause of SSI overpayments is the existence of previously 
undisclosed financial accounts. The Agency's improper payment 
improvement team is working on an initiative, in cooperation with 
financial companies, which will improve our ability to identify 
previously undisclosed financial accounts. With up to date information 
on financial accounts that may disqualify or reduce benefit payments, 
the growth of improper payments resulting from untimely or inaccurate 
wage and financial account status can be reduced. In addition, I would 
note that the President's FY 2017 Budget Request includes a new 
legislative proposal that would expressly authorize SSA to use 
commercial databases to verify real property data in the SSA program. 
SSA would use such information to determine eligibility for SSI 
benefits.

    If confirmed as Deputy Commissioner, Acting Commissioner Colvin has 
advised me that I will continue in a lead role working with improper 
payments.

                                 ______
                                 
             Question Submitted by Hon. Charles E. Schumer
    Question. Mr. Eanes: As you know, I strongly believe that the 
Social Security Administration should seek and incorporate community 
input before changing the local services that so many of our seniors 
and disabled rely on. I am happy to see that you acknowledged the need 
for customer-driven options for service delivery in your testimony. 
Social Security beneficiaries deserve flexible, reliable and timely 
services. As Deputy Commissioner of the Social Security Administration, 
what changes, if any, would you make to Social Security's services and 
how would you incorporate local input into your decision-making 
process? Specifically, what changes, if any, would you make to SSA's 
current field office structure? How would you address the service needs 
of retirees who cannot, or prefer not to, access SSA services though 
online platforms?

    Answer. I believe that Social Security's customers should be able 
to access services through the option they prefer. The Agency is moving 
to provide an increased number and variety of channels for its 
customers to interact with it. Over half of retirement filings are now 
done online. With the projected increase in beneficiaries as the baby 
boomers retire, this is a helpful development.

    The evolving demographics of current and future Social Security 
beneficiaries suggest that there will continue to be increases in the 
adoption of telephone, online and mobile services as customers' 
preferred methods to interact with SSA. Still, there will always be the 
need for field offices in local communities. The field office is the 
best manifestation of the high quality of service the Agency seeks to 
provide, because it is where members of the public can discuss their 
needs with compassionate SSA representatives face to face. Where there 
is sufficient demand for those field offices, the Agency must continue 
to offer them.

    If confirmed, I will commit to furthering the ease of use, 
reliability and security of the Agency's telephone and electronic 
services. I also believe that gathering, analyzing, and acting on 
customer feedback on perceptions of service delivery is essential to 
continually improving services. In combination with standard customer 
service performance metrics that quantify wait time to service delivery 
and other important information, direct customer feedback on the 
quality of service is essential. To that end, I would rely upon 
feedback from interactions in field offices, and all other channels of 
interaction to further inform the Agency on the best course for 
providing continual customer service improvements.

    While it is indeed possible that there will be field office 
closings in the future, I don't believe closings should ever be an 
explicit goal of the Agency. It is my understanding that SSA and 
Members of Congress have entered into an agreement for any closure or 
consolidation of SSA Field Offices. I understand that this agreement 
includes a commitment that SSA inform any Members of Congress whose 
state or district would be impacted, at least 180 days in advance of 
any such closing or consolidation. A field office closing should only 
occur after significant consideration of all factors involved and 
significant communication with impacted communities. Having visited 
many field offices across the country during the past 15 months, I know 
firsthand this is where the best of Social Security's compassion and 
commitment to mission are observable.

                                 ______
                                 
                 Question Submitted by Hon. Bill Nelson
    Question. According to the Inspector General of the Social Security 
Administration, the backlog for Social Security disability benefits has 
surged from 694,000 in June 2010 to about 1 million five years later. 
The state of Florida is experiencing a significant backlog, too. There, 
the average wait time a person experiences before a disability hearing 
is held is 18.5 months in Tallahassee, and 20 months in Fort Myers and 
Miami. This is time in which some of these individuals cannot work 
because of their situation.

    Answer. This issue remains one of the Agency's highest priorities 
because we recognize that, behind the numbers, is a person in need 
awaiting a decision. While I believe that meeting the needs of the more 
than 1 million people awaiting a decision is a priority, I do not 
support any approach that might sacrifice the quality of decisions for 
greater production.

    SSA's Office of Disability Adjudication and Review (ODAR) has 
recently developed and begun implementation of a plan to reduce the 
hearings backlog. The plan includes hiring more ALJs, giving them more 
support staff, and moving certain appeals to the Appeals Council. This 
plan depends on a variety of factors, including full funding of the 
President's budget request and expedited ALJ exams administered by the 
Office of Personnel Management, as required by the recently enacted 
BBA. The Agency appreciates this provision, which will add qualified 
candidates to the ALJ registry and allow for more ALJ hires to help 
reduce the number of pending cases. I am certain that ODAR would be 
glad to brief you in greater detail on their plan to address the 
hearings backlog.

                                 ______
                                 
             Questions Submitted by Hon. Benjamin L. Cardin
    Question. The headquarters of the Social Security Administration 
(SSA) is in Woodlawn, in Baltimore County, Maryland. I am a proud 
resident of Baltimore County and I am privileged to represent Maryland 
in the United States Senate. SSA is a large agency, which employs about 
60,000 workers nationwide, and about 11,000 workers in Maryland. It 
includes 10 regional offices, 6 processing centers, and approximately 
1,200 field offices.

    If confirmed, what steps would you take to improve employee 
retention and morale at the agency? What lessons and best practices 
would you draw from your experience in the private sector in making any 
needed reforms at SSA? What steps have you already taken as a Senior 
Advisor to Commissioner Colvin since October 2014?

    Question. I appreciate this question, as it provides me an 
opportunity to share important thoughts on employee retention, 
recruitment and engagement. First, I believe strongly that the greatest 
motivator for an employee to work with the Agency or any enterprise is 
their belief in the importance of their work and that their work will 
be respected and sustainable. From my private sector experience, I know 
that the clear linking of individual and team objectives, to the 
overall organization mission, vision and goals, in a way where 
employees know with certainty that the work they're doing makes a 
difference, can be very powerful in retention, recruitment and agency 
performance.

    The clear linkages between individual, team, and agency performance 
goals can provide a strong sense of purpose to employees. If confirmed, 
I will work to ensure that each employee understands their value and 
the part they play in achieving the agency goals, mission, and vision. 
I will work to ensure that management at all levels adopts the approach 
of not only including and valuing employees in furtherance of the 
Agency's goals, but recognizing their performance and contributions. 
SSA is regularly ranked in the top 10 for employee satisfaction of 
federal agencies (according to the Federal Employee Viewpoint Survey) 
and is currently ranked #6. If confirmed, I will work to continue and 
even improve upon that track record. I want all SSA employees to be 
proud and inspired that they are working to serve the mission of an 
Agency serving more than 65 million people and growing and who will in 
some way, be dependent on Social Security for financial security.

    I am very proud of the relationships that I developed in my private 
sector experience working with unions. Active engagement and 
communications are key factors in building constructive and productive 
relations that move an enterprise and its employees forward toward 
mutual goals. If confirmed, I look forward to an engaged and productive 
relationship with the Agency's labor unions.

    As more than 50% of its employees are eligible to retire, SSA is 
faced with the threat of significant loss of institutional knowledge 
over the next few years. I am very appreciative that Acting 
Commissioner Colvin assigned me to work in this area, as I am a firm 
believer that any organization's greatest resources is its employees. 
The Acting Commissioner asked me to work with the Office of Human 
Resources to establish a succession planning strategy that includes:

        Benchmarking other Federal agencies' succession planning 
programs and reviewing organizational development literature on this 
topic;
        Developing a shared roadmap of SSA's succession planning 
methodology, consistent with Merit System principles;
        Identifying critical positions across SSA; and
        Developing assessment tools to analyze gaps in leadership, 
core, and technical competencies.

    If confirmed, I would continue to build upon my previous efforts 
relating to the continual development and replenishment of human 
capital at SSA.

    Question. I am concerned about the discrimination complaint process 
used at SSA, and the 2014 Equal Employment Opportunity Commission 
(EEOC) report on this matter. EEOC found that SSA had failed to follow 
regulations on addressing workplace discrimination complaints, had 
manipulated data to boost case completion rates, and might have allowed 
managers to interfere in what were supposed to be impartial 
investigations. Notably, EEOC found that over a four-year period where 
nearly 2,300 EEO complaints were filed, none resulted in a finding of 
discrimination.

    In response to this report, SSA Commissioner Carolyn Colvin pledged 
that she would overhaul and transform the EEO program into a ``model 
program.'' In particular, I know that Commissioner Colvin has 
designated a new associate commissioner to head the agency's office of 
civil rights and equal opportunity. She stated she would also increase 
oversight of regional EEO offices and standardize the SSA complaint 
process.

    Can you give me an update on the work of this office and any recent 
improvements in SSA's EEO complaint process?

    Answer. I believe the Agency's EEO compliance and performance is 
very important. Though Acting Commissioner Colvin has not designated 
any specific responsibility to me regarding EEO, I have attended 
quarterly performance reporting meetings and I know that the Agency 
provides periodic reports on its performance to Congress.

    Based on information I have received from the Office of Human 
Resources, which has jurisdiction over the Office of Civil Rights and 
Equal Opportunity at SSA, it is my understanding that SSA has made 
progress in multiple areas since the 2014 EEOC report. Changes include 
agency-wide EEO training, an anti-harassment program, and improved case 
processing activities. Ninety percent of SSA headquarters managers have 
been trained on the benefits of alternate dispute resolution. By the 
end of FY 2015, SSA had trained 6,000 field managers. SSA has also 
taken steps to promote diversity and inclusion through the Barrier 
Obliteration Program initiated in October 2015. I am happy to request 
that SSA provide you with an update.

    Question. As part of the FY16 omnibus appropriations legislation 
enacted in December 2015, SSA received a discretionary allocation of 
$12.1 billion, which is $356 million more than last year, for SSA's 
administrative expenses. In fiscal year 2016, SSA will administer 
approximately $1 trillion in benefit payments to approximately 69 
million Americans; process approximately 5.4 million retirement 
applications and 2.8 million disability applications; and provide 
services to over 40 million visitors to its field offices and 43 
million callers to its 1-800 number. This amount also provides 
increased program integrity efforts--$39 million more than last year, 
for a total of $1.523 billion--that are expected to save approximately 
$10 billion in the Social Security, Medicare and Medicaid programs.

    Can you tell the Committee how SSA will effectively use these 
additional funds for administrative expenses, and in particular how 
this funding will result in better customer service for the many 
Americans who rely on Social Security?

    Answer. Though Acting Commissioner Colvin has not assigned 
oversight of SSA's budget to me, I have received a significant amount 
of information from SSA's Office of Budget. There are a number of 
provisions in the BBA of 2015 that will help improve program integrity 
and service to the American public. The Agency appreciates your support 
and the support of the Senate Finance Committee in helping fund and 
facilitate these vital projects.

    Section 815 of the BBA modifies the amounts authorized for program 
integrity work for FYs 2017-2021 and in so doing, proposes specific 
goals in reducing the number of backlogged CDRs, which are periodic 
reevaluations to determine if beneficiaries continue to meet SSA's 
standards of disability or have returned to work and no longer qualify 
for benefits. These reviews are vital in determining whether 
beneficiaries continue to meet eligibility requirements to receive 
payments. CDRs create a substantial program savings for a relatively 
small investment of administrative funds. On average, CDRs yield 
approximately $8 in program savings over 10 years for every $1 
budgeted. This provision will help improve services to the public, 
reduce the CDR backlog, and reduce programmatic costs.

    The Agency appreciates section 846 of the BBA that will facilitate 
and accelerate the ALJ examination schedule and add more qualified 
candidates to the ALJ registry. SSA plans to hire 250 ALJs in FY 2016. 
With sustained funding, this increased hiring, along with other 
initiatives planned by ODAR, will allow SSA to begin to make 
significant progress in serving the more than 1 million people awaiting 
a hearing decision. I have not been directly involved with ODAR's 
efforts in this area but I am certain they would be happy to provide a 
detailed briefing on their plan.

    SSA has a significantly aged IT infrastructure. The infrastructure 
contains disparate systems and databases that were not originally 
designed to communicate with each other or share common data across 
them. Yet these aged systems are the very production tools that agency 
employees rely upon each day to provide service to the public. This 
legacy infrastructure is not service or economically sustainable. SSA 
must maintain the legacy systems while, in parallel, developing their 
replacements. A portion of the 2016 appropriation helps to begin the 
design of the legacy replacement systems. The agency appreciates your 
support of this year's appropriation and your support in future years 
to ensure this modernization is successfully carried out. However, this 
effort will be a long-term investment that must be sustained for many 
years. That is why the President has put forward a mandatory, multi-
year $240 million funding proposal dedicated to modernizing SSA's IT, 
specifically its core databased, programming languages, and IT 
infrastructure.

    Your question on the impact of customer service is insightful. My 
view is that quality customer service is a primary mission and all SSA 
administrative costs should ultimately demonstrate value to the 
customer service equation.

    SSA will continue to improve service through enhancement of online 
services, which will provide more timely and accurate service delivery. 
Customers will have the ability to apply for benefits online. They will 
also be able to apply for a replacement Social Security card. I believe 
that Social Security's customers should be able to access services 
through the option they prefer. While the Agency is moving to provide 
an increased number and variety of channels for its customers to 
interact with it, there will always be the need for field offices in 
local communities.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing 
considering a number of pending nominations for the Department of 
Health and Human Services (HHS), the Social Security Administration 
(SSA) and the U.S. Tax Court:

    Today we will consider the nominations of four individuals selected 
by the President for positions throughout the government.

    Though many people are already transfixed by election-year 
politics, it is important that we remain focused on being productive in 
this committee and, hopefully, throughout Congress. This committee has 
a long history of being able to set aside politics and achieve results 
that promote effective government, no matter what party happens to be 
in power.

    While Executive Branch nominations are often the subject of 
political wrangling, my position has always been that the President is 
entitled to appoint the people he wants to work with him in his 
administration, barring serious ethical lapses or extraordinary 
circumstances. With that in mind, I do acknowledge the trust the 
President has placed in each of the nominees before us today and I 
respect their reasoned opinions on the issues, even if I do not always 
share the same perspectives.

    I would like to take a few moments to speak briefly about each of 
the nominees who is here with us today.

    First, we have Dr. Mary Wakefield, who has been nominated to serve 
as the Deputy Secretary of the Department of Health and Human Services. 
Dr. Wakefield has an impressive background, including several years of 
service as a staffer here in the Senate.

    I hope no one holds that against her.

    Her legislative background and training as a nurse have, in my 
opinion, prepared her for dealing with the crises she will almost 
certainly have to deal with as HHS Deputy Secretary. Dr. Wakefield has 
a reputation for being a problem-solver, and, given the breadth and 
depth of issues she'll be dealing with in this position, I suspect her 
biggest challenge will be determining which problems need to be solved 
first.

    I look forward to hearing more about why Dr. Wakefield wants to 
take on this very demanding job, and what qualities she hopes to bring 
to it.

    Today we will also consider the nomination of Andrew LaMont Eanes 
to be the Deputy Commissioner of the Social Security Administration. 
Currently, Mr. Eanes serves as Senior Advisor in the Office of the 
Acting Commissioner and has a vast background in management, 
technology, and a demonstrated history of simply getting things done.

    We can always use more of that in our government.

    Social Security is currently the largest single item in the federal 
government's budget. Roughly 60 million people--or around one-fifth the 
total population of the United States--currently receive Social 
Security benefits. In fiscal year 2015, spending for Social Security 
benefits totaled $877 billion--that's one out of every four dollars 
spent by the federal government.

    And, despite the success we had last year in averting impending 
benefit cuts in the Social Security Disability Insurance program, 
Social Security overall remains on an unsustainable fiscal path, with 
the combined trust funds projected to be exhausted in just 13 years.

    Even with these fiscal challenges, operationally speaking, the 
Social Security Administration, or SSA, has fared better than most 
agencies in terms of budget allocations. Of course, we generally don't 
hear that from them. Instead, we tend hear persistent claims from many 
SSA officials that any and all problems at the agency are caused by 
Congress's supposed refusal to provide adequate funding.

    Fortunately, however, there are also those at SSA who work hard, 
day in and day out, to ensure that taxpayer funds are used as 
efficiently as possible for the sake of beneficiaries. And, everything 
that I've seen thus far indicates that Mr. Eanes is one of these 
diligent officials working to protect taxpayer resources and to make 
sure the benefit programs can be run as efficiently and effectively as 
possible.

    That is precisely what hardworking taxpayers and beneficiaries of 
these important programs deserve.

    Last but not least, we will also hear from two nominees to the U.S. 
Tax Court: Elizabeth Ann Copeland and Vik Edwin Stoll.

    As we all know, the U.S. Tax Court plays an important role in our 
tax system as it is the only venue for taxpayers to challenge an 
assessed tax liability before being forced to remit payment.

    Judges on the Tax Court are some of the very few government 
officials that deal face-to-face with individual taxpayers on issues 
relating to their taxes. Therefore, it is important that we keep the 
court staffed with qualified judges to ensure greater accountability to 
taxpayers and to ensure timely access.

    And, as with our other nominees, everything we've seen thus far 
indicates that both Ms. Copeland and Mr. Stoll are highly qualified, 
with reputations for fairness and integrity.

    In short, it appears that we have strong slate of nominees before 
us today and I look forward to more discussion about their 
qualifications during today's hearing.

    I want to thank all of the nominees for being here today and for 
their willingness to serve.

                                 ______
                                 
       Prepared Statement of Vik Edwin Stoll, Nominated to be a 
                  Judge of the United States Tax Court
    Mr. Chairman, Ranking Member Wyden, and distinguished members of 
the Committee, thank you for allowing me the opportunity to be here 
today. I am greatly honored to have been nominated to be a judge on the 
United States Tax Court, and I wish to sincerely thank President Obama 
for that nomination and the confidence that he has shown in me. It is 
an honor for me to be here today, and I am grateful for your 
consideration of my nomination and appreciative of the Committee staff 
for their hard work in expeditiously completing the processing for that 
consideration.

    I also would like to thank my wife of 33 years, Jan, and our three 
children, for the support, encouragement and inspiration that they have 
always given me. And I will always be most grateful to my parents, 
career government employees, for providing me with a deep appreciation 
for the importance and privilege of public service.

    Ever since I first appeared before a Tax Court judge representing a 
client as a young law firm associate more than 33 years ago, I have had 
a strong desire to be a judge on the United States Tax Court. I 
practiced law for nearly 30 years in the private sector, with federal 
tax planning and controversy, including Tax Court practice, as large 
parts of that law practice. In that practice, I enjoyed an excellent 
working relationship with IRS personnel--Revenue Agents, Revenue 
Officers, Special Agents, Appellate Conferees, and District Counsel.

    During that time, I also had the privilege of serving the public, 
in many different roles, including serving nearly four years as a 
member of the Missouri Housing Development Commission, more than four 
years as a member of the Missouri Development Finance Board, 
approximately three years as a member of the Desegregation Monitoring 
Committee of the U.S. District Court for the Western District of 
Missouri, three years as a member of a local school board, and a year 
as a member of my city's Charter Review Commission. For the past six 
and one half years, I have served in a managerial and administrative 
capacity in the government of Jackson County, Missouri, including the 
management and oversight of the county's Collection Department that 
collects more than 850 million dollars annually in tax revenues for 
more than 60 taxing jurisdictions.

    My private practice experience, representing clients and working 
closely with IRS personnel, my service on the Missouri Housing 
Development Commission and Missouri Development Finance Board, and more 
than six years of experience setting policy and managing and overseeing 
the Collection Department of Jackson County, Missouri and evaluating 
the merits of property tax disputes, all have given me a good 
perspective of private sector and public sector work, a good 
understanding and appreciation of the needs and expectations of parties 
to tax controversy, and the practical aspects of preparing for, 
litigating and, when possible and appropriate, settling federal tax 
controversies.

    That experience also has reinforced and confirmed my firm belief 
that for the success of our tax system, it must be fair and it must be 
perceived by taxpayers as being fair. The Tax Court plays a crucial 
role in assuring that fairness and that perception. If confirmed, I 
will always strive to continue in the tradition of the Tax Court to 
fulfill that crucial role.

    I love public service, and have had the very good fortune and 
privilege of being able to serve my community, my city, my county and 
my state. I have a very strong desire to now use my skills and 
experience to serve my country as a United States Tax Court judge.

    Thank you, again, for this opportunity to be here today. I am happy 
to answer any questions that you may have.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Full Name: Vik Edwin Stoll

    Other names used or by which I am or may be known: V. Edwin Stoll, 
Edwin Stoll, Vik Stoll, Vik E. Stoll, V. Ed Stoll, V.E. Stoll, E. 
Stoll, V. Stoll, Ed Stoll, and Vik Ed Stoll.

    Names not used or authorized by me but which occasionally may be 
used erroneously by others to refer to me: Edwin V. Stoll, V. Edward 
Stoll, and Vic E. Stoll.

 2.  Position to which nominated: United States Tax Court Judge

 3. Date of nomination; November 9, 2015

 4. Address (list current residence, office, and mailing addresses):

 5. Date and place of birth: April 3, 1954 (Kansas City, Missouri)

 6. Marital status (include maiden name of wife or husband's name):

 7. Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

    Raytown South High Scbool, 08/1969-05/1972, High School Diploma, 
05/1972.

    University of Missouri-Columbia, 08/1972-05/1976, Bachelor of 
Science in Business Administration, 05/1976.

    University of Missouri-Columbia, 08/1976-05/1979, Juris Doctor, 05/
1979.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

    Sod worker, Hillcrest Country Club, Kansas City, MO, 05/1976-08/
1976.

    National Student Bank Examiner, Comptroller of the Currency, Kansas 
City, Missouri (with travel to St. Louis, MO, Smith Center Kansas and 
St. Joseph, MO), 05/1977-08/1977.

    Law intern, Morris and King, P.C. (then known as Morris, Larson, 
King, Stamper and Bold, P.C.), Kansas City, MO, 05/1978-08/1978.

    Associate, Morris and King, P.C. (then known as Morris, Larson, 
King, Stamper and Bold, P.C.), Kansas City, MO, 05/1979-05/1984.

    Shareholder and Director, Morris and King, P.C. (name changed 
during this period of employment from Morris, Larson, King, Stamper and 
Bold, P.C. to Morris, Larson, King and Stamper, P.C., then to Morris 
and Larson, P.C., and then to Morris and King, P.C.), Kansas City, MO, 
05/1984-08/1990.

    Member, Hillix, Brewer, Hoffhaus, Whittaker and Wright, LLC, Kansas 
City, MO, 08/1990-08/1998.

    Partner, Morrison and Hecker, LLP (later known as Stinson Morrison 
Hecker LLP), Kansas City, MO, 09/1998-04/2009.

    Self-employed, Lee's Summit, MO, 05/2009-07/2009.

    Director of Collections, Jackson County, MO, Kansas City, MO, 07/
2009-08/2012, 04/2014-present.

    Deputy Chief Administrative Officer, Jackson County, Missouri, 
Kansas City, MO, 08/2012-present.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

    Member, Missouri Housing Development Commission, 1987-1991 
(Secretary-Treasurer, 1988-1989; Vice-Chairman, 1989-1990; Chairman, 
1990-1991).

    Member, Missouri Development Finance Board, 1992-1996 (Vice 
Chairman, 1993-1996).

    Member, Desegregation Monitoring Committee of the United States 
District Court, Western District of Missouri, 1990-1993.

    Member, Board of Education of Consolidated School District No. 2, 
Jackson County, Missouri, 1996-1999.

    Member, Lee's Summit, Missouri Charter Review Commission, 2006-
2007.

11.  Business relationships (list all positions held as an office, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

    Owner of 40 acre farm, described in Section F.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

    Note:
    The dates provided are estimates made following a review of 
available records.

    Organizations: The Missouri Bar (09/1979-present); National 
Association of County Collectors, Treasurers and Finance Officers (10/
2009-present); Government Finance Officers Association of Missouri (10/
2009-present); Boy Scouts of America (07/1998-present); Lakewood 
Property Owners Association (05/2000-present); Vista del Verde Property 
Owners Association (10/2007-present); Friends of Chicago and Alton 
Depot of Independence, Missouri (12/2013-present); AARP (03/2015-
present); Raytown Arts Council (07/2006-present); Sons of the American 
Revolution (03/2012-present).

13.  Political affiliations and activities:
   a.  List all public offices for which you have been a candidate.

      Board of Education, Consolidated School District No. 2, Raytown, 
Missouri, 1996 (elected and served 1996-1999).

   b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

      Served as Treasurer for candidate campaign for Board of 
Education, Consolidated School District No. 2, Raytown, Missouri, 1993.

   c.  Itemize all political contributions to any individual, campaign, 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

      $500 Glover for Mayor 2007 02/02/2007; $1,000 Nixon for Governor 
09/24/2007; $100 Glover for Mayor 2007 02/06/2008; $500 Robin Carnahan 
for Senate 12/14/2009; $500 Sanders for Jackson County 03/18/2010; $500 
Sanders for Jackson County 04/20/2011; and $500 Sanders for Jackson 
County 04/10/2014.

14.  Honors and Awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

    Law School: University of Missouri Columbia, J.D. (Cum Laude), 
1979; Law School Honors and Achievements: Order of the Coif, Missouri 
Law Review, Note and Comment Editor; Undergraduate School: University 
of Missouri Columbia, B.S. in Business Administration (Magna Cum 
Laude), 1976; Undergraduate School Honors and Achievements: Varsity 
Basketball Letterman, Mystical Seven, Phi Kappa Phi, Beta Gamma Sigma.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

    Co-author of Missouri CLE chapters: Missouri Sales and Use Tax, 
1982, Corporate Taxation-Liquidations, 1983; Contributor to ``On Law'' 
column in Kansas City Business Journal, various titles, 1984-1988; 
Contributor to Precedents, informational letter of law firm (Morris, 
Larson, King and Stamper, P.C.), ``Tax Reform Act: Changes Are 
Significant,'' 1986, and ``Real Estate Under the Passive Loss 
Limitation Rules,'' 1987; author of article in Money Maker magazine, 
``Paying Less Tax On Your Interest Income,'' October/November 1985; 
author of ``Tax Tips,'' a monthly publication of Commercial Title 
Insurance Co., 1987-1988; author of article in Kansas City Magazine, 
``Taxing Questions,'' August 1985; and author of article in Kansas City 
Post, no title, June 1985.

16.  Speeches (list all formal speeches you have delivered during the 
past five years which are on topics relevant to the position for which 
yon have been nominated; provide the Committee with two copies of each 
formal speech):

    None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

    I practiced law for nearly thirty years in the private sector. 
Federal tax planning and controversy, including Tax Court practice, 
were large parts of that law practice. In that practice, I enjoyed an 
excellent working relationship with IRS personnel (Revenue Agents, 
Revenue Officers, Special Agents, Appellate Conferees, and District 
Counsel). In addition, serving for more than four years on the Missouri 
Housing Development Commission gave me an in depth, working knowledge 
of the law, regulations and practical application and use of Federal 
low income housing tax credits. That practice and experience has given 
me a good understanding of federal tax law and procedure. That private 
practice experience, representing clients and working closely with IRS 
personnel, service on the Missouri Housing Development Commission and 
more than six years of experience setting policy and managing and 
overseeing the Collection Department of Jackson County, Missouri and 
evaluating the merits of property tax disputes, all have given me a 
good perspective of private sector and government sector work, a good 
understanding and appreciation of the needs and expectations of parties 
to tax controversy, and the practical aspects of preparing for, 
litigating, briefing and, when possible and appropriate, settling 
federal tax controversies. I love public service, and have had the good 
fortune of being able to serve my community, my city, my county and my 
state. I have a very strong desire to now use my skills and experience 
to serve my country as a United States Tax Court judge.

B. FUTURE EMPLOYMENT RELATIONSHIPS

1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

  Yes.

2.  Do you have any plans, commitments, or agreements to pursue outside 
employment, with or without compensation, during your service with the 
government? If not, provide details.

  No.

3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

  No.

4.  If you are confirmed by the Senate, do you expect to serve out your 
full term or until the next Presidential election, whichever is 
applicable? If not, explain.

  Yes, subject to mandatory retirement pursuant to 26 U.S.C. Section 
7447.

C. POTENTIAL CONFLICTS OF INTEREST

1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

   In connection with the nomination process, I have consulted with the 
Administrative Office of the U.S. Courts (AOUSC) designated agency 
ethics officials to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in coordination with 
the AOUSC. I am not aware of any potential conflicts of interest.

2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

   In connection with the nomination process, I have consulted with the 
Administrative Office of the U.S. Courts (AOUSC) designated agency 
ethics officials to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in coordination with 
the AOUSC. I am not aware of any potential conflicts of interest.

3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

   In my official capacity as Director of the Collection Department for 
Jackson County Missouri (07/2009-08/2012, 04/2014-present) I have set 
policy for the Collection Department, and in my official capacity as 
Deputy Chief Administrative Officer for Jackson County (08/2012-
present) I have set policy for the Assessment Department and the 
Collection Department, and in such official capacities, I have reviewed 
and commented on, and drafted, proposed state legislation. In 2011, I 
testified before a Missouri legislative committee concerning proposed 
state legislation.

4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

   In connection with the nomination process, I have consulted with the 
Administrative Office of the U.S. Courts (AOUSC) designated agency 
ethics officials to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in coordination with 
the AOUSC. I am not aware of any potential conflicts of interest.

5.  Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

6.  The following information is to be provided only by nominees to the 
positions of United States Trade Representative and Deputy United 
States Trade Representative:

   Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

  Not applicable.

D. LEGAL AND OTHER MATTERS

1.  Have you ever been the subject of a complaint or been investigated, 
disciplined, or otherwise cited for a breach of ethics for 
unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

  No.

2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

   Yes. The Kansas City, Missouri Neighborhood and Community Services 
Department erroneously sought to assert a property code violation 
against me in 2008 for a condition that arose on property that I 
neither owned nor controlled. The City acknowledged its error and 
dismissed the charge against me.

3.  Have you ever been involved as a party of interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

   Yes.

   Plaintiff in Landlord Complaint against rent delinquent tenant filed 
in 1982-1985 (estimated); judgment for plaintiff shortly after filing.

   Plaintiff in Landlord Complaint against rent delinquent tenant filed 
2/26/1997; dismissed without prejudice 4/29/1997.

   Plaintiff in Landlord Complaint against rent delinquent tenant filed 
11/5/1998; dismissed without prejudice 11/1/1999.

   Plaintiff in Landlord Complaint against rent delinquent tenant filed 
2/26/2014; dismissed without prejudice 7/8/2014.

   Plaintiff in Landlord Complaint against rent delinquent tenant filed 
10/28/2014; judgement for plaintiff 12/2/2014.

   Erroneously named a defendant in small claims case against 
corporation for which I served as registered agent, filed 9/12/2002, 
for a matter with which I had no personal involvement, the pro se 
plaintiff apparently misunderstanding the function of a registered 
agent; party ended 10/8/2002; case was dismissed without prejudice 11/
27/2002.

   Named as one of several plaintiffs in breach of contract case 
brought by my law firm (a limited liability company) in which all of 
the members of the firm were also listed as plaintiffs; filed 3/20/
1992; judgment for plaintiff 5/25/1994.

   Named as one of several plaintiffs in breach of contract case 
brought by my law firm (a limited liability company) in which all of 
the members of the firm were also listed as plaintiffs; filed 6/9/1993; 
judgment for plaintiff 1/17/1995.

   Named as one of several defendants in declaratory judgment action 
brought against my law firm (a limited liability company) in which all 
of the members of the firm were also listed as defendants for a matter 
with which I had no personal involvement; filed 12/17/1993; dismissed 
with prejudice 4/26/1995.

   Named as a defendant in a breach of contract case brought against a 
corporation for which I served as registered agent and possibly 
corporate Secretary (with the sole function of attesting documents) for 
a matter with which I had no personal involvement, filed 4/3/1991; 
dismissed without prejudice 4/24/1991.

   Named as a defendant as trustee, in a medical claim case brought 
against a corporation for which I bad served as corporate Secretary 
(with the sole function of attesting documents) and others for a matter 
with which I had no personal involvement, filed 11/20/1990; I was 
dismissed without prejudice 3/23/1993.

   Named as one of several defendants in a case against a school 
district seeking to prohibit student dismissal/suspension from an 
athletic team; I was a member of the Board of Education and my 
involvement in the case was solely in my official capacity as a member 
of the Board of Education of the school district; filed 1/19/1999; 
prohibition order issued 2/3/1999.

   With respect to my involvement in litigation solely in my official 
capacity as Director of the Collection Department of Jackson County, 
Missouri or solely in my official capacity as Deputy Chief 
Administrative Officer of Jackson County, Missouri, see the attached 
copy of a letter from Jay Haden, Chief Deputy County Counselor, Jackson 
County, Missouri.

4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

   No.

5.  Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

   None.

E. TESTIFYING BEFORE CONGRESS

1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

   Yes.

2.  If you are confirmed by the Senate, are you willing to provide such 
information as is requested by such committees?

   Yes.

                                 ______
                                 
         Questions Submitted for the Record to Vik Edwin Stoll
               Question Submitted by Hon. Orrin G. Hatch
    Question. If confirmed, as a Tax Court judge you will preside over 
many cases that involve unsophisticated taxpayers with few resources to 
deploy while making their cases. What lessons do you take from your 
prior professional experiences to ensure that you treat these taxpayers 
with respect and understanding while stopping short of awarding them an 
advantage?

    Answer. Gathering the facts necessary for fair adjudication in 
cases involving self-represented unsophisticated taxpayers may be 
difficult. The tax code may be confusing for them and they may have 
little experience with our tax system, all of which may impair their 
ability to present their cases. Patience and sensitivity to such 
confusion and inexperience, and understanding of their lack of 
sophistication will be crucial to treating such taxpayers fairly and 
with respect. Providing more detailed explanations to such taxpayers 
and respectfully asking those taxpayers more and differently phrased 
questions may be necessary and appropriate to assure that they are 
treated fairly and with respect.

                                 ______
                                 
                Questions Submitted by Hon. Dean Heller
    Question. I believe the Tax Court is the backbone of enforcing the 
federal tax code. In order to advocate for the nation's tax cases, what 
qualifications best serve you for this position?

    Answer. Federal tax planning and controversy, including Tax Court 
practice, were large parts of my private law practice of nearly 30 
years. In representing clients in that practice I worked closely with 
IRS personnel. My service on the Missouri Housing Development 
Commission and Missouri Development Finance Board gave me approximately 
eight years of experience considering and analyzing requests for 
assistance from those entities by many individuals and small 
businesses. In managing and overseeing the Collection Department of 
Jackson County, Missouri over the past six and one half years, I have 
evaluated the merits of hundreds of property tax disputes, applying 
existing law to the facts of each case in reaching a determination.

    From that private law practice and government experience, I have a 
good perspective of private sector work and public sector work, a good 
understanding and appreciation of the needs and expectations of parties 
to tax controversy, and a good understanding and appreciation of the 
practical aspects of preparing for, litigating and, when possible and 
appropriate, settling federal tax controversies.

    Question. Like many Nevadans, I am a strong supporter of providing 
fairness and simplicity to taxpayers and businesses. As you may know, 
this committee is dedicated to overhauling the tax code. Under the 
leadership and dedication of Chairman Hatch, the committee has held 
many tax reform hearings, including one last year on simplification, 
and many lawmakers' proposals have discussed the importance of a 
simpler tax code. I understand that many small businesses and 
individuals are burdened by the confusing tax code. A 2001 GAO study 
showed that approximately 510,000 individual taxpayers chose not to 
itemize, even though they could. When taxpayers are faced with complex 
and lengthy calculations, individual taxpayers may choose to skip the 
calculation and forgo tax benefits intended for them, but 510,000 
taxpayers is a disgrace. What advice would you give tax writers to 
reduce the type of controversies that come before the Tax Court?

    Answer. In fiscal year 2014, more than 50% of Tax Court cases were 
filed as small tax cases, the vast majority of which by self-
represented taxpayers. I believe that simplification of the tax code 
would make it easier for a great many taxpayers to understand their 
obligations under the tax code. Such better taxpayer understanding of 
tax code obligations would result in far fewer tax disputes, especially 
for small businesses and individuals.

    Question. As you know, many of us are proud of the PATH Act, which 
passed at the end of last year, and provided certainty to millions of 
small businesses and individual taxpayers. Many Nevadans are now on a 
level playing with other states because of the permanent state and 
local sales tax deduction. As you are likely aware, a number of 
provisions were included which directly impacted the Tax Court. 
Specifically, what are your perspectives on the changes implemented for 
interest abatement cases if the IRS has failed to issue a final 
determination?

    Follow-up: What are your views on the expansion of the number of 
small tax cases the Tax Court could consider?

    Answer. It can be a significant burden for a taxpayer, especially 
an individual or small business, for a claim for interest abatement to 
remain unresolved for a lengthy period of time. By reason of the change 
under Section 421 of the PATH Act, a taxpayer that files a claim for 
interest abatement will have appropriate access to the Tax Court for 
timely resolution if the IRS fails to issue a final determination. It 
is likely that the amount of abatement sought in many interest 
abatement cases will not exceed $50,000, and the change under Section 
422 of the PATH Act allowing the filing of such a case as a small tax 
case will facilitate an effective means of resolution for those cases 
that would be more desirable to the taxpayers, especially for those 
that are self-represented and unsophisticated.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. Confirmed Judges to the United States Tax Court are 
responsible for resolving many complex and difficult tax controversies 
brought before them. I am sure any business owner would agree that 
while they would prefer to stay out of tax court all together, if they 
do end up in a dispute, receiving a timely resolution to their case is 
essential to the planning and certainty required to run a business.

    Unfortunately, I am aware of at least one Washington state business 
that has seen its case drag on over nine years since their trial in the 
tax court. This is an unprecedented and unacceptable delay, and this 
business needs a resolution to this matter, or at the very least, any 
update on its status.

    As Judge for the U.S. Tax Court, how can one ensure that cases are 
being adjudicated in both a fair and timely manner? Do you see 
obstacles standing in the way of your ability to render decisions in a 
timely manner for taxpayers?

    Answer. Timely resolution of a Tax Court case is an important part 
of assuring fair treatment of parties to the controversy. Significantly 
more time may be necessary for thorough analysis of facts and law in 
complex controversies than in cases of lesser complexity. If confirmed, 
I will make every effort and devote such time as may be necessary to 
adjudicate each case in a fair and timely manner. I do not see any 
obstacles standing in the way of my ability to render decisions in a 
timely manner for taxpayers.

    Question. On December 18, 2015, President Obama signed into law the 
Protecting Americans from Tax Hikes Act, also referred to as the PATH 
Act. In addition to its many tax extension provisions it also makes a 
couple changes within the United States Tax Court Administration. 
Section 431, Judicial conduct and disability procedures, authorizes the 
Tax Court to establish procedures for the filing of complaints with 
respect to the conduct of any judge or special trial judge of the Tax 
Court and for investigation and resolution of such complaints.

    Do you see the establishing of a judicial council to review 
complaints of conduct by judges as a welcome addition to the U.S. Tax 
Court Administration?

    Answer. I believe that for the success of our tax system, it must 
be fair and it must be perceived by taxpayers as being fair. The 
procedures authorized under Section 431 of the PATH Act will enhance 
taxpayer confidence in the Tax Court and further strengthen the Tax 
Court's fulfillment of its crucial role in assuring that fairness and 
that perception. Accordingly, I consider those procedures to be a 
beneficial addition to the U.S. Tax Court Administration.

                                 ______
                                 
                Questions Submitted by Hon. Bill Nelson
    Question. Please explain your general philosophy about the role of 
the tax system in society and how you think you could make the system 
work better as a judge in Tax Court?

    Answer. Our federal tax system embodies and facilitates our 
nation's tax policy and provides the mechanism for the collection of 
tax revenues that are used to fund important public services such as 
national defense, health care and social security. As such, our tax 
system touches each member of our society, whether or not that person 
pays or is required to pay taxes. It is an integral and crucial part of 
our society. Accordingly, every member of our society has a stake in 
the viability of our tax system. Public trust in the tax system is 
important for its viability. That trust can be weakened for a taxpayer 
who questions the fairness of the tax system.

    If confirmed, I will always strive to adjudicate every case fairly 
and impartially, treating all parties to the controversy with respect, 
and reaching a timely decision, to continue in the tradition of the Tax 
Court to maintain and enhance that public trust.

    Question. Mr. Stoll, in the questionnaire you submitted to the 
Committee you listed an article you wrote in 1985, titled ``Paying Less 
Tax on Your Interest Income.'' Could you briefly summarize the article, 
explain your motivations behind writing it and advise if you would 
write the same article today--explaining why or why not?

    Answer. The article discussed the tax treatment of different types 
of interest income. I enjoyed writing articles on legal topics for 
readers not having a legal background. The article was intended to be 
an informative article for such readers. It would be a pleasure to 
write such an informative article today, as I believe that providing 
information to the public that can facilitate taxpayer understanding of 
the tax code is important for reducing tax disputes and enhancing the 
efficiency of our tax system.

                                 ______
                                 
Prepared Statement of Mary Katherine Wakefield, Ph.D., Nominated to be 
       Deputy Secretary, Department of Health and Human Services
    Chairman Hatch, Senator Wyden, and members of the Committee, thank 
you for considering and inviting me here today to discuss my nomination 
to serve as Deputy Secretary of the Department of Health and Human 
Services.

    Each and every day, the Department is working on behalf of the 
American people. It conducts cutting edge research through the National 
Institutes of Health. It protects our food and medicine through the 
Food and Drug Administration. It fights outbreaks of disease at home 
and abroad through the Centers for Disease Control and Prevention. It 
supports the health for our nation's children and those in need through 
human service programs like Head Start.

    Internationally, we have worked closely with global leaders to 
create the systems that will help us prevent and respond quickly to 
global health threats like Ebola. We have convened leaders from every 
state, including your home states, to respond to the rise in opioid 
addiction and overdoses. And we continue to push forward new frontiers 
in medical science, so that medicines can be delivered precisely 
tailored to patients' genetic makeup.

    Over the past few months, I have been privileged to serve as Acting 
Deputy Secretary alongside the committed and hard-working employees of 
the Department. I have seen how the work they do helps to safeguard the 
health and security of our communities and our nation.

    I am honored that President Obama has nominated me to serve as 
their Deputy Secretary and I am deeply appreciative of this committee's 
consideration of my nomination. I believe that my commitment to the 
people that our Department serves, as well as my background and 
experience have prepared me for this position.

    The first steps on my path toward being seated here today began in 
a small rural Catholic hospital in North Dakota in the early 1970s when 
I was balancing nurse aide jobs working the night shift in a newborn 
nursery and an evening shift working in a local nursing home. In those 
settings I had the opportunity to see nurses, physicians, pharmacists 
and others helping to improve, and even save, people's lives. I found 
hometown heroes in those buildings and I was particularly drawn to the 
impact that nurses had. So, I chose that career path. Over time, I 
recognized that a nurse can contribute to the care of 2-3 patients 
working in ICU or to 400,000 or 4 million people by working in health 
policy and executing health programs as effectively and efficiently and 
creatively as possible.

    While I've worked in urban health care settings, I've always been 
particularly drawn to the strengths and challenges facing rural health 
care. Where others might see slow moving backwaters, I saw health care 
headwaters dotting the rural health landscape--from new and innovative 
applications of telehealth technology to coordinated, team based care.

    These experiences are foundational to how I approach my work today. 
Even today I maintain my license as a registered nurse, but more 
importantly I bring a nurse's patient-centered perspective to virtually 
everything I do. With an eye toward efficiency and innovating, and with 
every decision made asking myself, first--what difference will this 
decision make to a patient, a family or a community.

    That was true when I had the privilege of working as a Legislative 
Assistant and Chief of Staff for Senator Burdick from my home state of 
North Dakota and it was true when I served as Chief of Staff to Senator 
Kent Conrad, who sat on this Committee and whom I'm privileged to call 
a friend. Across over eight years on the Hill, particularly when 
working on rural health issues, I learned some of our best partners sat 
on both sides of the aisle. I worked with Democrats offices and, I 
worked alongside of terrific staff supporting Senators Dole, Grassley, 
McCain and you, Chairman Hatch.

    I also brought that patient-centered orientation and knowledge of 
rural perspective when I served on the Medicare Payment Advisory 
Committee and when I served on the Institute of Medicine's ground-
breaking quality panel. And, for the past 6 years, I've brought this 
perspective to the job of Administrator of the Health Resources and 
Services Administration, improving access to health care for millions 
of Americans through HRSA's community-based and health care workforce 
programs.

The Role of Deputy Secretary

    If confirmed as Deputy Secretary, these experiences will inform 
both how I approach my work, as well as my focus on performance 
improvement across our wide breadth of programs. I will work as hard as 
I possibly can because I know that people depend on what we do and how 
well we do it. And because I work for a Secretary that is fully 
dedicated to doing everything she can through the end of this 
Administration to make our Department stronger and to deliver 
effectively for the American people.

    At HHS, the primary focus of the Deputy Secretary role is to help 
manage the department's operations from organizational structures to 
infrastructure to personnel, and to do it with priority focus on 
effectiveness and efficiency. If confirmed, I will continue to work 
with senior leaders and front line staff to prioritize data security. I 
will work to build out strategies that ensure our next generation of 
senior leaders have the skills and knowledge they need to execute the 
department's mission. I will make sure that we continue to drive 
organizational process improvements forward and keep people accountable 
for measurable performance.

    And, I will continue to work to strengthen HHS's culture as a 
learning organization that constantly works to adopt good ideas--no 
matter where those ideas are found. The approach that I bring to this 
role recognizes the value of finding common ground. Those of you who 
have worked closely with Secretary Burwell know that it is her 
orientation and it is mine as well. It is in a nurse's DNA to work 
collaboratively and to address problems fully and quickly. It's in a 
nurse's DNA to search for and execute on opportunities for performance 
improvement. If confirmed, that's the same approach I'll bring to my 
work and to working with you and your colleagues on behalf of the 
health of the American people. Chairman Hatch and Senator Wyden, thank 
you again for the opportunity to testify and I look forward to 
answering your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Mary Katherine Wakefield; 
former: Mary Katherine Wakefield-Fisher.

 2.  Position to which nominated: Deputy Secretary, U.S. Department of 
Health and Human Services.

 3. Date of nomination: July 9, 2015.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: August 12, 1954, Devils Lake, North 
Dakota.

 6.  Marital status (include maiden name of wife or husband's name):

 7. Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

   Ph.D.  The University of Texas at Austin, Austin TX, 1985.
   M.S.N.  The University of Texas at Austin, Austin TX, 1978.
   B.S.N.  The University of Mary, Bismarck, ND, 1976.

    Other: John F. Kennedy School of Government, Harvard University, 
Program for Senior Managers in Government; Eastman Kodak Congressional 
Fellow, Cambridge, MA, Jul.-Aug. 1991.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

   Apr. 2015-Present
   Title:  Acting Deputy Secretary
   Employer:  U.S. Department of Health and Human Services
   Location:  Washington, DC

   Mar. 2009-Apr. 2015
   Title:  Administrator, Health Resources and Services Administration
   Employer:  U.S. Department of Health and Human Services
   Location:  Washington, DC

   Nov. 2004-Mar. 2009
   Title:  Associate Dean for Rural Health
   Employer:  School of Medicine and Health Sciences, University of 
North Dakota
   Location:  Grand Forks, ND

   Dec. 2001-Mar. 2009
    Title:  Director, The Center for Rural Health, and Professor, 
School of Medicine and Health Sciences
   Employer:  University of North Dakota
   Location:  Grand Forks, ND

   May 2002-Mar. 2009
   Title:  Adjunct Professor, College of Nursing
   Employer:  School of Medicine and Health Sciences, University of 
North Dakota
   Location:  Grand Forks, ND

   Jan. 1996-Nov. 2001
    Title:  Professor and Director of The Center for Health Policy, 
Research and 
Ethics
   Employer:  George Mason University
   Location:  Fairfax, VA

   Jan. 1993-Jan. 1996
   Title:  Chief of Staff
   Employer:  Senator Kent Conrad (D-ND) United States Senate
   Location:  Washington, DC

   Sept. 1992-Jan. 1993
   Title:  Administrative Assistant
    Employer:  Senator Jocelyn Burdick (D-ND) (temporary appointment to 
Senator Quentin Burdick's seat), United States Senate
   Location:  Washington, DC

   Jan. 1989-Sept. 1992
   Title:  Administrative Assistant
   Employer:  Senator Quentin Burdick (D-ND), United States Senate
   Location:  Washington, DC

   Apr. 1987-Jan. 1989
   Title:  Legislative Assistant
   Employer:  Senator Quentin Burdick (D-ND), United States Senate
   Location:  Washington, DC

   Aug. 1985-Apr. 1987
    Title:  Associate Professor and Chairperson, Nursing 
Professionalism and Practice Area
   Employer:  University of North Dakota College of Nursing
   Location:  Grand Forks, ND

   Jan. 1985-May 1986
   Title:  Faculty Member
   Employer:  University of North Dakota College of Nursing
   Location:  Grand Forks, ND

   May 1982-Dec. 1983
   Title:  Area Coordinator: Foundations of Nursing
   Employer:  University of North Dakota College of Nursing
   Location:  Grand Forks, ND

   Aug. 1979-May 1982
   Title:  Faculty: Nursing Options (undergraduate)
   Employer:  University of North Dakota College of Nursing
   Location:  Grand Forks, ND

   Aug. 1979-May 1986
   Title:  Staff Nurse, Part-time
   Employer:  United Hospital
   Location:  Grand Forks, ND

   Aug. 1978-Aug. 1979
   Title:  Instructor
   Employer:  Austin Community College, Brackenridge School of Nursing
   Location:  Austin, TX

   1977-1978 Fall/Spring Semesters
   Title:  Academic Assistant
   Employer:  Univ. of Texas at Austin, School of Nursing
   Location:  Austin, TX

   Aug. 1976-Jul. 1977
   Title:  Registered Nurse
   Employer:  United Hospital
   Location:  Grand Forks, ND (part-time 1977-1985)

   May 1975-Aug. 1976
   Title:  Nurse Assistant, Staff Nurse
   Employer:  St. Alexius Hospital, Intensive Care Unit
   Location:  Bismarck, ND

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

    International Activities

    Mar. 2014:  Site Visits to PEPFAR grantees, Namibia, Botswana, 
South Africa and Lesotho.
    Jul. 2011:  Accompanying Secretary Sebelius to meetings on health 
topics--Kenya and Tanzania.
    May 2011:  Member of U.S. Delegation, World Health Assembly. 
Geneva, Switzerland.
    May 2010:  Member of U.S. Delegation, World Health Assembly. 
Geneva, Switzerland.
    May 2009:  Member of U.S. Delegation, World Health Assembly. 
Geneva, Switzerland.

    Federal Grant Supported Activity:

     Principal Investigator, Health Workforce Information Center, U.S. 
DHHS/HRSA (2008).
     Co-Principal Investigator, VISN 23 Veterans Affairs Midwest Rural 
Health Resource Center, Department of Veterans Affairs, (2008).
     Co-Principal Investigator, Veteran's Affairs Office of Rural 
Health Policy and Planning Project, Department of Veterans Affairs 
(2008).
     Principal Investigator, Rural Research to Diverse Audiences, U.S. 
DHHS/HRSA, (2007).
     Principal Investigator, Building Research Infrastructure and 
Capacity, U.S. DHHS/AHRQ, (2004).
     Deputy Principal Investigator, Upper Midwest Rural Research 
Center, U.S. DHHS/HRSA, (2004).
     Principal Investigator, Frontier Definition Project, U.S. DHHS/
OAT, (2005).
     Principal Investigator, Rural Assistance Center, U.S. DHHS/HRSA/
ORHP (2002-March 2009).
     Principal Investigator, Evidence-Based Safety Standards for Rural 
Hospitals, U.S. DHHS/HRSA/ORHP, (2003).
     Co-Principal Investigator, Development of a Funding Methodology 
for the Allocation of Title VIII Funds: Phase II. Report to the 
Division of Nursing, U.S. DHHS (2002).
     Principal Investigator, U.S. DHHS, HRSA Office of Rural Health 
Policy, Capitol Area Rural Roundtable grant, 1997-2001.
     Co-Principal Investigator, U.S. DHHS, HRSA, Division of Nursing, 
(2001).
     Principal Investigator, U.S. DHHS, Bureau of Health Professions, 
National Center for Health Workforce Information and Analysis 
(directory and Capitol Hill forum) ``Report on the Nation's 
Workforce,'' (2001).
     Principal Investigator, U.S. DHHS, Internship Placements and 
Consultation to the National Practitioner Data Bank, (2000), (1999).
     Co-Principal Investigator, Agency for Healthcare Research and 
Quality and the Office of Rural Health Policy, U.S. DHHS Rural 
Research/Policy Summit and Proceedings (2000).
     Principal Investigator, U.S. DHHS, HRSA, Bureau of Health 
Professions, Healthcare Workforce Capitol Hill Forums, $50,000 (2000).

    Advisory Committees:

   Mar. 2008:   Health Panel Member Rural Policy Research Institute 
Health Panel Implementing a New USDA Rural Development Program 
Targeting Small Rural Hospitals and Their Communities. USDA.

   2013-2015:   Member, Department of Veterans Affairs' Special 
Advisory Group, Washington, DC.

   2005-2009:   Member, Department of Veterans Affairs' Special Medical 
Advisory Group, Washington, DC.

   2003-2004:   Chair, Committee on the Future of Rural Health Care. 
Institute of Medicine of the National Academies. Washington, DC.

   2002-2004:   Member, Department of Veterans Affairs (VA) National 
Commission on VA Nursing, Washington, DC.

   2002-2003:   Co-Chair, Committee on the Health Professions Education 
Summit. Institute of Medicine of the national Academies. Washington, 
DC.

   2000-2003:   Member, National Advisory Council, Agency for 
Healthcare Research and Quality, U.S. DHHS. (Chair, 2002-2003).

   1999-2005:   Commissioner, Medicare Payment Advisory Commission 
(MedPAC). Washington, DC.

   1999-2003:   Member, National Advisory Committee on Rural Health, 
Office of Rural Health Policy, U.S. DHHS. 2002-2003. Chair, Quality 
Report Subcommittee.

   1998-2000:   Member, Committee on Quality of Health Care in America 
and Chair of the Technical Advisory Panel on Communication of Quality 
of Care Information. Institute of Medicine, Washington, DC.

   1997-1998:   Commissioner and Subcommittee Chair, President 
Clinton's Advisory Commission on Consumer Protection and Quality in the 
Health Care Industry. Washington, DC. (Presidential Appointment).

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

   2007-2009:   Co-Chair, Nursing Engagement in Performance Measurement 
and Public Reporting, National Advisory Committee, George Washington 
University. Funded by the Robert Wood Johnson Foundation.

   2006-2008:   Member, Hospital Interventions Quality Improvement 
Organization Support Center Advisory Committee, Stratis Health, MN.

   2005-2009:   Member, Board of Directors, AcademyHealth, Washington, 
DC.

   2005-2009:   Member, Commonwealth Fund Commission on a High-
Performance Health System, New York, NY.

   2004-2009:   Member, Quality Steering Committee, National Rural 
Health Association, Washington, DC.

   2004-2008:   Co-Chair, Steering Committee on National Voluntary 
Consensus Standards for Hospital Performance, National Quality Forum, 
Washington, DC.

   2004-2006:   Member, Advisory Board, WWAMI (Washington, Wyoming, 
Alaska, Montana, and Idaho) Rural Health Research Center.

   2003-2009:   Member, Board on Health Care Services. Institute of 
Medicine of the National Academies, Washington, DC.

   2003-2007:   Board of Stewardship Trustees, Catholic Health 
Initiatives and Chair, Committee on Quality, Denver, CO.

   2003-2004:   Expert Panel member, U.S. DHHS Office of Minority 
Health. Assessing the Impact on Physician-Patient Communication 
Barriers on Health Care Costs and Quality, Washington, DC.

   2002-2006:   Board of Trustees, North Dakota Museum of Art. Grand 
Forks, ND.

   2001-2007:   Member, Board of Directors, Citizen Advocacy Center, 
Washington, DC.

   1998-2009:   Member, Health Panel to Rural Health Policy Institute 
(RUPRI). University of Nebraska, Omaha, NE.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

   2007-2009:   Member, Government Affairs Committee, National Rural 
Health Association , Washington, DC.

   2007-2008:   Member, Associate Dean for Research, Search Committee, 
School of Medicine and Health Sciences.

   2007-2008:   Member, Vice President for Research, Search Committee, 
University of North Dakota.

   2005-2009:   Advisory Board member (Chair), National Partners 
Investing in Nursing's Future. The Robert Wood Johnson Foundation.

   2005-2006:   Member, North Dakota Caring Foundation, Inc., Fargo, 
ND.

   2004-2009:   Member, Research Council, University of North Dakota.

   2004-2007:   Member, Committee on Promotion and Tenure, Department 
of Family Medicine, School of Medicine and Health Sciences.

   2004-2005:   Faculty Member. Patient Safety and Health Information 
Technology Annual Meeting. National Organization for Research and 
Computing (NORC), U.S. DHHS Agency for Healthcare Research and Quality.

   2004-2005:   Chair, Inter-professional Health Education Task Force, 
School of Medicine and Health Sciences.

        2004:   Reviewer. North Dakota Bankers Association Community 
Service Awards, Bismarck, ND.

   2003-2009:   Member, Board of Directors. North Dakota Health Care 
Review, Minot, ND.

   2003-2009:   Member, Board of Directors, Noridian Mutual (Blue Cross 
Blue Shield of North Dakota), Fargo, ND.

   2003-2005:   Member, North Dakota Cancer Coalition, Bismarck, ND.

   2003-2005:   Member, Statewide Health Planning Executive Committee, 
Bismarck, ND.

   2003-2005:   Chair, Long Term Care Advisory Committee, North Dakota 
Department of Health, Bismarck, ND.

   2003-2005:   Member, Executive and Policy Committees, Building a 
Healthy North Dakota Initiative, Bismarck, ND.

        2003:   Reviewer, Canadian Health Services Research Foundation, 
Ottawa, Ontario, Canada.

   2003-2004:   Chair, Committee on the Future of Rural Health Care. 
Institute of Medicine of the National Academies. Washington, DC.

   2002-2009:   Editorial Board, Annals of Family Medicine.

   2002-2006:   Editorial Advisory Board, Health Care Discussions, 
Noridian, Blue Cross Blue Shield of North Dakota.

   2002-2003:   Member, Advisory Board. ``Closing the Gap: Partnership 
for Change.'' American College of Physicians/American Society Internal 
Medicine.

   2002-2003:   Co-Chair, Committee on the Health Professions Education 
Summit. Institute of Medicine, Washington, DC.

   2002-2003:   Member, Subcommittee on Community Effects of the 
Uninsured. Institute of Medicine, Washington, DC.

        2002:   Member, Planning Committee, Patient Safety Curriculum 
Conference, Dartmouth College, Hanover, NH.

   2001-Pres.:   International Rotary.

   2001-2009:   Reviewer, Journal of Rural Health.

   2001-2007:   Editorial Board, Journal of Rural Health.

   2001-2003:   Publication Advisory Committee, American Academy of 
Nursing.

   2001-2003:   Member, Advisory Committee. Center of Excellence in 
Rural and Minority Health. Voorhees College. Denmark, SC.

   2000-2009:   Editorial Board, Policy, Politics and Nursing Practice.

   2000-2006:   Peer Review Panel Member for International Nursing 
Review, Journal of the International Council of Nursing. Geneva, 
Switzerland.

   2000-2002:   Co-Chair, Steering Committee on Hospital Performance 
Measures. The National Quality Forum for Health Care Quality 
Measurement and Reporting (NQF). Washington, DC.

   2000-2003:   Member, Patient Safety Improvement Corps National 
Advisory Committee. Research Triangle Institute University of North 
Carolina.

   2000-2001:   Subcommittee Chair, External Community Subcommittee 
University Accreditation Self Study, George Mason University, Fairfax, 
VA.

   2000-2001:   Member, Planning Committee. Initiative for Improvement 
in Safety Net Organizations, Institute for Healthcare Improvement 
(IHI), The Robert Wood Johnson Foundation.

        2000:   Member. Awards Committee for the Patient Safety 
Initiative 2000: Spotlighting Strategies, Sharing Solutions. National 
Patient Safety Foundation.

   1999-2000:   Chair, Promotion, Tenure and Review Committee, College 
of Nursing and Health Science, George Mason University. Fairfax, VA.

        1999:   Chair, Planning Committee. Shaping Health Policy: 
Improving the Quality of Our Nation's Health. American Academy of 
Nursing Annual National Conference. Arlington, VA.

   1998-2000:   Member, Committee on Quality of Health Care in America 
and Chair of the Technical Advisory Panel on Communication of Quality 
of Care Information. Institute of Medicine, Washington, DC.

   1998-1999:   Member. Public Policy Advisory Committee to the 
Provost, George Mason University, Fairfax, VA

        1998:   Member, Blue Sky Planning Task Force. Evangelical 
Lutheran Good Samaritan Society. Sioux Falls, SD.

   1996-1997:   Member, Joint Working Group on Telemedicine. Federal 
Interagency Task Force. Washington, DC.

   1995-1996:   The Fund for Nursing Excellence Advisory Committee. 
Fairfax Hospital, Fairfax, VA.

   1997-2004:   Advisory Board Member. Walsh Center for Rural Health 
Analysis. Project Hope. Bethesda, MD.

   1997-1999:   Member, Advisory Group to the Progressive Policy 
Institute's Health Priorities Project. Washington, DC.

   1997-2006:   Peer Review Panel, Nursing Outlook.

   1994-1996:   Editorial Board Member, Nursing Policy Forum.

   1996-2009:   Member, National Rural Health Association.

   1990-2009:   Editorial Board, Nursing Economics.

        1990:   Reviewer for 45 private colleges for the Consolidated 
Natural Gas Company Foundation Awards For Excellence in Education, 
Washington, DC.

   1988-1993:   Editorial Review Board, Journal Nursing and Health 
Care.

   1988-1992:   Editorial Board, Journal of Rural Health.

        1986:   Editorial Board, Nursing Success Today.

   1986-1987:   Vice President, Board of Directors, LISTEN Drop In 
Center for Mentally Handicapped Adults, Grand Forks, ND.

   1985-1987:   Chair, Bylaws Committee (Eta Upsilon Chapter) Sigma 
Theta Tau.

   1985-Pres.:   Sigma Theta Tau, The International Nursing Research 
Society, Member.

   1980-Pres.:   Member, Sigma Xi, The Scientific Research Society.

   1989-1998:   National League for Nursing, Member.

   1995-1998:   Board of Governors, National League for Nursing.

   1991-1993:   Board of Governors, National League for Nursing.

   1991-1992:   Chair, Public Policy Committee, National League for 
Nursing.

   1989-1991:   Member, Executive Committee for the Council for the 
Society for Research in Nursing Education.

   1977-Pres.:   Member, American Nurses' Association.

   1998-1990:   ANA-PAC Long Range Planning Task Force, American Nurses 
Association.

   1985-1986:   Member, ANA Committee on Credentials, American Nurses 
Association.

   1977-Pres.:   Member, North Dakota Nurses' Association.

   1985-1986:   Member, Government Relations Committee, North Dakota 
Nurses Association.

   1985-1986:   Chair, Committee on Nominations, North Dakota Nurses 
Association.

   1977-Pres.:   Member, Red River Valley District Nurses' Association.

        2004:   Member, Annual Convention Program Planning Committee, 
Red River Valley District Nurses' Association.

        1987:   Member, Nominating Committee, Red River Valley District 
Nurses' Association.

   1985-1986:   Member, Government Relations Committee.

   1982-1983:   President, Red River Valley District Nurses 
Association.

13.  Political affiliations and activities:

   a.  List all public offices for which you have been a candidate.

      None.

   b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

      2005-2009 Century Club Member, North Dakota Dem NPL Party.
      2003-2009 Vice Chair, North Dakota Dem NPL Party.

   c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

      North Dakota Democratic-Nonpartisan League Party, 12/21/2006, 
$1,000.00.
      North Dakota Democratic-Nonpartisan League Party, 11/01/2005, 
$1,000.00.
      North Dakota Democratic-Nonpartisan League Party, 11/01/2005, 
$1,000.00.

      American Nurses Association PAC, 02/08/2006, $500.00.
      American Nurses Association PAC, 08/29/2005, $500.00.
      American Nurses Association PAC, 07/13/2005, $500.00.
     A merican Nurses Association PAC, 07/13/2005, $500.00. (This 
appears twice on FEC report date 07/13/2005 subtracted 08/29/2005.)
      American Nurses Association PAC, 1/2008, $150.00.

      Roger Johnson, Ag Commissioner, ND 2006, $850.
      Brent Edison, Tax Commissioner, ND 2006, $250.
      Kristin Hedger, Sec of State, ND 2006, $375.

      Tim Mathern and Merle Boucher, Gov/Lt. Gov., ND 2008, $250.
      Jasper Schneider, Insurance Commissioner, ND 2008, $245.

      Gause for House, 6/13/06, $65.00.

      Jamie Selzler for House, 7/23/06, $70.00.

      C. Bergian for PSC, 6/23/06, $75.00.

      District 15 Joe Lawson, 7/25/06, $200.00.

      District 43 Democratic NPL, 9/16/06, $100.00.

      Potter for House, 9/27/06, $100.00.

      Bergian for PSC, 9/29/06, $50.00

      Preston for Mayor, 12/26/05, $225.00.

      Cass County Democrats, 4/2/06, $370.00

      District 17 ND-NPL, 1/23/08, $56.00

14.  Honors and Awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

    Jul. 2014:  Victor I. Howery Memorial Award for Outstanding 
Contributions to Rural Mental Health, National Association for Rural 
Mental Health, Washington, DC.

    May 2014:  Joseph F. Boyle Award for Distinguished Public Service, 
The American College of Physicians, Washington, DC.

    Apr. 2014:  Lifetime Achievement Award, The National Organization 
of Nurse Practitioner Faculties, Denver, CO.

    May 2013:  Inducted into the Professional Committee Nursing Hall of 
Fame, Altru Hospital, Grand Forks, ND.

    May 2013:  Outstanding Graduate School Alumnus, The University of 
Texas at Austin, Austin, TX.

    2013, 2010:  Named One of the Top 100 Most Influential People in 
Health Care by Modern Health Care.

    2013, 2011, 2009:  Named One of the Top 25 Women in Health Care by 
Modern Health Care.

    Apr. 2013:  Founder's Excellence Award, Blacks In Government, 
Parklawn Chapter, Rockville, MD.

    Sept. 2012:  Federal Policy Leadership Award, Healthcare 
Information and Management Systems Society, Washington, DC.

    May 2012:  Honorary Degree of Letters, University of North Dakota, 
Grand Forks, ND.

    May 2012:  Honorary Degree of Humane Letters, State University of 
New York, Binghamton, NY.

    Mar. 2012:  Interdisciplinary Creativity in Practice and Education 
Award. National Academies of Practice, Arlington, VA.

    Jun. 2011:  Director's Special Recognition Award, Indian Health 
Service, Washington, DC.

    2011:  Honorary Doctorate of Science, Thomas Jefferson University, 
Philadelphia, PA.

    Oct. 2009:  Policy Luminary Award, American Association of Colleges 
of Nurses, Washington, DC.

    Apr. 2009:  William D. Miller Award, The American Association of 
Colleges of Osteopathic Medicine Board of Deans, Washington, DC.

    Mar. 2009:  Certificate of Appreciation. Department of Veterans 
Affairs, Washington, DC.

    Dec. 2008:  Margaret D. Sovie Writer's Award. Nursing Economics, 
Scottsdale, AZ.

    Nov. 2006:  Schafer Excellence in Health Care Award. University of 
Mary, Bismarck, ND.

    Spring 2006:  Nurse Researcher Award, American Organization of 
Nurse Executives, Washington, DC.

    Oct. 2004:  Inducted into Institute of Medicine of the National 
Academies. Washington, DC.

    Nov. 2002:  National Associate Member, National Academies of 
Science. Washington, DC.

    Oct. 2000:  Annual John P. McGovern Lectureship Award, American 
Association of Colleges of Nursing, Washington, DC.

    Sept. 2000:  Honorary Member, Emergency Nurses' Association. 
Chicago, IL.

    Apr. 1999:  Special Recognition Award, National Rural Health 
Association, Washington, DC.

    Jan. 1999:  Nurses Hall of Fame. North Dakota State Nurses 
Association. Bismarck, ND.

    Mar. 1998:  Epsilon Zeta Chapter Board of Directors Award for 
Excellence, Sigma Theta Tau International. Fairfax, VA.

    Jun. 1998:  Barbara Curtis National Public Health Policy Award, 
American Nurses Association. San Diego, CA.

    Jan. 1996:  Honorary Member, North Dakota Hospital Association.

    1994:  Inez Hinsvark Founders Award. Med Center One, School of 
Nursing. Bismarck, ND.

    1994:  Annual Public Policy Award. National League for Nursing. Los 
Angeles, CA.

    1994:  North Dakota State Nurses' Association Honorary Recognition 
Award. Bismarck, ND.

    1991:  Honorary Member, Philippine Nurses' Association of 
Metropolitan DC, Washington, DC.

    Fall 1990:  Inducted, Fellow in the American Academy of Nursing, 
Washington, DC.

    Fall 1990:  Inducted into the National Academies of Practice, 
Washington, DC.

    May 1990:  Annual President's Award. The National Rural Health 
Association, Washington, DC.

    May 1989:  Outstanding Alumni of the Year, School of Nursing, 
University of Texas at Austin. Austin, TX.

    Oct. 1988:  Outstanding Alumni of the Year, University of Mary, 
Bismarck, ND.

    1980, 1981:  Outstanding Instructor Award presented by the U.S. Air 
Force. University of North Dakota, College of Nursing. Grand Forks, ND.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

    Wakefield, M. (2014) Improving the Health of the Nation: HRSA's 
Mission to Achieve Health Equity. Public Health Reports, 2014 Jan-Feb; 
129 Suppl 2:3-4.

    Wakefield, M.K., Sheldon, G.H. (2013) Special Supplement on the 
Maternal, Infant, and Early Childhood Home Visiting (MIECHV) Program. 
Foreword. Pediatrics 132 Suppl 2:S57-8.

    Wakefield, M.K., (Jan. 25, 2012) U.S. Medicine, Providing Quality 
Care to Underserved Families and Communities.

    Wakefield , M. (September 2010) Nurses and the Affordable Care Act. 
American Journal of Nursing 110(9):11.

    Tupper, J., Coburn, A., Loux, S., Moscovice, I., Klingner, J., and 
Wakefield, M. (2008) Strategies for Improving Patient Safety in Small 
Rural Hospitals. In: Henriksen K., Battles J.S., Keyes M.A., Grady 
M.L., editors. Advances in Patient Safety: New Directions and 
Alternative Approaches (Vol. 2: Culture and Redesign). Rockville, MD: 
Agency for Healthcare Research and Quality.

    McBride, T., Coburn, A., MacKinney, C., Mueller, K., Slifkin, B., 
and Wakefield, M. (2008) Bridging Health Research and Policy: Effective 
Dissemination Strategies. Journal of Public Health Management Practice 
14(2):150-4.

    Wakefield, M. (2008) Third Edition. Chapter 3: Government Response: 
Legislation, Health Policy and Politics--A Nurses Guide, 65-89. 
Sudbury, MA, Jones and Bartlett Publishers.

    Wakefield, M. (2008) Chapter 4: The Quality Chasm Series: 
Implications for Nursing in Patient Safety and Quality: An Evidence-
Based Handbook for Nurses. Rhonda Hughes (Ed.), AHRQ publication No. 
08-0043, on line http://www.ahrq.gov/qual/nurseshdbk/docs/
WakefieldM_QCSIN.pdf.

    Wakefield, M., (Aug. 1990-2008) Health Policy and Politics Column 
for Nursing Economics.

    Wakefield, M. (Jun. 2008) Envisioning and implementing new 
directions for health care. Dermatology Nursing 20(3):206-8.

    Wakefield, M. (Jan.-Feb. 2008) Envisioning and implementing new 
directions for health care. Nursing Economics 26(1):49-51.

    Wakefield, M. (Sept.-Oct. 2006) A rural healthcare quality agenda. 
Journal for Healthcare Quality 28(5):2, 57.

    Wakefield, M. (Sept.-Oct. 2006) High-performance health care: How 
do we get there? Nursing Economics 24(5):265-7.

    Wakefield, M., Gibbens, B. (Feb. 2006) Access to Health Care for 
Rural America: Why it Matters. Electronic publication--
website:www.aroundthekitchen
table.org, issue 14.

    Casey, M., Wakefield, M., Coburn, A., Moscovice, I., and Loux S., 
(2006) Prioritizing Patient Safety Interventions in Small Rural 
Hospitals. Joint Commission Journal on Quality and Patient Safety 
32(12):693-702.

    Wakefield, M. (Fall 2005) In Search of a Reason to Influence Health 
Policy. Journal of Forensic Nursing 1(3):136-8.

    Wakefield, M. (Jan.-Feb. 2005) Health Care Quality in Rural 
America: What's in it for Nurses? Nursing Economics 23(1):36-8.

    Mueller, K.J., Coburn, A.F., MacKinney, A.C., McBride, T.D., 
Slifkin, R.T., Wakefield, M. (Summer 2005) Understanding the impact of 
the Medicare Modernization Act: Concerns of Congressional Staff. 
Journal of Rural Health 21(3):194-7.

    Burstin, H. and Wakefield, M. (2004) The Importance of Safety and 
Quality in Rural America. Journal of Rural Health 20(4):301-3.

    Coburn, A.F., Wakefield, M., Casey, M., Moscovice, I., Payne, S., 
Loux, S. (2004) Assuring Rural Hospital Patient Safety: What Should be 
the Priorities? The Journal of Rural Health 20(4):314-26.

    Wakefield, M. (2004) Second Edition. Chapter 3: Government 
Response: Legislation, Health Policy and Politics--A Nurse's Guide, 67-
88. Jeri A. Milstead (Ed.), Sudbury, MA, Jones and Bartlett Publishers.

    Calico, F.W., Dillard C.D., Moscovice, I., Wakefield, M. (Summer 
2003) A Framework and Action Agenda for Quality Improvement in Rural 
Health Care. Journal of Rural Health 19(3):226-32.

    Wakefield, M. (Jan.-Feb. 2003) Health Care Policy or Politics--
Which Prevails in 2003? Nursing Economics 21(1):47-8.

    DeLeon, P., Wakefield, M., and Hagglund, C. (2003) Into the Twenty-
First Century. Rural Behavioral Health Care: An Interdisciplinary 
Handbook. B.H. Stamm (Ed.), Washington, DC: APA Books.

    Wakefield, M. (Fourth Quarter 2002) What Would Florence Do? 
Reflections on Nursing Leadership, 12-16.

    Wakefield, M. (Sept.-Oct. 2002) Turning up the Volume to Battle 
Chronic Disease. Nursing Economics 20(5):229-31.

    Wakefield, M. (Spring 2002). Reducing Medical Errors. North Dakota 
Family Practice Quarterly.

    Wakefield, M. (Jan. 2002). Patient Safety and Medical Errors: 
Implications for Rural Health Care. The Journal of Legal Medicine 
23:43-56.

    Phillips, R.L. Jr., Harper, D.C., Wakefield, M., Green, L.A., and 
Fryer, G.E. Jr. (2002) Can Nurse Practitioners and Physicians Beat 
Parochialism into Plowshares? Health Affairs 21(5):133-42.

    Wakefield, M., Gardner, D., and Guillett, S. (2002) Fourth Edition. 
Contemporary Issues in Government. Policy and Politics in Nursing and 
Health Care. Mason, D., Leavitt, J., and Chaffee M. (Eds). 
Philadelphia: W.B. Saunders Company, 421-442.

    Loop, F.D., Fishleder, A.J., Nelson, A.R., Wakefield, M., Johnson, 
S., Lewers. D.T. (Jul.-Aug. 2001) More Debate on Paying for GME. Health 
Affairs (Millwood) 20(4) :254-7.

    Wakefield, M. (Jul.-Aug. 2001) Linking Health Policy to Nursing and 
Health Care Scholarship: Points to Consider. Nursing Outlook 49(4):204-
205.

    Wakefield, M. (2001) The Relationship Between Quality and Patient 
Safety. Lessons in Patient Safety: A Primer. Zipper and Cushman (Eds). 
Chicago, IL. National Patient Safety Foundation, 15-19.

    Wakefield, M. (May 2001) Medicare at the Crossroads. Policy, 
Politics and Nursing Practice 2(2):98-102.

    Maddox, P.J. and Wakefield, M. (Jan.-Feb. 2001) Patient Safety and 
the Need for Professional and Educational Change. Nursing Outlook 
49(1):8-13.

    Heinrich, J, and Wakefield, M. (2001) Federal Health Policy: Issues 
for the Nursing Profession in the 21st Century. The Nursing Profession. 
Norma L. Chaska (Ed.). Thousand Oaks, CA: Sage Publications.

    Gebbie, K., Wakefield, M., and Kerfoot, K. (Third Quarter 2000) 
Nursing and Health Policy. Journal of Nursing Scholarship 32(3):307-15.

    Wakefield, M. (Sept.-Oct. 2000) Research Urgently Needed on 
Mistakes in Outpatient Settings. The Voice of Ambulatory Care Nursing 
22(5):3-4.

    IOM Committee on Quality of Healthcare in America (Oct. 2000) The 
Institute of Medicine Report on Medical Errors: Misunderstanding Can Do 
Harm. Medscape General Medicine (electronic journal).

    Wakefield, M. and DeLeon, P. (Jun. 2000). To Err is Human: An 
Institute of Medicine Report. Professional Psychology: Research and 
Practice 31(3):243-4.

    Council on Graduate Medical Education and National Advisory Council 
on Nurse Practice. (Apr. 2000) Collaborative Education to Ensure 
Patient Safety. U.S. DHHS/HRSA.

    Wakefield, M., and Maddox, P.J. (Apr. 2000) Patient Quality and 
Safety Problems in the U.S. Health Care System: Challenges for Nursing. 
Nursing Economics 18:58-62.

    Wakefield, M. (Jan.-Dec. 1999). Columnist, ``Public Policy,'' 
Journal of Professional Nursing, American Association of Colleges on 
Nursing. Philadelphia, PA, W.B. Saunders Co. 15(6):329.

    Wakefield, M. (1999) Government Response: Legislation. Health 
Policy and Politics. Chapter 3, 77-104. Milstead (Ed.). Gaithersburg, 
MD: Aspen Publishers.

    Wakefield, M. (1999) Nursing's Future in Health Care Policy. 
Creating Nursing's Future: Issues, Opportunities, and Challenges. 
Eleanor J. Sullivan (Ed.). St. Louis, MO: Mosby.

    Wakefield, M., Gardner, D., Guillett, S. (1998) Third Edition. 
Contemporary Issues in Government. Policy and Politics in Nursing. 
Chapter 21. Mason, D. and Leavitt, J. (Eds.). Philadelphia: W.B 
Saunders Co.

    Wakefield, M. (Mar.-May 1997) A Capital Experience. ND Nurses 
Association Prairie Rose, 66(1 Suppl):9a-11a.

    Wakefield, M. (Jun. 1996). Federal Health Initiatives: A Status 
Report. Dermatology Nursing 8(3):199-200.

    Wakefield, M. (May-Jun. 1995). Medicaid Block Grants: A New 
Beginning or the End of an Era? Nursing Policy Forum.

    Bocchino, C.A., Wakefield, M. (Jun. 1993) Options and Opinions 
Offered for Financing Health Care Reform. Medsurg Nursing 2(3):241-2.

    Wakefield, M. (Winter Edition, 1992). A Blueprint for Health Care 
Reform: The Clinton Plan. Connections. Publication of the NLN Council 
for Nursing Practice. New York.

    Wakefield, M. (1992). Contemporary Issues in Government. Chapter in 
Policy and Politics in Nursing. Eds. D. Mason, S. Talbott and J. 
Leavitt. W.B. Saunders Co.

    Wakefield, M. (Jun.-Aug. 1992) Sounding a Political Call to Arms. 
ND Nurses Association Prairie Rose, 61(2):1, 6-9.

    DeLeon, P., Wedding, D., Wakefield, M., VandenBos, G. (Apr. 1992). 
Medicaid Policy--Psychology's Overlooked Agenda. Professional 
Psychology: Research and Practice 23(2):96-107.

    Sharp, N., Biggs, S., Wakefield, M. (Jan.-Feb., 1991). Public 
Policy: New Opportunities for Nurses, Nursing and Health Care. 
12(1):16-22.

    Wakefield, M. (1991). Contributing Ed. for The Best of Nursing 
Economics. Pitman, NJ: Anthony Janetti, Inc.

    DeLeon, P., Wakefield, M., VandenBos, G. (1990). Chapter in 
Sociocultural and Service Issues in Working With Rural Clients. S.J. 
Jones (Ed.), Nelson A. Rockefeller College of Public Affairs and 
Policy, University of Albany, State University of New York.

    Wakefield, M. (Mar.-Apr. 1990). Rural Health Care: A View From the 
Nation's Capitol. Nursing Economics, 8(2):83-9.

    Wakefield, M. (1990). The Nursing Profession and Federal Health 
Policy: A View From Within. The Nursing Profession: Turning Points, 
Chapter 6. N. Chaska (Ed.). St. Louis, MO: The C.V. Mosby Co.

    Wakefield, M. (Fall 1989). Politics and Public Policy. ANA Network 
News. Washington, DC.

    Wakefield, M. (Nov. 1989). Health Care for Rural America: Long on 
Challenges. Short on Promises. Journal of the American Academy of Nurse 
Practitioners 1(3):101-102.

    DeLeon, P., Wakefield, M., Schultz, A., Williams, J., VandenBos, G. 
(Oct. 1989). Rural America: Unique Opportunities for Health Care 
Delivery and Health Services Research. American Psychologist 
44(10):1298-1306.

    Wakefield, M. (Nov. 1989) Health Care for Rural America. American 
Association of Colleges of Nursing Newsletter.

    Wakefield, M. (Jan. 1989). Congress Needs to Hear Nursing's Views. 
Invited Editorial for The American Nurse, 21(1):8. Kansas City, MO: 
American Nurses' Association 21(1)8.

    Wakefield-Fisher, M. and Frank, B. (1988). Administrative 
Leadership and Faculty Scholarly Productivity: Research on Nursing 
Faculty and Deans. Chapter in the Second Annual Review of Research in 
Nursing Education. W. Holzemer (Ed.). New York: National League for 
Nursing (15-2219):57-84.

    Wakefield-Fisher, M. (Nov. 1987). Balancing Wishes with Wisdom: 
Sustaining Infant Life. Nursing and Health Care 8(9):516-20.

    Wakefield-Fisher, M. (May 1987). Periodic column titled Nursing's 
Connection on Capitol Hill. The North Dakota Nurses' Association 
publication, The Prairie Rose. Bismarck, ND.

    Wakefield-Fisher, M. (May-Jun., 1987). The Relationship Between 
Professionalization of Nursing Faculty, Leadership Styles of Deans, and 
Faculty Scholarly Productivity. The Journal of Professional Nursing 
3(3): 155-64.

    Wakefield-Fisher, M. (Feb. 1987). Reorganization of an Academic 
Unit: Practical Application of Theoretical Concepts. Issues in Higher 
Education Conference. Proceedings from the Fourth Annual Conference on 
Academic Chairpersons: Organizational Structure, Change, and 
Development. Orlando, FL. Published by Kansas State University.

    Wakefield-Fisher, M., Wright, M. and Kraft, L. (Mar. 1986). North 
Dakota and Entry into Practice: A First for the Nation. Nursing and 
Health Care 7(3): 134-41.

    Wakefield-Fisher, M. (Mar. 1986). Women in Administration in 
Nursing Education and Practice: Factors Underlying Performance. Nursing 
Success Today 3(3):3-8.

    Wakefield-Fisher, M. (Mar. 1986). Evaluation of Nursing Textbooks: 
A Comprehensive Approach. Nursing Outlook. 34(2):72-3, 98.

    Wakefield-Fisher, M. (Feb. 1985). Locus of Decision Making in 
Schools of Nursing. Journal of Nursing Education 24(2):82-4.

    Wakefield-Fisher, M. (May 1983). The Issue: Faculty Practice. 
Journal of Nursing Education 22(5):207-10.

    Wakefield-Fisher, M. (Mar. 1982). The Role of the Professional 
Nurse: Conflicting Perspectives. In O'Donnell, S. and Schaver, B. 
(Eds.) Women's Scholarship: Curriculum Handbook. Grand Forks, ND: The 
University of North Dakota Press.

    Wakefield-Fisher, M. (Mar. 1981). North Dakota Nurses: A Position 
of Influence. The Prairie Rose. North Dakota Nurses' Association, 
Bismarck, ND.

    Blogs:

    2/13/2015  Blog post HHS.gov Celebrate National Donor Day http://
www.
hhs.gov/blog/authors/marv-k-wakefield.

    5/6/2015  Blog post HHS.gov Recognizing our Nation's Nurses http://
www.
hhs.gov/blog/2015/05/06/recognizing-our-nations-nurses.html.

    11/14/2014  Blog post HHS.gov HRSA Administrator Rockin' Enrollin' 
http://www.hhs.gov/blog/2014/11/14/hrsa-administrator-rockin-
enrollin.html.

    10/22/2014  Blog post StopBullying.gov Blog Bullying Prevention in 
2014: HRSA's Perspective http://www.stopbullying.gov/blog/2014/10/22/
bullying-prevention-2014-hrsas-perspective.

    10/22/2014  Blog post StopBullying.gov Prevention in 2014: HRSA 
Perspective http://espanol.stopbullying.gov/blog/2014/10/22/bullying-
prevention-2014-hrsas-perspective (Spanish version).

    10/9/2014  Blog post HHS.gov Blog National Health Service Corps 
strengthens primary care workforce http://www.hhs.gov/healthcare/facts/
blog/2014/07/hrsa-awards-aca-funds-to-expand-mental-health-
services.html.

    8/11/2014  Blog post HHS.gov Blog Celebrating America's Health 
Centers http://www.hhs.gov/healthcare/facts/bloq/2014/08/celebratinq-
americas-health-centers.html.

    7/31/2014  Blog post HHS.gov Blog HHS Awards $54.6 Million in 
Affordable Care Act Funds to Expand Mental Health Services http://
www.hhs.gov/healthcare/facts/blog/2014/07/hrsa-awards-aca-funds-to-
expand-mental-health-services.html.

    6/3/2014  Blog post HHS.gov Blog Affordable Care Act Funds to 
Expand Services at the Nation's Community Health Centers http://
www.hhs.gov/healthcare/facts/blog/2014/06/expand-services-at-community-
health-centers.
html.

    5/6/2014  Blog post RWJF The Nursing Profession: A Platform for 
Leadership http://www.rwjf.org/en/culture-of-health/2014/05/
the_nursing_profession.
html.

    3/4/2014  Blog post MentalHealth.gov Integrating Behavioral Health 
Care in Health Centers http://www.mentalhealth.gov/blog/2014/03/
behavioral-health-care-in-health-centers.html.

    4/5/2012  Blog post Blog Her Stop Bullying: A Call to Action http:/
/www.
blogher.com/stop-bullying-call-action.

    7/9/2010  Blog post AIDS.gov Blog HHS reallocates $25 million to 
extend care to people on ADAP waiting list https://blog.aids.gov/2010/
07/hhs-reallocates-25-million-to-extend-care-to-people-on-adap-waiting-
list.html.

    6/18/2010  Blog post White House Blog Building a Stronger Health 
Care Workforce https://www.whitehouse.gov/blog/2010/06/18/building-a-
stronger-health-care-workforce.

    2/11/2010  Blog post AIDS.gov Blog Responding to concerns over Ryan 
White Emergency Housing Policy https://blog.aids.gov/2010/02/
responding-to-concerns-over-rvan-white-emergency-housing-policy.html.

16.  Speeches (list all formal speeches you have delivered during the 
past five years which are on topics relevant to the position for which 
you have been nominated; provide the Committee with two copies of each 
formal speech):

    2015

    Valley Community Health Center; January 16, 2015.

    Friends of HRSA; February 3, 2015.

    National Rural Health Association; February 3, 2015.

    Association of State and Territorial Health Officials; March 4, 
2015.

    National Association of Community Health Centers; March 20, 2015.

    Catholic Medical Mission Board; Monday, March 23, 2015.

    Native Youth Community of Care Conference; March 28, 2015.

    American Organization of Nurse Executives, April 16, 2015.

    Aspen Institute's 50th Anniversary of Medicare/Medicaid, April 15, 
2015.

    Advisory Council on Alzheimer's Research, Care and Services/White 
House Conference on Aging Joint Meeting, April 28, 2015.

    2014

    National Nurses Conference Call; January 23, 2014.

    Association of Maternal and Child Health Programs; January 27, 
2014.

    Rural Policy Institute; February 4, 2014.

    National Black Nurses Association; February 6, 2014.

    White House ACA Conference; February 11, 2014.

    Health Center Allies; February 20, 2014.

    Tribal Conference; February 24, 2014.

    National Organization of Nurse Practitioner Faculties; March 10, 
2014.

    Friends of HRSA; March 12, 2014.

    Primary Care Workshop; March 12, 2014.

    Project VIDA Health Center; March 20, 2014.

    National Association of Community Health Centers; March 21, 2014.

    Florida Blue Foundation; April 23, 2014.

    RWJ Foundation; April 28, 2014.

    Tribal Self-Governance Panel Discussion; May 6, 2014.

    Nursing Stakeholders Meeting; May 9, 2014.

    American Indian Nursing in North Dakota Conference; May 20, 2014.

    American College of Physicians; May 22, 2014.

    Graduate Nursing Education Event; May 27, 2015.

    Pediatric Webcast; June 4, 2014.

    American Association of Pediatrics; June 16, 2014.

    American Association of Nurse Practitioners; June 18, 2014.

    Grantee Webinar; June 24, 2014.

    Advisory Committee; July 9, 2014.

    International Rural health and Rural Nursing Research Conference; 
July 14, 2014.

    Awards Ceremony; July 18, 2014.

    Emergency Medical Services for Children Program Meeting; July 30, 
2014.

    Press Conference, July 31, 2014.

    National Primary Oral Health Conference; August 18, 2014.

    State Primary Care Officials; August 5, 2014.

    National Association of Hispanic Nurses; August 22, 2014.

    National Indian Health Board Conference; September 9, 2015.

    National Advisory Council for Nursing Association and Practice; 
November 5, 2014.

    Native Youth Conference; November 10, 2014.

    Panel Audience; November 13, 2014.

    Civic and Public Health Officials; November 13, 2014.

    HRSA Honors Ceremony; November 18, 2014.

    American Public Health Association; November 19, 2014.

    Student Assembly; November 19, 2014.

    National Rural Health Day; November 20, 2014.

    National Health Law Program; December 8, 2014.

    2013

    40th Annual Arizona Rural Health Conference, August 21, 2013.

    Advisory Committee on Training in Primary Care Medicine and 
Dentistry; May 20, 2013.

    American Association of Colleges of Nursing Graduate Nursing 
Student Academy, February 25, 2013.

    American Association of Nurse Practitioners, September 13, 2013.

    American Health Quality Association; February 27, 2013.

    American Federation of Teachers Healthcare Union; April 27, 2013.

    American Telemedicine Association, June 27, 2013.

    ACA and Asian Americans and Pacific Islanders, October 23, 2013.

    Association of Nurses in AIDS Care, November 23, 2013.

    Association of Maternal and Child Health Programs, February 12, 
2013.

    Friends of HRSA for Thursday, April 11, 2013.

    Annual Conference of the Georgia Association for Primary Health 
Care, October 2, 2013.

    Phoenix Health Center; Tuesday, August 20, 2013.

    Press call for new ACA awards, December 10, 2013.

    Press call for new ACA awards, July 10, 2013.

    Webcast to HRSA Grantees, June 24, 2013.

    HRSA/SAMHSA Forum for Stakeholder Sharing on The Behavioral Health 
Workforce in a Changing Health Care System, September 9, 2013.

    Webcast to tribes applying for HRSA grants, August 15, 2013.

    U.S.-Mexico Binational Health Week; October 1, 2013.

    Minnesota Department of Health, March 6, 2013.

    2013 National HBCU Week Conference, September 27, 2013.

    Public health stakeholders in Muskegon, Michigan, April 11, 2013.

    National Advisory Council on Nurse Education and Practice, January 
31, 2013.

    National Association of Community Health Centers, March 22, 2013.

    National Critical Access Hospital (CAH) Conference, June 5, 2013.

    National Indian Health Board's Consumer Conference, August 27, 
2013.

    National Rural Health Association, February 4, 2013.

    Live video feed, Northeast Ohio Medical University, June 3, 2013.

    Video Remarks to a Nurses Week Symposium, May 10, 2013.

    Secretary's Advisory Committee on Infant Mortality, April 24, 2013.

    Federal Plenary Session of the 25TH Conference of Safe Kids, 
Worldwide; June 21, 2013.

    Panel on ``Current and Planned STEM Programs: Challenges and 
Opportunities for Diversity in Health Professions Workforce;'' November 
25, 2013.

    Uniformed Services University of the Health Sciences, Graduate 
School of Nursing, October 29, 2013.

    Virginia Nurses' Association (video remarks), September 10, 2013.

    ``Helping Veterans Become Physicians Assistants'' webinar; November 
20, 2013.

    White House Education Stakeholders Event, September 19, 2013.

    World AIDS Day 2013, December 4, 2013.

    2012

    White House ACA ``Champions for Change'' Panel Discussion, March 
21, 2012.

    Wisconsin Women's Webinar, March 20, 2012.

    Baltimore Medical System, Inc., March 30, 2012.

    White House Community Health Center Town Hall; May 24, 2012.

    Binghamton University Harpur College of Arts and Sciences 
commencement, May 20, 2012.

    University of North Dakota Commencement, May 15, 2012.

    CHG week: Community Health Centers--March 23, 2012 address.

    Friends of HRSA; February 28, 2012: Friends of HRSA--reading 
version.

    National Primary Care Conference on Aging; April 30, 2012.

    Community of Hope health center, July 26, 2012.

    Health Center Week TeleTown Hall; August 6, 2012.

    National Association of Community Health Centers, March 23, 2012.

    Whittier Street Health Center; February 6, 2012.

    National Primary Care Faculty Development Initiative; January 13, 
2012.

    Healthcare Information and Management Systems Society, September 
12, 2012.

    Secretary's Advisory Committee on Heritable Disorders in Newborns 
and Children, January 26, 2012.

    Annual Research Symposium, Hispanic-Serving Health Professions 
Schools, August 17 2012.

    Health Policy Briefing for the League of United Latin American 
Citizens, October 3, 2012.

    2012 Interagency World AIDS Day Observance; December 6, 2012.

    HRSA ``Tribal Listening Session,'' September 24, 2012.

    University of Southern California/UCLA Inter-Professional Education 
Conference; October 10, 2012.

    IOM Committee on Governance and Financing of Graduate Medical 
Education, September 4, 2012.

    IOM workshop on telehealth in an evolving health care environment, 
August 8, 2012.

    Association of Maternal and Child Health Programs, February 13, 
2012.

    2012 Joint Meeting on Adolescent Treatment Effectiveness, April 11, 
2012.

    International Forum on Sustaining Universal Health Coverage, April 
2, 2012.

    United Health Foundation's 2012 Diverse Scholars Forum; June 27, 
2012.

    Annual Summer Meeting of the Coalition of Urban Serving 
Universities and the Association of Public and Land Grant Universities, 
June 27, 2012.

    Mongan Commonwealth Fund/Harvard University Fellowship in Minority 
Health Policy Leadership Forum, September 19, 2012.

    Newborn Foundation Reception; September 13, 2012.

    NHSC National Advisory Council, January 19, 2012.

    National Health Service Corps Loan-Repayers Conference; April 13, 
2012.

    Meeting of Nurse Membership of SEIU Healthcare 1199NW Committee; 
March 31, 2012.

    AFSCME Nurse Advisory Committee, February 27, 2012.

    Webcast remarks to the Arizona Nurses Association meeting, 
September 14, 2012.

    Visiting Nurses Association of America; Friday, May 4, 2012.

    5th Nursing Economic$ summit, June 8, 2012.

    National Black Nurses Association, February 2, 2012.

    Annual Regional Nurse Practitioner Conference, January 20, 2012.

    BJC HealthCare Nursing Summit; June 11, 2012.

    Graduate Nursing Education Demonstration program press call, March 
21, 2012.

    Nursing in 3D Summit, August 16, 2012.

    White House Health Care Providers Briefing, September 28, 2012.

    Public Health Nursing Leadership Network, February 9, 2012.

    University of Pittsburgh School of Nursing Workforce Roundtable; 
August 15, 2012.

    Partners in the Healthy Weight Collaborative, September 24, 2012.

    Region I Primary Care Workforce Conference, September 18, 2012.

    Regions 8 and 10 CHCs, October 15, 2012.

    EPA Stakeholders' Call on Poisoning Prevention, March 19, 2012.

    University of Rhode Island Honors Colloquium, September 18, 2012.

    CHAMPS/NWRPCA Fall Primary Care Conference, October 15, 2012.

    American Academy of Family Physicians' Board of Directors, March 7, 
2012.

    UCSF-SFGH FCM Residency Program 40th Anniversary Celebration, March 
24, 2012.

    AAMC ``Integrating Quality Meeting,'' June 7, 2012.

    Live video feed to California State Rural Health Association 
Conference, November 13, 2012.

    North Dakota Rural Health Conference, May 30, 2012.

    Medicare Flex Grantee Meeting; July 10, 2012.

    Rural Health Information Technology Network Development Program, 
May 22, 2012.

    Annual Rural Health Policy Institute, January 30, 2012.

    Ryan White HIV/AIDS Program's All-Grantees Meeting, November 27, 
2012.

    Secretary's Advisory Committee, Training in Primary Care Medicine 
and Dentistry; July 19, 2012.

    State Health Officers in Region III, August 9, 2012.

    UT-Austin Texas Health Symposium, April 29, 2012.

    Tri-Regulator Symposium, October 17, 2012.

    White House Rural Council's Health IT Initiative, February 7, 2012.

    Association of Women's Health, Obstetric and Neonatal Nurse 
Convention, June 25, 2012.

    Edward N. Brandt, Jr. Memorial Lecture in Women's Health, November 
15, 2012.

    ``Best Practices in State Health Workforce Data and Planning'' 
meeting of HRSA grantees, May 15, 2012.

    Conference call on ACA Implementation Update for Clinicians, 
Hospitals, and Other Healthcare Providers--ACA Healthcare Workforce 
Investments, October 12, 2012.

    Health Policy Institute of Ohio, December 5, 2012.

    2011

    Martin Luther King Day Observance, January 13, 2011.

    Combating Autism Act Initiative meeting, January 13, 2011.

    Council on Graduate Medical Education, January 19, 2011.

    National Council of County Association Executives, January 13, 
2011.

    2011 National Health Policy Conference, February 7, 2011.

    Health Careers Opportunity Program and the Centers of Excellence 
Program, February 1, 2011.

    340B Coalition Winter Conference; February 10, 2011.

    National Advisory Council on Migrant Health, February 8, 2011.

    National Black Nurses Association; February 3, 2011.

    Meeting on Team-based Competencies, February 16, 2011.

    Broward Community and Family Health Centers Annual Board Meeting, 
February 25, 2011.

    National Black Nurses Association, February 3, 2011.

    Women's History Month Program, March 1, 2011.

    Commonwealth Fund and the Alliance for Health Reform, congressional 
retreat, January 16, 2011.

    White House Conference on Bullying Prevention, March 10, 2011.

    Healthy Start Program, September 12, 2011.

    National Association of County Behavioral Health and Developmental 
Disability Directors, March 4, 2011.

    13th Annual Tribal Budget Consultation, March 3, 2011.

    National Hispanic Medical Association; March 18, 2011.

    American Association of Colleges of Nursing Annual Student Policy 
Summit; March 20, 2011.

    ACA Anniversary Event in West Virginia, March 10, 2011.

    National Academies of Practice; March 26, 2011.

    Small Health Care Provider Quality Improvement Peer Learning 
Workshop and Grantee Meeting, March 28-30, 2011.

    IOM Committee on ``Integrating Primary Care and Public Health,'' 
March 28, 2011.

    Annual Women's Health Congress; April 2, 2011.

    University of St. Thomas Health Policy Seminar, April 4, 2011.

    Rural Voices Leadership and Policy Workshop; April 4, 2011.

    Annual Conference on Nursing Practice Based on Evidence, April 1, 
2011.

    National Association of Community Health Centers, April 25, 2011.

    Webinar on ``The Federal Perspective on Philanthropy and 
Implementation of the Affordable Care Act;'' April 20, 2011.

    Annual Cervical Cancer-Free America Forum, May 5, 2011.

    American College of Physicians; May 24, 2011.

    HRSA/SAMHSA LGBT Pride Month event; June 8, 2011.

    AARP/NRHA/RWJF Joint Forum on Rural Health and Nursing Solutions; 
June 13, 2011.

    National Association for Rural Mental Health Conference, June 22, 
2011.

    National Health Care for the Homeless Council, June 23, 2011.

    Grantmakers in Health, June 16, 2011.

    ``National Day of Dialogue'' webcast; June 29, 2011.

    School-based Health Centers; Press conference call; June 14, 2011.

    Ventanillas de Salud Regional Meeting; July 28, 2011.

    ONDCP/SAMSHA meeting on ``The Integration of Substance Abuse and 
Primary Care Services,'' August 10-11, 2011.

    New Jersey federal and state elected officials, representatives of 
the New Jersey Primary Care Association, and Health Center officials, 
August 8, 2011.

    National Hispanic Medical Association; March 18, 2011.

    Advisory Committee on Infant Mortality; August 3, 2011.

    Annual Heartland Genetics and Newborn Screening Conference, August 
24, 2011.

    Annual Conference of the National Assoc. of School Nurses, June 30, 
2011.

    Joint Forum on Rural Health and Nursing Solutions, June 13, 2011.

    National Radiation Exposure Screening and Education Program grantee 
meeting, September 19, 2011.

    Leadership Conference of the Texas Nurses Association, September 
22, 2011.

    Annual conference of the Gerontological Advanced Practice Nurses 
Association; September 15, 2011.

    Secretary's Advisory Committee on Infant Mortality, August 3, 2011.

    Forum on health care at Penn State University, September 26, 2011.

    Tribal consultation policy meeting, September 26, 2011.

    CEO Conference of the Montana HA Annual Convention; September 21, 
2011.

    Boston Primary Care (AP Nurses) Conference; October 5, 2011.

    Healthy Weight Collaborative Meeting, September 14, 2011.

    The Bipartisan Policy Center, panel on ``Looking Ahead: The Future 
Health Professional Workforce;'' October 18, 2011.

    Henry Ford Health Systems Annual Providers retreat, October 22, 
2011.

    Annual Convention of the National Congress of American Indians; 
October 30, 2011.

    National Coalition for LGBT Health, October 18, 2011.

    Iowa Rural Roundtable, September 9, 2011.

    Association of State and Territorial Health Officials; October 21, 
2011.

    National Network for Oral Health Access, October 24, 2011.

    Hispanic-Serving Health Professions Schools, November 1, 2011.

    Evidence-Based Nursing Research Conference, October 28, 2011.

    U.S. Conference on AIDS, November 13, 2011.

    Webinar, Helping Veterans Become Physician Assistants; November 16, 
2011.

    1st Annual National Rural Health Day, November 17, 2011.

    School-based Health Center Awards Press Conference Call, June 14, 
2011.

    Palmetto Health Council, December 14, 2011.

    Loudoun Community Health Center, December 19, 2011.

    Thomas Jefferson University, June 1, 2011.

    American Assoc. of Colleges of Osteopathic Medicine Policy Forum; 
December 8, 2011.

    2010

    National Association of Community Health Centers Policy and Issues 
Forum; February 26, 2010.

    Healthcare Information and Management Systems Society; March 1, 
2010.

    Pakistani Ministry of Health Delegation; March 2, 2010.

    National Nursing Research Roundtable; March 4, 2010.

    12th Annual National HHS Tribal Budget and Policy Consultation 
Session; March 4, 2010.

    University of St. Thomas Health Policy Seminar; March 4, 2010.

    Arkansas Farm Bureau; March 5, 2010.

    Grantmakers in Health; March 10, 2010.

    National Disabilities Rights Network, March 11, 2010.

    National Healthy Start Association, March 16, 2010.

    National Association of Public Hospitals and Health Systems; March 
9, 2010.

    RWJ Foundation Nurse Faculty Scholars, March 24, 2010.

    Josiah Macy Jr. Foundation, March 9, 2010.

    Rural Voices Leadership and Policy Workshop, March 29, 2010.

    Western Institute of Nursing, 2010 Communicating Nursing Research 
Conference, April 7, 2010.

    National Council of Urban Indian Health, April 7, 2010.

    BHPr All-Advisory Committee Meeting, April 21, 2010.

    HHS Region V Tribal Consultation, April 20, 2010.

    American Association of Nurse Anesthetists Mid-Year Assembly, April 
27, 2010.

    National Association of Counties' (NACo) Rural Action Caucus White 
House Briefing, April 29, 2010.

    George Mason University College of Health and Human Services, April 
22, 2010.

    American Association of Nursing Informatics and Technology Expert 
Panel, May 6, 2010.

    CDC 2010 National Nurses Week Event, May 12, 2010.

    Nursing Recognition Day, May 7, 2010.

    Nurses Week Webinar, Service Employees International Union, May 7, 
2010.

    USPHS Scientific and Training Symposium, May 14, 2010.

    Patient Safety and Clinical Pharmacy Collaborative, May 13, 2010.

    Meeting of Key Minority Health Stakeholders, May 14, 2010.

    Association of State and Territorial Directors of Nursing and 
Association of Community Health Nursing Educators, June 11, 2010.

    Prevention and Public Health Fund Workforce press conference, June 
16, 2010.

    Penobscot Community Health Care, June 21, 2010.

    National African American Youth Initiative meeting, June 24, 2010.

    9th Annual Conference on Urban Health, June 18, 2010.

    National Association of Hispanic Nurses, July 25, 2010.

    Annual 340B Coalition Conference, July 19, 2010.

    Patient-Centered Primary Care Collaborative Stakeholders Working 
Group, July 22, 2015.

    Home Visiting Conference Call, July 22, 2010.

    Doctors For America, July 27, 2010.

    Northeast Area Nurses Meeting, August 6, 2010.

    Regional Offices All-Hands Meeting, August 16, 2010.

    Bullying Prevention Summit, August 11, 2010.

    American Psychological Association Education Advocacy Breakfast 
Meeting, August 14, 2010.

    35th National Primary Care Nurse Practitioner Symposium, August 16, 
2010.

    HAB-Ryan White All-Grantees Conference, August 29, 2010.

    Rural Health Outreach and Network Development Grantees Meeting, 
August 2, 2010.

    American Academy of Nurse Practitioners, June 23, 2010.

    National Hispanic Medical Association's 14th annual conference, 
March 26, 2010.

    Association of Women's Health, Obstetric and Neonatal Nurses, 
September 25, 2010.

    Historically Black Colleges and Universities Conference, September 
13, 2010.

    Federal Public Health Nurse Leadership Meeting, September 15, 2010.

    Annual Meeting of the Hemophilia Alliance, September 14, 2010.

    Kaiser Permanente nurses phone call, September 23, 1010.

    Women's Outreach Call-RS-ReadVersion, September 14, 2010.

    American Telemedicine Association, September 28, 2010.

    State of The Science Congress on Nursing Research, September 27, 
2010.

    Public Health and Prevention Fund press event, September 28, 2010.

    Remarks for Conference Call on Nursing with First Lady Michelle 
Obama, September 28, 2010.

    University of Iowa Health Sciences Policy Council, September 30, 
2010.

    Iowa Rural Health Association, September 30, 2010.

    Central Iowa Hospital Corporation, September 30, 2010.

    Primary Health Care, Inc., September 30, 2010.

    White House Summit on Community Colleges, October 5, 2010.

    CHC grants announcement, October 7, 2010.

    National Indian Health Board, October 7, 2010.

    Signature Healthcare Foundation, October 14, 2010.

    Washington University, October 14, 2010.

    Grace Hill Neighborhood Health Centers, October 14, 2010.

    Maternal and Child Health Federal/State Partnership Meeting, 
October 20, 2010.

    Federation of American Hospitals, October 19, 2010.

    Association of State and Territorial Health Officials, October 22, 
2010.

    Health Foundation of South Florida, October 1, 2010.

    National Disability Employee Awarness Month: October 26, 2010.

    National Practitioner Data Bank Executive Committee, November 2, 
2010.

    Area Health Education Centers, October 28, 2010.

    Nurse Family Partnership, November 1, 2010.

    Association of Nurses in AIDS Care, November 8, 2010.

    IOM Committee on Preventive Services for Women, November 16, 2010.

    American Dental Association National Consensus Conference, November 
18, 2010.

    Total Health Care Inc, November 22, 2010.

    Unity Health Care, December 3, 2010.

    World AIDS Day ceremony, December 1, 2010.

    NHSC Awardee Conference, December 9, 2010.

    GANES Second Annual International Conference for Nurse Educators, 
December 11, 2010.

    Meeting of telemedicine stakeholders, December 9, 2010.

    Georgetown University School of Nursing and Health Studies, 
November 22, 2010.

    American Association of Colleges of Osteopathic Medicine, December 
2, 2010.

    State Primary Care Offices Conference, December 14, 2010.

    Pew Children's Dental Campaign Conference, November 17, 2010.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

    I am an experienced executive who has led the Health Resources and 
Services Administration (HRSA), an operating division within the U.S. 
Department of Health and Human Services, for the past 6 years. As HRSA 
Administrator, I led work to modernize and transform the organization 
to better serve patients and communities in every state across the 
U.S.--in local health centers, Ryan White HIV/AIDS clinics, college 
health workforce programs, in rural communities with National Health 
Service Corps clinicians, in state Maternal and Child health programs, 
and for people in need of organ transplants.

    I have a proven track record of garnering cost savings in areas 
such as travel and conference spending to assure that investments are 
efficient, even on the scale of HRSA's $10 billion budget (FY15). Under 
my leadership, HRSA automated much of its work, improving oversight and 
accountability, as well as making reporting easier for grantees and 
clinicians.

    As HRSA Administrator, I worked closely with colleagues across HHS 
and in other Cabinet agencies on cross-cutting issues ranging from 
providing health care to American Indians, to helping Veterans become 
health care providers, to working with the Department of Education to 
automate student loan debt verification for health professions 
students.

    My interest in nursing began during my high school years when I 
worked part-time as a nursing aide in my hometown hospital and a local 
nursing home. I was immediately drawn to the difference that nurses 
made in their patients' lives. Since then, I studied to become a 
registered nurse and acquired an extensive background in rural health 
care and rural health policy. I taught nursing students in rural and 
urban health care facilities and practiced clinically in both settings. 
As a Member of the Institute of Medicine (IOM), I chaired a key 
committee that focused on Health Care Quality in Rural America. As a 
member of the IOM's Quality Chasm committee I worked to inform landmark 
reports that helped to transform how the nation approaches hospital 
safety and medical errors. I have spent my career focused on health 
care delivery and health care system improvement working in health care 
and health professions education. My expertise has been nationally 
recognized in rural health, workforce and nursing.

    I understand the legislative process and executive branch having 
worked in both environments on Capitol Hill. I worked across the aisle 
on shared agendas from rural health to health care workforce to human 
services. The programmatic and policy focus of my work ranges from 
LIHEAP to programs that support the health of disadvantaged populations 
(e.g., American Indians). Additionally, I co-chaired Senate Rural 
Health Caucus staff meetings, working in a bipartisan approach to 
address an array of challenges including workforce, access, quality and 
telemedicine issues as they impact rural communities and health 
facilities. I have showcased innovation in rural health care delivery 
to inform both rural and urban health care.

    I have informed health policy through work on Capitol Hill, as well 
as on Advisory committees to HHS operating divisions and programs. My 
experiences as a health care provider, an educator, a Hill staffer, and 
an executive leader create the foundation for assuming this position.

B. FUTURE EMPLOYMENT RELATIONSHIPS

1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate?

   No, as I am currently employed by the U.S. Department of Health and 
Human Services.

2.  Do you have any plans, commitments, or agreements to pursue outside 
employment, with or without compensation, during your service with the 
government?

   No.

3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

   No.

4.  If you are confirmed by the Senate, do you expect to serve out your 
full term or until the next Presidential election, whichever is 
applicable?

   Yes.

C. POTENTIAL CONFLICTS OF INTEREST

1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

   The Office of Government Ethics at the Department of Health and 
Human Services has identified one potential conflict of interest for 
which I will recuse myself on any related deliberations. Since my 
husband is a professor at the University of North Dakota, School of 
Medicine, I will recuse myself from any and all deliberations related 
to that University.

2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

   None.

3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

   I have written articles on the importance of health reform and the 
role of government.

4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the Committee with two copies of any trust or other 
agreements.)

   In connection with the nomination process, I have consulted with the 
Office of Government Ethics and the Department of Health and Human 
Services designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official.

5.  Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

   This will be provided.

6.  The following information is to be provided only by nominees to the 
positions of United States Trade Representative and Deputy United 
States Trade Representative:

   Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed (including any work you 
supervised), the time frame of the work (e.g., March to December 1995), 
and the number of hours spent on the representation.

   Not applicable.

D. LEGAL AND OTHER MATTERS

1.  Have you ever been the subject of a complaint or been investigated, 
disciplined, or otherwise cited for a breach of ethics for 
unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group?

   No.

2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense?

   No.

3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation?

   Divorce:

   Other Party: Wayne W. Fisher. Year filed and proceeding terminated: 
1988.

   EEO Proceedings:

   While I was HRSA Administrator, an employee filed an EEO complaint 
in 2009 and 2012 alleging that she was discriminated against on the 
basis of age and retaliation when she was reassigned to a different 
position with in HRSA and when she was not selected for a new position 
within HRSA. For the 2009 case, an Administrative Judge ruled in favor 
of the Agency. For the 2012 case, an Administrative Judge ruled in 
favor of the Agency, but there is an appeal pending. The same employee 
filed an EEO complaint in 2014 alleging that she was discriminated 
against on the basis of race, color, age, and retaliation. Final 
disposition of the case is still pending.

4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?

   No.

5.  Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

   None.

E. TESTIFYING BEFORE CONGRESS

1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

   Yes.

2.  If you are confirmed by the Senate, are you willing to provide such 
information as is requested by such committees?

   Yes.

                                 ______
                                 
     Questions Submitted for the Record to Mary Katherine Wakefield
               Questions Submitted by Hon. Orrin G. Hatch
    Question. I am concerned that CMS actions are preventing Medicare 
beneficiaries from accessing the full range of FDA-approved treatments 
for glioblastoma (GBM), an aggressive brain tumor. In 2011, the FDA 
approved the Optune system (formerly NovoTFF therapy system), a medical 
device that is worn on a patient's head in the home and uses low-
intensity, intermediate-frequency electric fields to target the tumor, 
to treat recurrent GBM as an alternative to chemotherapy. In 2015, the 
FDA expanded its approval to treat an initial GBM in combination with 
chemotherapy. CMS and its regional Durable Medical Equipment Medicare 
Administrative Contractors (DME MACs) have made past decisions--the 
most recent a 2014 DME MAC non coverage determination--that create 
uncertainty as to future determinations. Questions to which the answers 
would help provide some clarity are below.

    CMS issued a benefit category determination in July 2013 stating 
that the Optune system is a DME item. Is that benefit category 
determination still in effect?

    Answer. For any item to be covered and paid by Medicare, it must 
(1) be eligible for a defined Medicare benefit category, (2) be 
reasonable and necessary for the diagnosis or treatment of illness or 
injury or to improve the functioning of a malformed body member, and 
(3) meet all other applicable Medicare statutory and regulatory 
requirements. The Optune system was determined to be a frequently 
serviced item of durable medical equipment, thus meeting the first 
criteria above, and issued a new HCPCS code in 2014. However, the DME 
MACs have issued a local coverage determination (LCD) that the device 
is not reasonable and necessary. Therefore, this device does not meet 
the second criteria and is not covered or paid under Medicare.

    If any individual or organization possesses relevant data that have 
not been considered the DME MACs, they may wish to submit such data to 
the DME MACs and request a reconsideration of their decision. The 
process by which a LCD may be reconsidered is found in chapter 13 of 
the CMS Medicare Program Integrity Manual on the CMS website at: 
https://www.cms.gov/Regulations-and-Guidance/Guidance/Manuals/
Downloads/pim83c13.pdf. Alternatively, any individual or organization 
may request a national coverage determination (NCD) for this device. 
The process for submitting an NCD request can be found at: https://
www.cms.gov/Medicare/Coverage/DeterminationProcess/Downloads/
FR08072013.pdf.

    Question. CMS has three options for establishing a fee schedule 
amount for a new DME item: setting it using the amount for comparable 
equipment; using an amount calculated by a DME MAC; and the ``deflate 
and inflate'' methodology. CMS established a fee schedule payment 
amount for the Optune system in December 2013 using the comparable 
equipment option, an amount that the manufacturer has stated covered 
only a small fraction of the system's cost. CMS removed that payment 
amount from the fee schedule in June 2014. Does the CMS removal of the 
payment amount indicate that the comparable equipment option is not 
applicable to the Optune system?

    Answer. As described above, the DME MACs determined that the Optune 
system is not reasonable and necessary and therefore not covered or 
paid by Medicare. After this determination, the manufacturer requested 
that CMS remove the Medicare DME fee schedule amount from our website. 
CMS granted that request and removed the fee schedule amount from our 
website in June 2014.

    Question. CMS posted a memo, dated February 5, 2016, on its website 
that went to its Medicare Administrative Contractors (MACs) instructing 
them to make system changes in preparation for a ``Part B Drug Payment 
Model'' that would start on August 1, 2016. The memo indicates that the 
model would be conducted by the Centers for Medicaid Innovation (CMMI) 
and test different Average Sales Price add-on percentages in specific 
geographic areas. The memo also indicates that the model will be 
mandatory and established through notice and comment rulemaking. CMS 
has since removed the memo from its website, and a press story quotes 
an agency official as saying the memo was ``premature.'' These events 
raise a number of questions, including those listed below.

    Does CMMI plan to start the Part B Drug Payment Model described in 
the memo this year?

    Which, if any, stakeholders has CMMI consulted in designing this 
model to-date?

    Has CMMI decided on the precise design and how it will execute the 
model prior to receiving input through the referenced notice and 
comment rulemaking process?

    What other payment changes beyond lowering the ASP add-on 
percentage is CMMI planning that would be phased-in after the model is 
initially implemented?

    How will CMMI evaluate whether the model considering the statutory 
criteria that a model must improve quality of care without increasing 
spending or reduce spending without reducing quality of care?

    As many beneficiaries who use Part B drugs have cancer, autoimmune 
conditions, and other serious illnesses, how will CMMI monitor to 
ensure that changes to payments are not harming patient access and 
outcomes?

    Answer. Last fall, HHS convened a forum that brought together 
consumers, providers, employers, manufacturers, health insurance 
companies, representatives from state and federal government, and other 
stakeholders to discuss ideas on how our country can meet the dual 
imperatives of encouraging drug development and innovation while 
protecting access and affordability. We came away with feedback to 
address these challenges in a holistic fashion addressing three 
important areas: (1) increasing access to information to support better 
health care decisions, (2) driving innovations that improve and save 
lives, (3) and strengthening incentives in the delivery system to 
reward quality care to patients and encourage value-based and 
outcomes-based decision making.

    Coming out of that forum, we have identified several areas of 
potential opportunity for consideration and collaborative policy 
development. The need for better information about drug prices and 
impacts on patients and providers in making better health care 
decisions was one theme that we heard across multiple panels. To that 
end, in December, we took a first step forward by providing more 
detailed information on Medicare spending on prescription drugs, for 
both Part B (primarily drugs administered in doctors' offices and other 
hospital outpatient settings) and Part D (primarily drugs patients take 
themselves) to better inform decision making. The Medicare Drug 
Spending Dashboard provides important information to the public in an 
accessible format, but, more importantly, it served as a first step to 
provide other information that can enrich the picture.

    We are examining potential ways to support increased access to 
information, drive innovation, and strengthen incentives to improve 
quality care. We continue to look at a number of options in this area. 
Posting of this document was premature.

    Question. CMS is in the process of applying Durable Medical 
Equipment Competitive Bidding program payment amounts established in 
competitive bidding areas to DME fee schedule payment amounts made for 
those items in non-Competitive Bidding areas. CMS calculated those fee 
schedule reductions in 2014 and decided to apply half of the reduction 
starting January 1, 2016, with the second half of the reduction 
occurring on July 1, 2016. CMS has stated that, in part, the six-month 
transition provides the agency time to monitor whether the lower rates 
harm beneficiary access and health outcomes. What specifically will CMS 
monitor and how will the agency determine whether beneficiaries have 
diminished access and/or poorer health outcomes? Also, if CMS 
determines that beneficiaries have been adversely affected, what will 
it do to rectify the situation?

    Answer. CMS has been using a real-time claims analysis to monitor 
health status results in the DME competitive bidding program and other 
Medicare payment systems. The analysis for the DME competitive bidding 
program includes key indicators of the health status of beneficiaries 
and their access to DMEPOS items and services such as deaths, 
hospitalizations, emergency room visits, physician visits, admissions 
to skilled nursing facilities, average number of days spent 
hospitalized in a month, and average number of days in a skilled 
nursing facility in a month. We also monitor beneficiaries who no 
longer have claims for a competitively bid item after the program 
began, beneficiaries who may at some point need the item, and 
beneficiaries who currently have claims for competitively bid items. 
CMS is doing a similar type of analysis and monitoring for the adjusted 
DME fee schedule rates during the 6-month transition period and after 
this transition period. In addition, CMS will be monitoring assignment 
rates of suppliers. Assignment means that the suppliers have agreed to 
accept Medicare allowed rate as full payment for the DME item. If there 
are any issues identified through our monitoring, we will take 
appropriate actions depending on the situation.

    Question. Dr. Wakefield, as Deputy Secretary, your job is going to 
be essentially that of a Chief Operating Officer at a major 
corporation. You will be in charge of all the day to day operations, 
financials and behind the scenes activities to keep the trains running. 
One part of that responsibility will be helping oversee HHS's financial 
viability and stability. I noted in the most recent financial report 
for HHS that the external auditors identified one material weakness 
related to HHS's Financial Information Management Systems, one material 
noncompliance related to Error Rate Measurement and two significant 
deficiencies related to other financial systems. Two of these issues 
have been flagged by the auditors for at least 8 years and the error 
rate measurement issue has also been flagged for several years. The 
auditors note that HHS has taken some actions to correct these 
problems, like forming working groups--but so far, HHS has been unable 
to bring them to an acceptable risk level. So the question is, Dr. 
Wakefield, what are you planning to do differently to make sure these 
issue are resolved?

    Answer. As the Acting Deputy Secretary, I observe the hard work and 
dedication of thousands of employees throughout the Department and 
Operating Divisions who successfully execute our mission. The Agency 
Financial Report (AFR) is one of the most important documents the 
Department produces each year because it demonstrates our 
accountability and stewardship of taxpayers' dollars. For more than a 
decade, HHS has received a clean audit opinion from our external 
auditors.

    HHS's Risk Management and Financial Oversight Board (RMFOB) was 
established to provide executive leadership and oversight for the 
Department's internal control program and resolution of audit findings, 
including the financial management information system material 
weakness. Through the RMFOB, I will be actively monitoring the 
Department's progress towards resolving the issues identified by our 
independent auditors.

    The size and complexity of our information technology (IT) 
environment continues to pose challenges as we address weaknesses 
across systems, organizations, and business processes. The RMFOB 
reviewed and approved the IT Material Weakness (ITMW) Working Group's 
plan to focus on determining the root cause of our vulnerabilities 
underlying the IT material weakness. Previous attempts fell short of 
expectations as they often addressed the symptom of a problem rather 
than its root cause, resulting in similar repeat audit findings over 
the years. While it may take more time to determine the root cause of 
the IT material weakness before implementing corrective actions, we 
believe this approach will be more effective resolving this long-
standing issue. Furthermore, in December 2015, we successfully 
completed the migration of our financial management systems to the 
latest software. This migration is expected to provide improved 
security, as well as faster access to data, and simplified report 
queries for systems users.

    Our independent auditor and the Office of Inspector General have 
commended the Department for this strategic approach and recommended 
that we continue executing the ITMW Working Group's plan under the 
Board's direction and with my continued support. The ITMW Working Group 
provides bi-monthly informational briefings to the RMFOB so that 
progress can be monitored and issues can be escalated to me through 
senior leadership.

    Similarly, the RMFOB reviews the progress of the corrective action 
plans from HHS Operating Divisions contributing to the Department's 
significant deficiencies and escalates issues to me, when applicable. 
The prioritization of specific internal control activities will advance 
our progress toward resolution of the financial reporting significant 
deficiency identified in the auditor's report. Under the strategic 
direction of the RMFOB, our stakeholders have committed to 
strengthening financial management controls.

    Question. Dr. Wakefield, error rate measurement generally has been 
an issue for HHS for several years. Last year the Comptroller General 
for the Government Accountability Office testified before this 
Committee about his concern regarding the unprecedented growth in 
improper payments across government--over a $19 billion dollar increase 
from the previous fiscal year to last. A large portion of that improper 
payment amount is attributed to Medicare and Medicaid. While HHS as a 
whole has marginally decreased the amount of improper payments within 
its programs the last couple of years there is still an unacceptably 
high error rate in each of the programs. What efforts do you plan to 
undertake to help bring that number lower and assist HHS in continuing 
to eradicate improper payments?

    Answer. Improper payments include payments that are made to the 
wrong person, at the wrong time, or for the wrong amount. They are not 
typically fraudulent payments. Although many improper payments are 
overpayments, they can also include underpayments and payments where 
documentation is missing or not available. Regardless of the type of 
improper payment, the Department is committed to strengthening the 
integrity of our programs, and has instituted corrective actions 
designed to prevent and reduce improper payments. While the Department 
is making progress in reducing improper payments in our programs, we 
recognize that we need to employ continuous, focused efforts to address 
this problem.

    As Acting Deputy Secretary, I have focused on Departmental 
management and operations--including strengthening program integrity 
and reducing improper payments. If confirmed as Deputy Secretary, I 
will continue to focus on these areas. In particular, I will ensure we 
utilize tools and resources that will allow us to identify the root 
causes of improper payments. I will then ensure that creative measures 
and best practices are implemented to prevent and reduce improper 
payments and strengthen program integrity at HHS. In addition, we will 
continue to monitor corrective actions and track our progress in 
improving improper payment rates.

    In Medicare, CMS has made significant efforts to lower the improper 
payment rate and continues to address the drivers of the improper 
payment rate, such as home health and skilled nursing facilities. The 
most recent Agency Financial Report shows that the Medicare fee-for-
service improper payment rate decreased from 12.7 percent in 2014 to 
12.1 percent in 2015. In Medicaid, CMS is working with states to 
address new statutory requirements that contributed to increases in the 
Medicaid and CHIP improper payment rates in FY 2015.

    CMS continues to take corrective actions to further address 
improper payments in Medicare fee-for-service, especially for the 
drivers of the improper payment rate. For example, home health is a key 
driver of the Medicare fee-for-service improper payment rate, and in 
2015, CMS started Medicare Administrative Contractor ``probe and 
educate'' reviews of 5-10 home health claims for every home health 
agency for episodes beginning after August 1, 2015. CMS has also 
extended the temporary Medicare enrollment moratorium on new home 
health agencies in certain counties. In addition, CMS is continuing to 
more robustly use prior authorization models to make sure that, before 
services are rendered and claims are paid, the services meet applicable 
Medicare coverage, coding, and payment rules.

    In order to help reduce the national Medicaid and CHIP improper 
payment rates, states are required to develop and submit corrective 
action plans to CMS after each measurement cycle has been completed. 
CMS works with the states to develop and implement such corrective 
actions. CMS is also planning to facilitate states' provider enrollment 
as part of upgrades to the Provider Enrollment, Chain, and Ownership 
System. CMS will continue to provide guidance to states on 
implementation of new Affordable Care Act requirements, such as 
fingerprint-based background checks required upon enrollment for 
providers identified as high risk.

                                 ______
                                 
               Questions Submitted by Hon. Chuck Grassley
    Question. Do you have a time frame for the proposed 340B guidance 
to become final? Will this be finalized all at once?

    Answer. HRSA is now analyzing the over 1,200 comments received to 
determine next steps and to aid the effort to develop the final 340B 
Omnibus Guidance. At this time, we do not have a timeline for 
completion, but will notify you upon publication of any final guidance.

    Question. Are there policy changes in the proposed guidance that 
the agency is enforcing now?

    Answer. HHS places the highest priority on the integrity of the 
340B Program and continues to enforce the statute and current program 
policies to the greatest extent possible. As a draft guidance, HRSA is 
not enforcing the proposed policy changes in the Omnibus Guidance.

    Question. If you become Deputy Secretary of HHS, what steps will 
you take to address concerns in the 340B program?

    Answer. HRSA places the highest priority on the integrity of the 
340B Program and has worked to strengthen oversight of this Program 
over the last five years. These efforts have included ensuring that 
both 340B covered entities and manufacturers are in compliance with 
Program requirements. During my time at HRSA, we made progress on 
implementing several of the recommendations made by the GAO in its 2011 
study.\1\ As a matter of practice, we use GAO reports to improve 
processes and we always want to utilize what we learn from them to 
strengthen our programs and operations. After carefully reviewing the 
feedback received, we appropriately found effective ways to address 
issues that were within our statutory authority. We also continue to 
welcome feedback from our stakeholder community, Members of Congress, 
the GAO and the HHS Office of the Inspector General.
---------------------------------------------------------------------------
    \1\ Drug Pricing: Manufacturer Discounts in the 340B Program Shows 
Benefits, but Federal Oversight Needs Improvements.

    In addition, the FY 2017 President's Budget proposes a general 
provision to provide comprehensive regulatory authority for the 340B 
Program. General rulemaking authority would allow HHS to provide more 
specific program requirements for the 340B Program that would aid 
entities and manufacturers in their compliance efforts and facilitate 
HRSA's program oversight. Program participants, as well as GAO and OIG 
reports, have pointed out that in some cases ambiguity about 
---------------------------------------------------------------------------
requirements presents challenges to program implementation.

    Comprehensive rulemaking authority would also provide HRSA the 
opportunity to establish program requirements across all the various 
interdependent aspects of the program.

    Moving forward, I will continue to work with HRSA to employ the 
many effective tools within our authority to maximize our program 
oversight. In the short term, this includes issuing regulations in the 
three areas of the 340B statute where HRSA has explicit regulatory 
authority: (1) calculation of 340B ceiling prices, (2) imposition of 
manufacturer civil monetary penalties, and (3) implementation of an 
administrative dispute resolution process; and finalizing our 340B 
guidance.

    Question. Some people favor telemedicine to solve some of the 
problems of rural healthcare. I agree, that is part of the solution. 
However, sometimes you need a hospital.

    Dr. Wakefield, how would you use your new position to help keep 
these rural hospitals open and allow them to take care of patients 
close to home?

    Answer. I have spent a good deal of my career--both inside and 
outside of HHS--working on rural health issues. Telemedicine can be an 
important tool for improving access and enhancing health care outcomes, 
but it is primarily an important tool and strategy to support rural 
health care delivery and not a replacement for having a hospital or a 
clinic and clinicians on site. We are seeing an increase in the rate of 
rural hospital closures nationally. From 2010 through February 11, 
2016, 68 rural hospitals closed or suspended operations. Our analysis 
shows there is no single factor at work here. In some cases, we've seen 
areas lose population and therefore some communities no longer have the 
population base needed to support a full-
service hospital. In other cases, there have been market pressure and 
consolidation that have played a factor in the closure of some rural 
hospitals.

    Through HHS's Federal Office of Rural Health Policy, we're working 
with Critical Access Hospitals (CAHs) to shore up their financial 
operations and focus on quality through the Medicare Rural Hospital 
Flexibility Grant (Flex) program, which provides $25 million in grants 
for these activities. Every CAH gets a customized financial and quality 
report it can use to identify areas of improvement and to engage in 
benchmarking activities with other CAHs and small rural hospitals and 
the Flex funds provide support for hospital-specific interventions. We 
are also planning to award 24 Network Planning grants totaling $2.4 
million in FY 2016 and we put a particular emphasis in the grant 
guidance to focus on communities that were either at risk of or have 
seen a hospital closure. FORHP will award approximately 21 Small Health 
Care Provider Quality Improvement grants in FY 2016 totaling $4.2 
million, providing additional resources for small rural hospitals and 
clinics to focus on quality. Our goal is that by emphasizing value and 
improved quality, rural hospitals can reduce the rate of patients 
leaving their community for care and retain those health care dollars, 
thereby strengthening the local health care system. Furthermore, 
telehealth can play a role in that and we have a national network of 
telehealth resource centers to help rural communities best leverage 
that technology. We've also expanded eligibility for the National 
Health Service Corps to CAHs to help these hospitals address the 
ongoing need for doctors, nurse practitioners and mental health 
providers.

    Additionally, we are supporting innovative new models of 
reimbursement and care delivery reforms that include a rural focus 
through the work of the CMS Innovation Center. Maryland, Oregon, 
Minnesota, Idaho, Washington and Vermont all have used their State 
Innovation Model grants to develop creative ways to address rural 
health challenges. Our hope is that helping rural communities take 
advantage of the broad range of programs and resources across HHS, we 
can assist these communities address some of the key challenges faced 
by rural hospitals.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. Who is the Internet service provider for each service 
unit in South Dakota servicing Indian Health Service (IHS) hospitals 
and service units?

    Answer. The IHS operates a nationwide Internet Protocol (IP) 
network for connectivity between IHS sites and data centers in 
Rockville MD and Albuquerque NM. Each data center has a 1 Gigabit 
Internet connection provided by Verizon. The Internet connections 
through the data centers are available to all IHS sites connected to 
the network.

    Question. What is the Internet bandwidth for these facilities?

    Answer. IHS sites have access to the Internet through the Internet 
connections hosted at data centers in Rockville, MD and Albuquerque, 
NM. The Internet network bandwidth at each data center is 1 Gigabit.

    Question. What kind of connection is used at these facilities? 
(examples: cable modem, fiber, DSL)

    Answer. IHS sites in South Dakota connect to the IHS network using 
T1, DS3 and Ethernet circuits. The network speeds for each site are 
shown in the table below.

    Question. What is GPA IHS connectivity to the IHS network at these 
facilities, and what are the speeds?

 The Table Below Shows the Network Connectivity to IHS Sites in South 
                                Dakota.

        Table 1.--Bandwidth Speeds to IHS Sites in South Dakota.
------------------------------------------------------------------------
                                         Network Bandwidth to the IHS
       South Dakota IHS Sites                      Network
------------------------------------------------------------------------
Lower Brule                          1.5 Mbits
------------------------------------------------------------------------
Flandreau                            50 Mbits
------------------------------------------------------------------------
Martin                               3.0 Mbits
------------------------------------------------------------------------
Mobridge                             3.0 Mbits
------------------------------------------------------------------------
Pierre                               3.0 Mbits
------------------------------------------------------------------------
Wagner                               6.0 Mbits
------------------------------------------------------------------------
Eagle Butte                          45.0 Mbits
------------------------------------------------------------------------
Aberdeen Area Office                 45.0 Mbits
------------------------------------------------------------------------
Fort Thomson                         45.0 Mbits
------------------------------------------------------------------------
Pine Ridge                           45.0 Mbits
------------------------------------------------------------------------
Rosebud                              45.0 Mbits
------------------------------------------------------------------------
Sioux Falls IT Office                45.0 Mbits
------------------------------------------------------------------------
Sisseton                             45.0 Mbits
------------------------------------------------------------------------
Pierre (Urban Indian Heath)          45.0 Mbits
------------------------------------------------------------------------
Sioux Falls (Urban Indian Heath)     50.0 Mbits
------------------------------------------------------------------------


    Question. Please provide a list of contracts for these facilities 
local phone companies.

    Answer. IHS federally managed sites are deploying a Cisco based 
VoIP system managed by the Great Plains Area office IT staff. The GSA 
Networx contract is used to provide Long Distance telephone services.

    Question. What telehealth capabilities, if any, do these service 
units in South Dakota currently have and what resources would the IHS 
need to provide telehealth services at these units if they are 
currently unable to do so?

    Answer. Currently the IHS does do some telehealth ``office visit'' 
care. This is done through our current video bridge and mobile cart 
video end points at all of our sites. Sometimes the site bandwidth 
causes poor quality of transmission, but this is not the case at all of 
the sites. A number of the service units have video conferencing 
systems which can be used to provide telehealth service. However, not 
all sites have adequate network bandwidth to simultaneously support 
access to both traditional IT applications required for daily 
operations and telehealth services provided through video conferencing. 
Video traffic places a high demand on the network bandwidth, which is 
not adequate at some South Dakota sites.

    Most of the care delivered is tele-behavioral health and occurs 
throughout the agency, not just in South Dakota. The IHS video bridge, 
located in Sioux Falls, SD, is the agency's backbone for video 
conferencing. Overall, the IHS conducts approximately 30 telemedicine 
calls a month at 384Kbps/call to 512Kbps/call. The IHS also utilizes 
the video bridge for a number of administrative calls throughout the 
agency. When telemedicine use is expanded, the IHS will need to utilize 
additional staffing and resources to ensure the quality of service for 
telemedicine.

    Question. Does IHS have the infrastructure to provide telehealth 
service?

Barriers and Constraints

    Answer. Network bandwidth is a key requirement to successfully 
provide telehealth services. Many IHS sites are experiencing challenges 
to fund the cost of bandwidth upgrades in order to provide telehealth 
services. Approximately 75% of the IHS sites are located in areas 
defined as ``rural'' by the Federal Communications Commission (FCC). 
(The FCC's definition for a rural area is based on census data and 
population density.) IHS rural sites pay a higher percentage of their 
operating budget (versus urban locations) on monthly circuit costs 
(e.g., the cost of the circuit at the Great Plains Area data center in 
Sioux Falls is $2,430 per month versus a cost of $7,616 per month at 
Rapid City or $6,021 per month at Rosebud). IHS rural sites are 
frequently asked to fund the capital (construction) costs required for 
bandwidth upgrades. In some cases, telecommunication providers are not 
able to offer any upgrade options at IHS locations.

    At IHS rural sites, circuit outages and restoration times are above 
industry averages, due to outdated equipment and small regional 
telecommunication providers covering large geographically areas with 
long travel times between repair zones.

Mission Impact

    Bandwidth constraints negatively impact the ability for IHS to 
offer telehealth services at some locations. Network circuits are 
frequently congested at hospitals and clinics, especially during busy 
periods of the day. Staff receive slow responses when accessing 
applications to enter and retrieve information, negatively impacting 
patient interaction, productivity and staff hiring and retention. 
Cyber-security risks increase as unsecure, personally provided network 
connections are sometimes used to supplement securely managed 
connections. The adoption of next generation healthcare delivery 
options and the use of Tele-Education for distance learning and 
collaboration with healthcare specialists at universities and other 
providers is constrained by low network speeds.

    Question. Does IHS staff have adequate training to provide 
telehealth service?

    Answer. The IHS currently delivers high quality telehealth care. 
With the expansion of services and capabilities, the IHS would benefit 
from additional training for staff supporting the IT infrastructure and 
for the clinical staff delivering care.

    Question. What type of IT security measures has IHS taken?

    Answer. The Indian Health Service (IHS) uses secure information 
technology (IT) to improve health care quality, enhance access to 
specialty care, reduce medical errors, and modernize administrative 
functions consistent with the Department of Health and Human Services 
(HHS) enterprise initiatives. The mission of the IHS Information 
Security Program is to provide an Agency-wide secure and trusted 
information technology environment in support of IHS' commitment, in 
partnership with American Indian and Alaska Native people, to raising 
their physical, mental, social, and spiritual health to the highest 
level.

    The IHS incorporates guidance from the National Institute of 
Standards and Technology (NIST), Office of the National Coordinator 
(ONC) and industry best practices to conform to the Federal Information 
Security Management Act (FISMA) and other applicable regulations. IHS 
strives to provide the highest security posture without negatively 
impacting the sovereignty of the 567 tribal nations served. IHS is 
responsible for maintaining an information security program that 
provides protection for information collected or maintained by or on 
behalf of the Agency; and information systems used or operated by the 
Agency or by a contractor of the Agency or other organization on behalf 
of the Agency.

                                 ______
                                 
                Questions Submitted by Hon. Dean Heller
    Question. In August 2015, the Nevada CO-OP announced it will cease 
operations in 2016 due to solvency issues. Over 20,000 Nevadans were 
left without the health plan, provider network, coverage and cost they 
had signed up for.

    As these enrollees were required to select another plan for 2016, 
with limited options in the Nevada Exchange many of these Nevadans 
selected Prominence Health.

    I received a notification from Carson Medical Group in Carson City, 
Nevada that notifies their patients that because Prominence Health Plan 
unilaterally cut reimbursement by 33 percent that they are opting out 
of the Prominence Exchange plans entirely, starting January 31, 2015. 
Carson Medical received this notification after open-enrollment 
started, and their patients were given an urgent message over the 
holidays just a few weeks before the open-enrollment period ends.

    This is just one story of hundreds that I have heard throughout my 
home state of Nevada. If you like your health plan, you probably aren't 
going to be able to keep it. If you like your doctor, you probably 
aren't going to be in network or your doctor probably won't be taking 
your insurance any longer due to reimbursement issues. The CO-OP 
enrollees in Nevada have seen broken promise after broken promise.

    As you know, the CO-OP in Nevada gave its bankruptcy notice in 
August 2015. CMS indicated they would fill the gap in funding through 
the end of the plan year, and CO-OP enrollees would be required to 
choose another plan for 2016. I would reference a story from my 
constituent in Las Vegas who has been receiving claims from health 
providers indicating that the federal government has not released funds 
to the CO-OP plan since August 2015. This has caused tremendous anxiety 
for Nevadans on a fixed income, having lost their health insurance and 
unsure if they are going to be responsible to pay these claims, or if 
the federal government will pay the claim on behalf of the now failed 
CO-OP. Will the administration release funds for medical claims from 
August 2015-December 2015? How are you communicating with CO-OP 
beneficiaries to offer clear direction as to what claims they are 
responsible for, and which claims will be paid by the government on 
behalf of the CO-OP?

    Answer. Nevada Health CO-OP received a CO-OP loan for $65,925,396, 
of which only $25,000 remained undisbursed as of the end of the 2015. 
HHS has worked with the Nevada Department of Insurance (DOI) to manage 
the CO-OP's use of its Loan Funds to ensure that Nevada Health CO-OP's 
priority is to continue with an orderly wind-down. While the state of 
Nevada does not have a guarantee fund to help cover the claims of any 
issuer that goes out of business during the year, state law prevents 
providers from refusing services, or back billing for services already 
provided.

    Question. Are you aware of situations, like we have in Nevada, 
where a number of consumers were enrolled in a CO-OP, the CO-OP went 
bankrupt, they had to choose another plan, only to find out that their 
doctor will not accept that plan?

    Answer. Consistent with guidance issued by CMS in 2014,\2\ health 
insurance issuers, including CO-OPs, are required to send a standard 
notice to consumers when a plan discontinues. The notice informs 
consumers that they have until December 31 to enroll in a new plan for 
January 1 coverage and until the end of February to select a new plan 
through a special enrollment period. Like other plans discontinuing 
coverage in 2016, CO-OPs sent notices to all affected enrollees 
informing them that their plan would not be offered in 2016, and that 
they must return to the Marketplace during Open Enrollment to choose a 
new plan.
---------------------------------------------------------------------------
    \2\ https://www.cms.gov/cciio/resources/regulations-and-guidance/
downloads/renewal-notices-9-3-14-final.pdf.

    All consumers shopping for 2016 coverage on HealthCare.gov, 
including those affected by a closing CO-OP, were able to use new 
consumer shopping tools during Open Enrollment. The new Doctor and 
Facility Lookup feature and the Prescription Drug Lookup feature 
provide consumers with easily searchable information about a plan's 
network of doctors and covered prescription drugs as consumers shop and 
enroll in coverage. HealthCare.gov also featured the new Out-of-Pocket 
Cost Comparison Tool. The feature provides consumers with an estimate 
of what their premiums, deductibles, and co-pays may be, based on their 
own anticipated health care service utilization, for each specific 
plan. Understanding total out of pocket costs for any given coverage 
---------------------------------------------------------------------------
option is essential for consumers to select the most appropriate plan.

    Question. In the case of Carson Medical Group, they were notified 
of a huge cut in reimbursement after the open-enrollment period 
started. How and when is CMS communicating rate notices to providers so 
they can help their patients make educated decisions on which plans 
meet their financial and medical needs during the open-enrollment 
period?

    Answer. Like all private health insurance plans, Marketplace plans 
negotiate the rates they pay to providers with those providers. Because 
CMS does not participate in these private rate negotiations, we cannot 
notify providers of any changes resulting from them.

    CMS did develop a number of new features for 2016 Open Enrollment 
on HealthCare.gov to better assist consumers in finding Marketplace 
plans that meet their needs. The new Out of Pocket Cost calculator, 
Doctor and Facility Lookup, and Prescription Drug Lookup features 
helped consumers to more easily search for the plan that best met their 
budget and health needs.

    The Out of Pocket Cost calculator helps consumers better estimate 
the cost of their health care based on their own personal situation. 
The feature provides consumers with an estimate of what their premiums, 
deductibles, and co-pays may be, based on their own anticipated health 
care service utilization, for each specific plan. Understanding total 
out of pocket costs for any given coverage option is essential for 
consumers to select the most appropriate plan. Consumers can get this 
information before they select a plan.

    Additionally, this year is the first time insurers are required to 
provide an up-to-date, accurate, and complete provider directory, 
including information regarding which providers are accepting new 
patients, the provider's location, contact information, specialty, 
medical group, and any institutional affiliations, in a manner that is 
easily accessible to plan enrollees and prospective enrollees. Plans 
must also provide access to information on what medications are covered 
in the health plan formulary. HealthCare.gov has access to data from 
over 90 percent of insurance companies on the Marketplace. The new 
Doctor and Facility Lookup feature and the Prescription Drug Lookup 
feature provide consumers with easily searchable information about a 
plan's network of doctors and covered prescription drugs as consumers 
shop and enroll in coverage. If an insurance company has not provided 
validated data, consumers will be alerted when they search for a 
provider that there is ``no data from insurance company.'' Plans must 
update these lists at least monthly and CMS updates the HealthCare.gov 
search features on a daily basis, based on the latest data available 
from plans. However, health plans can change which doctors and 
facilities are in their networks on a continual basis, and providers 
can change locations and affiliations. For these reasons, we have 
encouraged consumers to also check with their doctor or plan to confirm 
that their doctor accepts that plan.

    Question. I also recently received an e-mail from a constituent in 
Carson City. She informed me that she has lost her doctor, OBGYN, lab 
and clinic of 38 years as a result of Carson Medical Group no longer 
accepting the Obamacare Exchange plans. She receives a subsidy, but 
still pays over $900 month. She still does not have a doctor, and only 
three family physicians are in the area and none of them are taking new 
patients. How are consumers made aware of their network adequacy on 
Exchange plans, so they can make educated decisions while choosing a 
health plan?

    Answer. Under 45 CFR 156.230(b), a qualified health plan (QHP) 
issuer must publish an up-to-date, accurate, and complete provider 
directory, including information on which providers are accepting new 
patients, the provider's location, contact information, specialty, 
medical group, and any institutional affiliations, in a manner that is 
easily accessible to plan enrollees, prospective enrollees, the State, 
the FFMs, CMS, and the Office of Personnel Management. As noted above, 
CMS will consider a provider directory to be up-to-date if the issuer 
updates it at least monthly. However, health plans can change which 
doctors and facilities are in their networks on a continual basis, and 
providers can change locations and affiliations. For these reasons, we 
have encouraged consumers to check with their doctor or plan to confirm 
that their doctor accepts that plan.

    In addition to making provider directories available, pursuant to 
45 CFR 156.230(a)(2), an issuer of a QHP that uses a provider network 
must ``maintain a network that is sufficient in number and types of 
providers, including providers that specialize in mental health and 
substance use disorder services, to assure that all services will be 
accessible to enrollees without unreasonable delay.'' All issuers 
applying for QHP certification attest that they meet this standard as 
part of the certification process.

    Issuers must continue to meet network adequacy standards throughout 
the year (not just at time of certification) and may need to adjust 
networks, if necessary, for example through the addition of providers 
to the extent the plan modifies its contracts with one or more 
providers. CMS monitors network adequacy throughout the year and will 
coordinate with state Departments of Insurance which, in most cases, 
hold primary enforcement jurisdiction over network adequacy rules, 
should it be necessary to remedy potential deficiencies.

    Question. How much money has been spent with extra communication to 
CO-OP enrollees, notifying them of their plan cancellations?

    Answer. Consistent with guidance issued by CMS in 2014,\3\ health 
insurance issuers, including CO-OPs, are required to send a standard 
notice to consumers when a plan discontinues. The notice informs 
consumers that they have until December 31 to enroll in a new plan for 
January 1 coverage and until the end of February to select a new plan 
through a special enrollment period. Like other plans discontinuing 
coverage in 2016, CO-OPs sent notices to all affected enrollees 
informing them that their plan would not be offered in 2016, and that 
they must return to the Marketplace during Open Enrollment to choose a 
new plan.
---------------------------------------------------------------------------
    \3\ https://www.cms.gov/cciio/resources/regulations-and-guidance/
downloads/renewal-notices-9-3-14-final.pdf.

    Question. How much money was spent in 2015 to bail out CO-OPs for 
---------------------------------------------------------------------------
the remainder of the 2015 plan year, once a CO-OP had gone bankrupt?

    Answer. CMS did not award any new funding to any CO-OP that 
announced plans to wind down by the end of 2015. In some cases, if a 
closing CO-OP had undisbursed loan funding available, CMS did disburse 
the remaining funds to protect consumers by helping to cover 
outstanding provider claims.

                                 ______
                                 
 Questions Submitted by Hon. Rob Portman and Hon. Robert P. Casey, Jr.
    Question. CMS's payment delay in the 2016 Medicare fee schedule for 
certain durable medical equipment guarantees that providers will incur 
higher billing costs and considerably longer payment time frames. Are 
you concerned that this delay will lead to beneficiary access issues 
due to the strain placed on providers as a result of CMS's recent 
actions which the law was supposed to prevent?

    Answer. I understand and appreciate your concerns about 
implementation of this statutory provision. I can assure you that CMS 
is implementing the Patient Access and Medicare Protection Act such 
that beneficiaries have access to wheelchair accessories and seat and 
back cushions when furnished with Group 3 complex rehabilitative power 
wheelchairs. Although the effective date of the legislation is January 
1, 2016, unfortunately, changes to the Medicare claims processing 
systems cannot be implemented any sooner than July 1, 2016. The changes 
required under the Patient Access and Medicare Protection Act involve 
system logic in over 30 different claims processing system modules to 
distinguish between the accessory code and the type of wheelchair being 
billed as these accessories can be used with various types of 
wheelchairs. To ensure beneficiary access to these accessories 
particularly for these vulnerable populations, advance payment may be 
available for suppliers meeting the conditions described in CMS 
regulations. We are monitoring beneficiary access closely during this 
period and intend to take any actions necessary to address specific 
cases.

    Question. Medicaid and private insurers (many of which index off 
Medicare) are already beginning to look at adopting the reduced rates 
and will not wait until July or retroactively restore payments 
thereafter once Medicare implements the correct rates. Has HHS 
considered how this delay in payment will impact the other providers, 
such as Medicaid and private insurers, who base their reimbursement 
rates on Medicare reimbursement?

    Answer. Beginning January 1, 2016, the DME fee schedule rates were 
adjusted to reflect information from the DMEPOS competitive bidding 
program as required by section 1834(a)(1)(F)(ii) of the Social Security 
Act. These adjustments are being phased in during the initial 6 months 
of 2016 so that the fee schedule amounts in all areas will be based on 
a 50/50 blend of current rates and adjusted rates. The Patient Access 
and Medicare Protection Act requires that adjustments to the 2016 
Medicare fee schedule amounts for certain durable medical equipment 
based on information from competitive bidding programs not be applied 
to wheelchair accessories (including seating systems) and seat and back 
cushions furnished in connection with Group 3 complex rehabilitative 
power wheelchairs. Although the effective date of the legislation is 
January 1, 2016, unfortunately, changes to the Medicare claims 
processing systems cannot be implemented any sooner than July 1, 2016. 
Information about the payment for these items is available on the CMS 
website and in CMS regulations for stakeholders to review.

    Question. Please provide us with an itemized list of every time 
Congress mandated a payment change in the Medicare program, how long 
before implementation was the bill signed into law and how long it took 
CMS to implement the change.

    Answer. CMS implements statutory changes as efficiently and timely 
as possible. As you are aware, Congress has mandated a significant 
number of payment changes since the inception of the Medicare program. 
Unfortunately, we do not have this information at hand. The 
circumstances of each statutorily required payment changes vary based 
on the timing of passage and enactment and the complexity of the 
provision. In order to implement any provision, we have to carefully 
consider all aspects of implementation, including the complexity of the 
provision, whether rulemaking is required, and the types of system 
changes and testing necessary. We have to balance completing 
implementation as expeditiously as possible while ensuring enough time 
to adequately test and prepare the systems for changes. The changes 
required under the Patient Access and Medicare Protection Act involve 
system logic in over 30 different claims processing system modules to 
distinguish between the accessory code and the type of wheelchair being 
billed as these accessories can be used with various types of 
wheelchairs.

    Question. Please provide an itemized list of every time CMS sped up 
the implementation of a payment change. Please include information on 
whether this was a recurring or non-recurring change, if it was 
Congressionally mandated or part of a fee schedule, information on why 
CMS felt this change was worth implementing sooner than the typical 
schedule would allow, when the change was made compared to when it was 
supposed to be made and the steps that had to be taken to get the 
change implemented earlier.

    Answer. CMS implements statutory changes as efficiently and timely 
as possible. As you are aware, Congress has mandated a significant 
number of payment changes since the inception of the Medicare program. 
Unfortunately, we do not have this information at hand. However, an 
example of payment changes that were implemented on a quick time frame 
are the ones that provided relief on the reductions from the 
sustainable growth rate. These payment changes were to a fee schedule 
and were recurring, which means they were system changes that were 
updated on a routine basis. The changes required by Patient Access and 
Medicare Protection Act are new and non-recurring. They involve system 
logic in over 30 different claims processing system modules to 
distinguish between the accessory code and the type of wheelchair being 
billed as these accessories can be used with various types of 
wheelchairs. The changes to the sustainable growth rate fee schedule 
did not have this type of complexity. To ensure beneficiary access to 
these accessories particularly for these vulnerable populations, 
advance payment may be available for suppliers meeting the conditions 
described in CMS regulations. We are monitoring beneficiary access 
closely during this period and intend to take any actions necessary to 
address specific cases.

                                 ______
                                 
                  Question Submitted by Hon. Ron Wyden
                          contractor oversight
    Question. The Affordable Care Act (ACA) provided funding to help 
states establish their state-based Marketplaces. There were four 
different grants programs: Planning Grants (up to $1 million each); 
Level One Establishment Grants (up to one year of funding); Level Two 
Establishment Grants (up to three years of funding); and Early 
Innovator Grants (two-year grants for Information Technology (IT) 
infrastructure development). In total, $4.987 billion was spent.\4\
---------------------------------------------------------------------------
    \4\ http://kff.org/health-reform/state-indicator/total-exchange-
grants/.

    A number of states that received money struggled to enroll 
consumers during the first open enrollment periods. Some ultimately had 
to rely on the Federally-
Facilitated Marketplace (www.healthcare.gov) or have started using 
technology from other states. The federal money that went to these 
---------------------------------------------------------------------------
states for exchange implementation total roughly $1.126 billion.

    We are all well aware of the failures of several contractors to 
successfully build up both the federal and state Exchanges in year one. 
I'm glad that most of those mistakes have been rectified and that this 
year enrollment numbers are high. I believe that every effort should be 
made to recoup money from those who didn't deliver first. Those are the 
contractors.

    As Deputy Secretary you will oversee all operations including the 
disbursement of funds to outside contractors. How will you make sure 
that taxpayer funds are not being wasted and that contractors are held 
accountable for failing to deliver results?

    Answer. Your question mentions grant funds provided to states 
through the Affordable Care Act. The Department takes seriously its 
responsibility to taxpayers and consumers. The Centers for Medicare and 
Medicaid Services (CMS) is committed to strong ongoing oversight of the 
SBMs that protects taxpayer funds. CMS uses established oversight 
mechanisms to monitor the use of section 1311 grants by the SBMs. This 
federal oversight follows the requirements of applicable guidance and 
law, including Office of Management and Budget circulars and Department 
of Health and Humans Services (HHS) grant regulations: CMS continues to 
oversee and monitor each SBM's performance through reporting 
requirements that demonstrate a SBM's adherence to program 
requirements.

    The recoupment of funds from SBM contractors is an area where the 
federal government has a specific interest. For example, Maryland 
recently announced a settlement with one of its vendors, Noridian. 
Noridian has agreed to pay back $45 million that it had received from 
the SBM, of which CMS will receive approximately $32 million. CMS is 
working with the Maryland SBM so that funds are returned to the federal 
government. If another SBM reaches a similar settlement with their 
vendor, CMS will ensure that the federal government will recover its 
fair portion.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. Washington state has been an early adopter and a national 
leader in implementing health reform, yet it must still do more to 
control costs and make coverage more affordable for its low and middle-
income individuals.

    I worked to include the Federal Basic Health Plan in the Affordable 
Care Act, which was based on Washington state's successful Basic Health 
program. This option enables states to better utilize federal dollars 
to negotiate directly with health insurers. It will help states provide 
more stable coverage to individuals making between 133 and 200 percent 
of the Federal poverty level.

    Will you commit to working with my state and other states to 
implement the Basic Health Plan Option?

    Answer. I agree that the Basic Health Program (BHP) can provide 
flexibility and stability to both states and their consumers, and HHS 
is committed to working with states to implement the basic health plan 
option.

    On March 12, 2014, CMS released the final rule for the BHP. CMS 
established standards for state and federal administration of the 
program, including provisions regarding eligibility and enrollment, 
benefits, cost-sharing requirements, and oversight activities. Where 
possible, CMS aligned BHP rules with existing rules governing coverage 
through the Marketplace, Medicaid, or CHIP to simplify administration 
for states and to promote coordination between the BHP and other health 
insurance programs. The final rule also specifies that CMS will 
annually publish a proposed and final BHP Payment Notice.

    On October 21, 2015, CMS issued a proposed BHP payment notice 
providing the methodology and data sources to determine federal payment 
amounts made in program years 2017 and 2018 to states that elect to use 
the BHP to offer health benefits to low-income individuals otherwise 
eligible to purchase coverage through the Marketplace. CMS plans to 
issue a final notice by February 2016, as announced in the BHP 
regulations. The February timeframe gives states time to make necessary 
program adjustments to participate or to begin implementation.

    Question. For years, providers in Washington state have been 
delivering care that is both cheaper and higher in quality than is in 
other parts of the country. Yet Washington state providers are actually 
penalized for keeping patients healthy and reducing costs: in 2010, 
annual Washington state Medicare reimbursements per enrollee were about 
$1,800 less than the national average.

    As the Administration implements the SGR bill we passed last year--
particularly the alternative payment models--how will HHS incentivize 
health care providers in low fee-for-service states like mine?

    Answer. The Administration is committed to achieving better care, 
smarter spending, and healthier people throughout the country, in 
lower- and higher-spending areas alike. As we develop the policies 
through rulemaking for the provisions in the Medicare Access and CHIP 
Reauthorization Act of 2015 (MACRA), health care professionals will be 
encouraged to provide high quality care and receive positive incentive 
payments based either on their participation in the Merit-based 
Incentive Payment System or through their participation in certain 
alternative payment models. These provisions are structured to reward 
professionals through incentive payments for performing well on quality 
measures and providing care more efficiently at a lower cost.

    In addition, we recently released a proposed rule to update the 
methodology used to measure the performance of Accountable Care 
Organizations (ACOs) in the Medicare Shared Savings Program. The 
proposed changes are focused on incorporating regional fee-for-service 
expenditures into the methodology for establishing, adjusting, and 
updating an ACO's historical benchmark used for determining ACO 
performance for its second or subsequent agreement period. Through 
these proposed changes to the methodology for determining the ACO's 
rebased historical benchmark, CMS is seeking to reflect an ACO's 
performance against providers in the same market, rather than just 
evaluating the ACO against its own past performance. We believe this 
proposal will improve the program's incentives for ACOs by recognizing 
an ACO's efficiency relative to its region and limiting the link 
between an ACO's performance and its future benchmarks.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. Ms. Wakefield, as you stated in your testimony before the 
committee, much of your experience involves issues related to rural 
health care. While we can all agree the need to ensure people in rural 
areas have access to care, we cannot forget the serious access issues 
facing the 80 percent of Americans who live in urban and inner-city 
areas.

    My state of New Jersey is the most densely populated state in the 
nation. According to the 2010 Census, New Jersey has a population of 9 
million people and a population density of 1,218 people per square 
mile.

    At the beginning of February, I participated in the ribbon cutting 
at a new 
federally-qualified health center in Newark, which is located in Essex 
County and home to 800,000 residents, more than your entire home state 
of North Dakota. This health center, which is only open part-time 
pending additional funding, is the only health care access point in the 
community. Prior to this center opening, access to care--especially the 
bilingual care many of this community's residents require--often 
involved a prohibitively long bus or train ride and was simply out of 
reach for most.

    I mention these data not as a judgment against rural areas, but to 
highlight the existing issues facing city-dwellers when it comes to 
accessing needed health care services. Despite this need, however, our 
health programs, like Medicare, include many provisions exclusively 
aimed at rural areas. In fact, many of these provisions expressly 
prohibit the participation of urban providers or any provider in states 
like New Jersey which are considered to be ``all urban.'' No similar 
urban-only programs exist. Additionally, it was recently announced that 
Acting CMS Administrator Andy Slavitt is creating a so-called ``rural 
health council'' to further focus on these issues. I agree that 
ensuring access to quality affordable health care across this nation 
should be our ultimate goal, however I fear that while special 
attention is being paid to rural areas, urban and inner-city areas are 
being left in the lurch.

    What concrete steps will you commit to me to take to ensure equal 
time and effort is put into addressing the health care needs of urban 
and inner-city communities as it is for rural areas?

    Answer. The Administration is committed to achieving better care, 
smarter spending, and healthier people in rural and urban areas alike. 
The Center for Medicare and Medicaid Innovation (CMMI) is testing 
several models in urban communities that aim to improve the quality of 
care and reduce costs. The Comprehensive Primary Care initiative, which 
is testing health care delivery improvements to Medicare and Medicaid 
beneficiaries in the primary care setting, operates throughout the 
state of New Jersey and in other urban areas. The Comprehensive Care 
for Joint Replacement Model, set to begin on April 1st, will hold 
hospitals in 67 Metropolitan Statistical Areas around the country 
accountable for the quality of care they deliver to Medicare fee-for-
service beneficiaries for hip and knee replacements and/or other major 
leg procedures from surgery through recovery. Several participants in 
our new accountable care organization (ACO) model, the Next Generation 
ACO Model, will be serving urban populations. Under this new model, 
participants are ACOs that are experienced in coordinating care for 
populations of patients and whose provider groups are ready to assume 
higher levels of financial risk and reward. Through these and other 
models testing innovative payment and service delivery approaches, we 
are seeking to support high quality care in urban areas.

    Additionally, during the recent open enrollment for the Health 
Insurance Marketplace, the Department put a strong effort into reaching 
out to consumers in urban areas. We opened dozens of storefront 
enrollment centers throughout the country, including three in densely 
populated Northern New Jersey. Additionally, the White House launched 
the ``Healthy Communities Challenge,\5\'' to engage key communities 
with large numbers or high percentages of uninsured in states across 
the country where strong federal, state and community collaboration can 
have a meaningful impact on reaching the uninsured. Through this 
challenge, we are calling on community leadership to build outreach 
efforts to reach these remaining uninsured and help them gain coverage.
---------------------------------------------------------------------------
    \5\ https://www.whitehouse.gov/the-press-office/2015/11/06/fact-
sheet-healthy-communities-challenge-new-orleans.

    HHS investments in urban and inner-city communities are 
demonstrable, just as they are in rural areas. One example is community 
health centers. Health centers deliver comprehensive, high-quality, 
cost-effective primary health care to nearly 23 million patients living 
in urban and rural communities nationwide. Health Center Program 
statutory requirements in awarding funding include consideration of the 
rural and urban distribution of awards: no more than 60 percent and no 
fewer than 40 percent of funding may be awarded to either rural or 
urban health centers. In Fiscal Year 2015, the Health Resources and 
Services Administration (HRSA) awarded 59 percent of operational grant 
funding ($2.5 billion) to health centers located in urban areas. HRSA 
will continue to adhere to this statutory requirement for all current 
and future awards. Future awards are dependent upon continued 
---------------------------------------------------------------------------
appropriations.

    We also improve the health of underserved and vulnerable 
populations by strengthening the health workforce and connecting 
skilled professionals to communities in need. HHS supports the health 
care workforce across the entire training continuum--from academic 
training of nurses, physicians, and other clinicians--and expands the 
primary care workforce of clinicians who provide health care in rural 
and other underserved communities across the United States. Many of 
HRSA's health workforce training programs have a statutory funding 
preference for applicants that can demonstrate they (1) place 
graduates/program completers in medically underserved communities, 
either rural or urban, or (2) serve rural or underserved populations.

    For the National Health Service Corps (NHSC), the placement of NHSC 
clinicians is determined by health professional shortage area (HPSA) 
score regardless of whether the placement is urban or rural. As of FY 
2015, 64 percent of the NHSC Field Strength is urban, while 36 percent 
is rural. Additionally, as of FY 2015, 80 percent of the Nurse Corps 
Field Strength is urban while 20 percent is rural.

    HHS has many workforce program investments in underserved urban 
communities and will continue to support efforts to improve our health 
workforce for all underserved communities. Here are a few examples of 
how HHS is supporting underserved urban communities within New Jersey:

       In FY 2015, HRSA awarded approximately $650,000 to the Cooper 
Medical School of Rowan University (CMSRU) via the Health Careers 
Opportunity Program. The CMSRU is a mission-focused institution with a 
history of commitment to the community and increasing diversity of the 
healthcare workforce. It is located in Camden, New Jersey. The goals of 
the project entitled, ``Pathways to Success,'' are to develop a larger 
and more competitive pool of disadvantaged applicants interested in 
careers in healthcare and to position them for success.

       In FY 2015, HRSA awarded approximately $293,000 to the New 
Jersey City University (NJCU) via the Nursing Workforce Diversity 
program. The NJCU is partnering with Passaic County Community College, 
Essex County College and the Jersey City Medical Center, all of whom 
serve populations that are ethnically diverse and economically 
disadvantaged.

    We look forward to continuing to work with you on ways that we can 
better address the health care needs of urban and inner-city 
communities.

    Question. On November 4, 2015, more than three months ago, I sent 
the attached letter to Acting CMS Administrator Andy Slavitt. To date, 
we have not received a response or any indication of when a response 
might be forthcoming.

    Will you ensure that CMS provides us with a comprehensive response 
to the issues outlined in the letter prior to your confirmation?

    Answer. It's my understanding that Acting Administrator Slavitt 
responded to your inquiry on January 7, 2016. A copy of the response is 
attached.

                                 ______
                                 
             Question Submitted by Hon. Benjamin L. Cardin
    Question. As you know, pediatric dental coverage is included as an 
Essential Health Benefit (EHB) in plans offered through the health 
insurance marketplaces. To date, however, the Department of Health and 
Human Services (HHS) has not provided detailed information on 
marketplace dental enrollment for both stand-alone pediatric dental 
plans and health plans that provide pediatric dental benefits. Without 
this enrollment information, it is not possible to evaluate the extent 
to which including pediatric dental coverage as an EHB has increased 
the number of children with dental coverage in our country.

    The Senate FY16 Labor-HHS Appropriations Committee Report included 
language directing HHS to include in its marketplace enrollment reports 
data on children enrolled or who have re-enrolled in marketplace dental 
coverage through both stand-alone dental plans and qualified health 
plans (QHPs) that include pediatric dental benefits. This language was 
included by reference in the Consolidated Appropriations Act of 2016 
(omnibus spending bill).

    Would you please discuss HHS's plans to make this data available 
and the timeline for doing so?

    Answer. The Department is committed to providing the Committees 
with the most complete enrollment data available on children's dental 
coverage for states using the HealthCare.gov eligibility and enrollment 
platform and states using their own eligibility and enrollment 
platform. The Department will include this data in a future enrollment 
report this year.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. Dr. Wakefield, the Drug Safety and Quality Act passed in 
2013. It gave the Food and Drug Administration a timeline to implement 
a system to track and trace the pharmaceutical supply chain. This law 
now allows the FDA to track prescription drugs from the time they are 
manufactured to the moment a person picks up their prescription at the 
pharmacy. A key provision focused on our investigations into the gray 
market, where unscrupulous wholesalers would purchase drugs that are in 
a shortage and then resell these drugs at exorbitant prices to other 
wholesalers or pharmacies. We placed a particular emphasis on drugs 
that are distributed from primary wholesalers to secondary wholesalers 
and then to other secondary wholesalers and pharmacies. The legislation 
raised standards for all wholesalers to directly address this price 
gouging of drugs in short supply.

    As consumers grapple with the high cost of drugs, we have an 
opportunity to help bring down the costs of drugs that are experiencing 
shortages due to sales on the gray market. Would you agree that the 
track and trace la can help address the gray market?

    And critical to the successes of the system is its implementation. 
Where in the process is the FDA on publishing the necessary guidance 
and regulations to implement the provisions of the law that tackle 
drugs sold on gray market? Given the effect that this law could have on 
drug prices, will you prioritize the effort to implement these 
provisions?

    Answer. The Drug Supply Chain Security Act (DSCSA) addresses the 
gray market by outlining critical steps to build an electronic, 
interoperable system to identify and trace certain prescription drugs 
as they are distributed in the United States. The law provides greater 
accountability and transparency within our nation's drug supply to 
further create a closed distribution system.

    To improve drug supply chain security, FDA has been implementing 
requirements of the Drug Supply Chain Security Act. As part of this 
effort, FDA has issued 6 guidances for industry, launched our Annual 
Licensure Reporting Database for Wholesale Distributors and third-party 
logistics providers (3PLs), and announced a public workshop on Proposed 
Pilot Projects under the DSCSA.

    A key aspect of the law is that it requires exchange of product 
tracing information among trading partners, which helps enable 
verification of suspect and illegitimate product (including diverted 
drugs) at the lot level. In addition, starting in 2017, manufacturers 
will be required to imprint or affix a product identifier on certain 
prescription drugs that will help enable verification down to the 
package or homogenous-case level. Starting in 2023, this product 
identifier will need to be incorporated into the product tracing 
information that trading partners exchange.

    The DSCSA also requires members of the supply chain (manufacturers, 
repackagers, wholesale distributors and dispensers) to conduct certain 
verification activities and conduct business only with authorized 
trading partners. If a suspect or illegitimate product is identified in 
the supply chain, trading partners are required to take certain actions 
to quarantine and investigate such products.

    Additionally, the law requires wholesale distributors to report to 
FDA their wholesale distributor licenses in the U.S., creating a 
national database of licensed U.S. drug wholesalers. FDA is working 
diligently to develop national standards for licensure for wholesale 
distributors. As required by the DSCSA, these standards will address: 
storage and handling (including facility requirements), establishment 
and maintenance of records related to distribution of drugs, surety 
bonds, background checks, and inspections, among other requirements. 
FDA is also developing standards for licensure of third-party logistics 
providers, which should further enhance the integrity of the supply 
chain.

    As noted above, FDA has made significant progress in implementing 
the DSCSA. The agency continues to work with stakeholders and conduct 
outreach to implement the requirements of the DSCSA and help ensure the 
integrity of the supply chain.

    Question. In my home state of Colorado, at least eight rural 
hospitals are at risk of closing due to a Medicare payment system that 
does not adequately meet the needs of our nation's rural hospitals and 
families. If confirmed, how do you plan to prioritize this issue and 
stop the continuing closures of hospitals around the country that are 
often the only source of care in many communities?

    Answer. HHS remains dedicated to improving access to health quality 
care for rural Americans. There doesn't appear to be a single factor 
driving the closure of rural hospitals, though we've observed some 
commonalities: rural hospitals may experience issues with low patient 
volume and declining population or challenges arising from market 
forces and industry consolidation. These facilities may also have 
concerns over payer mix in states that declined to expand Medicaid or 
states that had high rates of uninsured and few commercial payers.

    HHS will continue to invest in rural communities through a number 
of innovative programs. The Center for Medicare and Medicaid Innovation 
is testing new payment and delivery models with a focus on making 
strides in improving the quality of care in rural areas. In FY 2017, 
Health Resources and Services Administration (HRSA) plans to award $2.4 
million in rural health network planning grants and more than $4.2 
million to support small health care provider quality improvement 
grants. Additionally, the FY 2017 Budget provides $25 million in grants 
to support Critical Access Hospitals across the country HHS continues 
to engage rural health stakeholders through projects such as the 
National Quality Forum to develop recommendations on performance 
measurement for rural and low-volume providers.

    Question. Dr. Wakefield, as you know from your work at HRSA, the 
National Health Service Corps encourages providers to train in 
underserved areas in exchange for loan forgiveness. Rural retention of 
providers is a two-fold challenge. It involves both attracting and 
retaining the right talent. In Colorado, we have seen many providers 
join a rural health care facility for a period of their National Health 
Service Corps but then choose to leave a rural area after their loan is 
fully forgiven. Many times, this occurs due to their partner having 
trouble locating work. Recruitment of primary care providers in rural 
Colorado can take more than 3 years and cost a facility upwards of 
$50,000. Less than 40% of primary care physicians will remain in the 
community for more than five years. Has HRSA thought about addressing 
these rural provider retention issues in a way that could create a path 
for providers to train in rural areas earlier in their career? Are 
there ways to address comprehensive issues such as family and social 
supports needed in rural areas in order to maintain access to care for 
rural patients?

    Answer. Having an adequate supply of trained providers in rural and 
other underserved areas is an issue of importance to HHS as well. 
Between FY 2017 and FY 2020, the Department proposes to devote a total 
of $2.86 billion in funding to the National Health Service Corps (NHSC) 
to address health professional shortages in high-need rural and urban 
communities across the country. This request is part of a new 
investment beginning in FY 2017 to bolster the nation's health 
workforce and to improve the delivery of health care across the 
country. This funding will improve the distribution of health care 
providers into high-need areas and address the pipeline of new 
providers through the Scholarship and Student to Service Loan Repayment 
Program. In FY 2015, nearly half (47 percent) of NHSC clinicians are 
serving at rural sites.

    The NHSC also works to retain primary care providers in underserved 
areas after completion of their service commitment to further leverage 
the federal investment and to build more integrated and sustainable 
systems of care. Recent surveys have noted a 55 percent retention rate 
for clinicians remaining in service to the underserved 10 years after 
completing their NHSC commitment. For short-term retention (defined as 
up to two years after service completion), the rate is 87 percent. In 
addition, the NHSC collaborates with partners in the community to 
conduct virtual job fairs to aid sites in rural and frontier areas in 
recruiting NHSC participants, including often providing support around 
partner or spouse employment opportunities.

    HRSA has also expanded the number of Rural Training Track and Rural 
Residency programs nationally, growing the number of programs from 23 
to 39 with eight more in development. Research indicates that 
physicians trained in a rural-focused residency are more than twice as 
likely to remain in rural practice as physicians trained in urban 
residencies. In addition, student interest in these programs is growing 
with an increasing match rate between medical students and rural 
training sites.

    In addition, HRSA supports the work of the Rural Recruitment and 
Retention Network (3RNet), a national network of state-based rural 
workforce experts who work to link rural communities in need of a 
clinician with doctors, nurses and dentists who want to practice in 
rural communities. In the past year, the 3RNet placed more than 1,700 
clinicians in rural communities.

    We look forward to continuing to work with you on this issue and 
ways that we can address the needs of rural areas in Colorado and 
across the country.

    Question. My office has heard from complex rehabilitation providers 
in Colorado that the delay in implementing Section 2 of the Patient 
Access and Medicare Protection Act could lead them to stop providing 
complex rehabilitation wheelchairs altogether. This would put patients 
with complex rehabilitation needs at risk of losing access to this 
specialized care. How will CMS help ensure that complex rehabilitation 
providers across the country will not be disproportionately burdened by 
the delay? And after July 1, 2016, how will CMS ensure that providers 
are able to receive payments from CMS in a timely and efficient manner?

    Answer. CMS began working on implementation of the Patient Access 
and Medicare Protection Act of 2015 (PAMPA) when it first passed 
Congress in late December. Since PAMPA was signed into law at the end 
of December, it would not have been feasible for us to implement it on 
January 1, 2016. Given the amount of system changes required and the 
testing involved, the soonest we are able to implement this change is 
July 1, 2016. Until these changes are implemented, payments for these 
items will be based on the adjusted DME fee schedule amounts. The DME 
adjusted fee schedule rates are currently in a 50/50 blend during this 
6-month transition period. On or after July 1, 2016, suppliers will 
receive the full fee schedule amount.

    To ensure beneficiary access to these accessories, particularly for 
these vulnerable populations, advance payment may be available for 
suppliers. Suppliers are able to submit a single advance payment 
request to their Medicare Administrative Contractor for multiple claims 
during this period. These advance payments may be issued if the 
requirements in CMS regulations are met.

    CMS will be monitoring beneficiary access closely during this time 
to ensure they receive the wheelchairs and accessories that they need.

    Question. When examining alternative payment models and primary-
care medical homes, has the Administration examined integrating 
behavioral health in the primary care setting? Many times, a primary 
care setting is the first place a patient will go with concerns 
regarding mental health. How can we encourage primary care providers to 
integrate with behavioral health providers on the primary care team at 
the same site of care? If confirmed, is this something you will 
prioritize as Deputy Secretary of HHS?

    Answer. CMS is testing new models of payment and care delivery that 
promote the integration of behavioral health in the primary care 
setting. For example, many practices participating in the Comprehensive 
Primary Care initiative, a multi-payer partnership with Medicare, other 
public and private payers, and primary care practices to test 
improvements in primary care delivery, have chosen to implement the 
integration of behavioral health services as an advanced primary care 
strategy. Under these efforts, many of the practices are assessing and 
supporting the psychological and social aspects of patients' health, 
and coordinating mental health and substance abuse resources to address 
patients' needs, as well as employing behavioral health specialists. 
HHS believes investments in these types of models that test the 
integration of behavioral health services across settings can support 
high quality, effective care.

    Mental health professionals have also said that communication with 
the primary care and other medical professionals is important and that 
a barrier to effective care coordination between these providers is 
separate payment. In the CY 2016 Medicare Physician Fee Schedule 
Proposed Rule, CMS sought information to assist the agency in 
considering refinements to coding and payment using the collaborative 
care model that could be developed through rulemaking for 
implementation in CY 2017. Collaborative care typically is provided by 
a primary care team, consisting of a primary care provider and a care 
manager, who works in collaboration with a psychiatric consultant, such 
as a psychiatrist. Care is directed by the primary care team and 
includes structured care management with regular assessments of 
clinical status by a psychiatric consultant. For example, CMS sought 
comment on how a code similar to the chronic care management code 
applicable to multiple diagnoses and treatment plans could be used to 
describe collaborative care services. CMS is carefully considering the 
comments it received on the collaborative care model to determine any 
next steps.

    Question. As CMS and States move forward with the implementation of 
the Medicaid conflict-free case management rule, how can we help ensure 
that patients do not lose access to the case workers and providers with 
whom they have developed relationships?

    Answer. The conflict of interest protections require that providers 
of HCBS must not provide case management or develop the person-centered 
service plan, except when the state demonstrates that the only willing 
and qualified entity to provide case management and/or develop person-
centered service plans in a geographic area also provides HCBS. In 
these cases, the state must devise conflict of interest protections 
which must be approved by CMS. CMS recognizes that in some instances 
the availability of certain providers will be impacted and we are 
actively working with states to meet these requirements while 
minimizing the potential impact on Medicaid beneficiaries.

    Question. Certain states like Colorado are awaiting decisions from 
the Centers for Medicare and Medicaid for specific Medicaid waivers in 
order to provide more innovative local care to Medicaid beneficiaries. 
When more than one waiver is awaiting a decision from the CMS for a 
long time, Medicaid beneficiaries can suffer as their health care 
cannot be customized for them in terms of state resources, capacity, 
and innovation. If confirmed, will you prioritize timely decision-
making on State Medicaid waiver applications?

    Answer. I appreciate the importance of a timely decision-making on 
state Medicaid applications. I understand that CMS makes every effort 
to respond to states in a timely manner and has taken steps to 
streamline the review and approval process. For example, CMS has 
designed a section 1115 demonstration application template that is 
available for states to use at their option to help ensure, among other 
things, that they are providing CMS with the information needed to 
review a section 1115 demonstration application in accordance with 
Federal regulation. CMS also established a new ``fast track'' process 
for reviewing proposals from states to extend established section 1115 
demonstrations that reauthorize longstanding policies with proven 
program outcomes. This process is designed to facilitate faster review 
of and federal decisions regarding state requests to extend established 
1115 demonstrations, reducing administrative burden on states and the 
federal government.

    It is important to note that each state's application is unique and 
the complexity and goals of the request will dictate the length of time 
needed for review. At times, states add to and revise their initial 
requests, which can also lengthen the time that it takes to approve a 
demonstration. We have an obligation to conduct thorough reviews of 
waiver applications, given that the beneficiary experience and Federal 
dollars are at stake. If confirmed, I will prioritize timely decisions 
while continuing our obligations to fully review waiver applications.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    The Finance Committee is meeting today to consider four nominations 
for key posts in the administration: Dr. Mary Wakefield to be Deputy 
Secretary of the Department of Health and Human Services; Ms. Elizabeth 
Ann Copeland and Mr. Vik Edwin Stoll to be judges on the U.S. Tax 
Court; and Mr. LaMont Eanes to be Deputy Commissioner of the Social 
Security Administration.

    First is Dr. Wakefield, who has served as Acting Deputy Secretary 
since March of last year. When you ask Dr. Wakefield to describe her 
role, she'll tell you it's like being the chief operating officer. And 
that is a demanding role at an agency comprised of eleven operating 
divisions, including the Centers for Medicare and Medicaid Services, 
the Administration for Children and Families, the Food and Drug 
Administration, and the National Institutes of Health.

    Before becoming Acting Deputy Secretary, Dr. Wakefield served for 
six years as Administrator of the Health Resources and Services 
Administration. She is an expert in rural health, an educator, and a 
nurse. She's even a former Capitol Hill staffer, which means she 
understands how to work effectively with Congress. In my view, she is a 
very well-qualified nominee.

    Next are Elizabeth Ann Copeland and Vik Edwin Stoll, both nominated 
to be judges on the U.S. Tax Court. These two nominees each have 
decades of valuable experience in tax law, Ms. Copeland in Texas and 
Mr. Stoll in Missouri.

    For nearly a century, the Tax Court has guaranteed an important 
level of transparency and due process that protects every American 
taxpayer. It ensures that all Americans can get a fair and timely 
hearing on tax disputes before having to fork over a dollar. Without 
this system, taxpayers would be forced to pay up front and make their 
case in slower-moving federal courts.

    The 19 judges who make up the Court have a challenging mission that 
requires them to travel all around the country to dozens of cities. 
These judges do indispensable work to ensure that taxpayers' voices are 
heard and the nation's tax laws are enforced in a fair and effective 
manner.

    Next is Mr. LaMont Eanes, nominated to be Deputy Commissioner of 
Social Security. This program is a lifeline for seniors, serving more 
than 60 million Americans and keeping many of them from falling into 
poverty. And SSA is a big agency with 1,280 field offices nationwide to 
meet people's needs. It requires strong, confirmed leadership.

    Some have raised questions about this nomination because Mr. Eanes 
background is not in social insurance or public management. But 
sometimes, a fresh perspective may be valuable in helping tackle 
challenges in federal agencies. Mr. Eanes brings significant management 
and technology expertise from his time in the private sector, which 
could be highly beneficial to Social Security in delivering the best 
possible customer service.

    Finally, I want to remind the committee that Social Security has 
not had a confirmed Commissioner in place since February 2013. This 
committee should consider whether or not it is wise to confirm a Deputy 
before a Commissioner is confirmed. SSA runs best when its uppermost 
leadership positions are filled by strong leaders who've been approved 
by the Senate, but legitimate questions have been raised about the best 
way to proceed.

    So I look forward to discussing that issue with my colleagues, and 
my hope is the administration puts forward a nominee to be Commissioner 
for the committee to process as soon as possible.

    Congratulations to our nominees, and thank you for being here 
today.

                                 ______
                                 

                             Communication

                              ----------                              


              American Association of Colleges of Nursing

 One Dupont Circle, NW, Suite 530   Washington, DC 20036-1120   202-
                             463-6930 tel 
                 202-785-8320 fax   www.aacn.nche.edu

February 11, 2016

Senate Committee on Finance
Rm. SD-219
Dirksen Senate Office Bldg.
Washington, DC 20510

RE: Senate Finance Committee Hearing to Consider the Nominations of 
Mary Katherine Wakefield, Andrew LaMont Eanes, Elizabeth Ann Copeland, 
and Vik Edwin Stoll, February 4, 2016

Submitted by: Deborah Trautman, Ph.D., R.N., FAAN, President and CEO
American Association of Colleges of Nursing
One Dupont Circle NW, Suite 530
Washington, DC 20036

On behalf of the American Association of Colleges of Nursing (AACN), I 
would like to extend our continued support for the nomination of Mary 
Wakefield, Ph.D., R.N., FAAN, for Deputy Secretary of the U.S. 
Department of Health and Human Services (HHS), and I urge her 
confirmation. As the national voice for baccalaureate and graduate 
nursing education, AACN represents over 780 schools of nursing that 
educate more than 457,000 students and employ over 18,000 full-time 
faculty members. These institutions are responsible for producing half 
of our nation's registered nurses and all of our advanced practice 
registered nurses, nurse faculty, nurse researchers, and other 
professionals with advanced nursing degrees.

Throughout her career, Dr. Wakefield has been a bold leader committed 
to increasing access to high-quality, affordable health care for 
millions of Americans. During her service as Administrator of the 
Health Resources and Services Administration (HRSA), she guided the 
agency's programs that responded to the needs of the health professions 
workforce and our nation's most vulnerable patients. As the Acting 
Deputy Secretary of HHS, she has demonstrated her ability to affect 
positive change in the healthcare field through partnering with 
numerous internal and external stakeholders.

Prior to coming to Washington, DC, Dr. Wakefield was a leading rural 
healthcare advocate as the Associate Dean for Rural Health at the 
University of North Dakota School of Medicine and Health Science. 
During her time at HRSA, she continued her work in rural healthcare as 
the chair of the Institute of Medicine's (IOM) committee that produced 
the report, Quality Through Collaboration: Health Care in Rural 
America, which examines the quality of health care in underserved 
regions of the country. Additionally, she helped shape national health 
policy around rural healthcare as a member of the National Advisory 
Committee to HRSA's Office of Rural Health Policy. Throughout her 
luminous career, she has demonstrated a commitment to ensuring our most 
vulnerable communities are not excluded from national dialogues on 
healthcare transformation.

Moreover, Dr. Wakefield has exemplified the ability to address problems 
affecting Americans and solutions through her positions on numerous 
prestigious healthcare agencies and committees.

During her time on the Medicare Payment Advisory Commission, various 
IOM committees, and as the Chair of the National Advisory Council for 
the Agency for Healthcare Research and Quality, Dr. Wakefield 
contributed to the implementation of long-lasting and impactful changes 
to our healthcare delivery system.

Dr. Wakefield's honesty, tenacity, and ability to collaborate with 
innumerable stakeholders was echoed through her own words when she 
testified before the Senate Finance Committee on February 4, ``. . . it 
really is in a nurse's DNA to work collaboratively and to address 
problems fully and quickly.'' This ability to work collectively to 
solve problems has been evident in her work at HRSA and HHS, and we are 
confident she will continue to do so as Deputy Secretary for the 
Department.

AACN recognizes that Dr. Wakefield's leadership would continue to be of 
great asset to HHS and the nation at-large, and therefore fully 
supports her nomination and urges her confirmation.

If our association can be of any assistance to you or your staff, 
please do not hesitate to contact AACN's Senior Director of Government 
Affairs and Health Policy, Dr. Suzanne Miyamoto, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="de8db3b7a7bfb3b1aab19ebfbfbdb0f0b0bdb6bbf0bbbaab">[email&#160;protected]</a> or 202-463-6930, ext. 247.

Sincerely,

Deborah Trautman, Ph.D., R.N., FAAN
President and CEO

                                   [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
